<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-241]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 108-241, Pt. 4

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1050

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2004 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 4

                                AIRLAND

                               ----------                              

                        MARCH 12; APRIL 3, 2003


         Printed for the use of the Committee on Armed Services

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                         2004--Part 4  AIRLAND

                                                 S. Hrg. 108-326, Pt. 4
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1050

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2004 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 4

                                AIRLAND

                               __________

                        MARCH 12; APRIL 3, 2003


         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
87-326 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                 ______

                        Subcommittee on Airland

                    JEFF SESSIONS, Alabama, Chairman

JOHN McCAIN, Arizona                 JOSEPH I. LIEBERMAN, Connecticut
JAMES M. INHOFE, Oklahoma            DANIEL K. AKAKA, Hawaii
PAT ROBERTS, Kansas                  MARK DAYTON, Minnesota
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
SAXBY CHAMBLISS, Georgia             HILLARY RODHAM CLINTON, New York
ELIZABETH DOLE, North Carolina       MARK PRYOR, Arkansas

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                          Army Transformation
                             march 12, 2003

                                                                   Page

Brownlee, Hon. Les, Under Secretary of the Army..................     5
Keane, Gen. John M., USA, Vice Chief of Staff, United States Army     8

  Navy, Marine Corps, and Air Force Aviation and Air-Launched Weapons 
                                Programs
                             april 3, 2003

Young, Hon. John J., Jr., Assistant Secretary of the Navy for 
  Research, Development, and Acquisition.........................    64
Nathman, Vice Adm. John B., Deputy Chief of Naval Operations for 
  Warfare Requirements and Programs..............................    72
Hough, Lt. Gen. Michael A., USMC, Deputy Commandant for Aviation.    73

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                       WEDNESDAY, MARCH 12, 2003

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                          ARMY TRANSFORMATION

    The subcommittee met, pursuant to notice, at 3:03 p.m., in 
room SR-232A, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Sessions, Inhofe, 
Lieberman, Akaka, Bayh, Clinton, and Pryor.
    Majority staff members present: Ambrose R. Hock, 
professional staff member; Gregory T. Kiley, professional staff 
member; and Thomas L. MacKenzie, professional staff member.
    Minority staff members present: Daniel J. Cox, Jr., 
professional staff member; Creighton Greene, professional staff 
member; and Peter K. Levine, minority counsel.
    Staff assistants present: Andrew Kent and Nicholas W. West.
    Committee members' assistants present: John A. Bonsell, 
assistant to Senator Inhofe; Darren Dick, assistant to Senator 
Roberts; Arch Galloway II, assistant to Senator Sessions; 
Lindsey R. Neas, assistant to Senator Talent; Henry J. 
Steenstra, assistant to Senator Dole; Frederick M. Downey, 
assistant to Senator Lieberman; Davelyn Noelani Kalipi, 
assistant to Senator Akaka; Todd Rosenblum and Rashid Hallaway, 
assistants to Senator Bayh; Andrew Shapiro, assistant to 
Senator Clinton; and Terri Glaze, assistant to Senator Pryor.

      OPENING STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. All right. Let us begin. But before I 
make my opening comments as Chairman of the Airland 
Subcommittee, I would like to express our sympathies to the 
families of the soldiers lost at Fort Drum, New York, in the 
training mishap. Too often, we forget that training itself puts 
our soldiers, sailors, marines, and airmen in harm's way. This 
country owes our all to them and their families, and a debt of 
gratitude for their selfless dedication to this country.
    I would note that in recent weeks, I have had the 
opportunity to talk to a young staff sergeant from the National 
Guard in Alabama, Mr. Secretary, a distant relative of 
Congressman Robert Aderholt from Alabama, and he was wounded in 
an ambush in Afghanistan within the last couple of months. Then 
a few days ago, I talked to the wife of a young soldier who is 
part of a Decatur, Alabama National Guard unit in the same 
area, Special Forces, and her husband lost the lower part of 
his leg when the vehicle he was in hit a mine.
    So we do have soldiers out there right now--as, General 
Keane, I know you know--and we ought never to forget that and 
to remember them and know that they are at great risk every 
day.
    The Airland Subcommittee convenes today to receive 
testimony from the Under Secretary of the Army, Les Brownlee, 
and the Vice Chief of Staff of the Army, General John Keane, to 
explore Army transformation and modernization issues and 
initiatives.
    I would really like to thank Senator Lieberman for his 
tremendous leadership on this subcommittee over the past 2 
years. During that time, the Army made significant progress in 
its transformation as a result of his leadership and this 
subcommittee's work. So I am looking forward to working with 
him, and I will continue to maintain a bipartisan approach to 
national military issues.
    I would like to welcome Senators Inhofe, Roberts, Akaka, 
and Dayton back to the subcommittee, and also our new members, 
Senators McCain, Talent, Chambliss, Dole, Bayh, Clinton, and 
Pryor. I look forward to working with them in a bipartisan 
manner as we have in the past on this panel.
    This subcommittee is responsible for the procurement and 
research and development (R&D) accounts in all the Services as 
they are applied to Army ground systems and air platforms and 
the Navy, Marine Corps, and Air Force tactical aviation 
programs. As we understand, our decisions directly impact the 
future readiness of our Armed Forces. As we meet this 
afternoon, our Armed Forces are fighting the war on terror and 
preparing for a potential conflict with Iraq, while 
simultaneously maintaining forward presence in many parts of 
the world.
    The Army, like our other Services, is busy, and I have no 
doubt about our military's ability to fight and win a war. 
However, we are concerned with the tremendous burdens these 
missions place on our citizen soldiers and the employers who 
support them. I hope that we do not take these soldiers or any 
of the soldiers, sailors, marines, and airmen in the Active and 
Reserve Forces for granted. That is why I am particularly 
sensitive to the resources allocated to the Services to perform 
their primary mission, to defend this Nation.
    The Army request of $93.9 billion for fiscal year 2004 
represents a $3 billion increase over 2003 appropriated levels, 
including $10.8 billion for procurement, a 15-percent reduction 
in real terms over fiscal year 2003, and $9.1 billion for 
research and development, a 20-percent increase over 2003.
    Clearly, the Army has taken a risk with their procurement 
accounts to fund their research and development accounts--the 
necessary investments to transform. I support your approach to 
this and a balanced approach to your budget and we will be 
talking about that as we go forward.
    Consistent with the Office of the Secretary of Defense 
(OSD) transformation goals, the Army request applies funding to 
the Future Combat Systems (FCS), precision munitions, sensor 
and communications technology, science and technology (S&T), 
and missile and air defense programs. In order to fund these 
initiatives, the Army, again, used Legacy Force systems to 
finance the transformation.
    In fiscal year 2004, the Army terminated 24 programs and 
restructured 24 others for $22.5 billion over the Future Years 
Defense Program (FYDP), $7.1 billion in fiscal year 2004, which 
was reallocated for transformation.
    So long as the Army continues to make progress with 
fielding of the Stryker Brigade Combat Teams (SBCT) and 
successfully transitions FCS technologies into reality, the 
risk to the Legacy Force is acceptable.
    Over the past several years, the Airland Subcommittee has 
asked the Army how they would prioritize among the Objective, 
Interim, and Legacy Forces. With 77 program terminations and/or 
restructures in the Legacy Force, it is clear that the Army has 
set its priorities. I applaud and support your willingness to 
make these tough decisions, and we will talk about them in some 
detail.
    We will explore a wide range of issues related to the 
Army's transformation and modernization accounts. Secretary 
Brownlee, General Keane, we look forward to discussing with you 
the Army's priorities regarding the funding of its three axes 
of transformation strategy, the Objective Force, the Interim 
Force, and the Legacy Force.
    The subcommittee is interested in hearing your views on the 
current status of Objective Force systems, particularly the FCS 
and its upcoming Milestone B review, the SBCTs, especially the 
Army's approach to the Deputy Secretary of Defense's directions 
to modify the 5th and 6th SBCTs, and the progress the Army has 
made, or has not made, regarding the funding of the Army 
Aviation Modernization Plan, specifically the Comanche 
helicopter program restructure and the impact of the 
Department's decision to restructure the CH-47 Chinook 
helicopter program to support Special Operations Command 
requirements.
    We are particularly interested in hearing your rationale 
for terminating and restructuring a number of Legacy Force 
programs in order to fund the Objective Force, and the 
attendant risk associated with these decisions.
    The Airland Subcommittee has been a strong supporter of the 
Army's effort to transform since the fiscal year 2001 budget 
request, the first submitted after the Chief of Staff of the 
Army announced his transformation initiative in October 1999.
    The subcommittee understands the Army's need to transform 
and, over fiscal years 2001 to 2003, authorized the addition of 
over $1.7 billion to the Army's procurement and R&D accounts to 
support Army transformation priorities.
    Gentlemen, we welcome you and thank you both for appearing 
before the Airland Subcommittee today.
    Before we hear your opening statements, I would like to 
recognize Senator Lieberman for any opening comments he might 
have.

             STATEMENT OF SENATOR JOSEPH LIEBERMAN

    Senator Lieberman. Well, thanks very much, Mr. Chairman. 
Thanks for your very good opening statement and for your kind 
words about my service on the subcommittee.
    I joined you--in absentia, Senator Pryor, you were welcomed 
to the subcommittee, and I am glad to do it in person now.
    This is actually my fifth year in the leadership of this 
Airland Subcommittee, first as a ranking member for 2 years, 
then as chairman, now as ranking member again. I wanted very 
much to come back on this subcommittee because I believe that 
the substantive issues that are dealt with here, namely the 
subject of the hearing today, Army transformation, are among 
the most important affecting our national security for the 
decades ahead.
    I also appreciate the high degree of bipartisanship that 
has always been the hallmark of this subcommittee. I 
appreciate, Senator Sessions, your statement in support of that 
tradition and carrying it on, and I pledge in turn to you my 
own full cooperation. I look forward to working with you on 
this important effort to modernize our ground and air forces.
    Secretary Brownlee and General Keane, it is a pleasure to 
welcome you back to this hearing room, and to this topic. The 
subcommittee has been--as Senator Sessions said--a strong 
supporter of the Army's effort to transform, and I am proud of 
that record.
    However, it has been a struggle for both the Army and the 
subcommittee. I am going to ask, Mr. Chairman, if the rest of 
my statement could be entered into the record. It is in part a 
recitation of the history of the last 4 years on this subject. 
I am just going to draw from a few points of it.
    Over those 4 years, the leadership of the subcommittee, 
recognizing that the Army could not afford with the funds that 
it was being given to fully support its programs across the 
Objective, Interim, and Legacy Forces, urged the leadership of 
the Army to set definite priorities.
    This budget that you have given us does just that. Army 
priorities as presented are the Objective, Interim, and Legacy 
Forces in that order. The Army has chosen to fund those forces 
at the expense of the Legacy Force at a cost of restricting 
modernization and recapitalization to only two divisions in the 
counter-attack corps.
    I know that some will argue with that prioritization, and I 
am sure we will discuss it today at this hearing, but I, for 
one, want to join the chairman in giving the Army leadership 
credit for making some hard decisions in that regard.
    The subcommittee has also seen transformation to the 
Objective Force as the highest priority and has targeted 
additional resources for that endeavor.
    The Army according to this budget intends to accelerate the 
development and fielding of the Objective Force for an initial 
operational capacity (IOC) by fiscal year 2010, and I totally 
support that effort. However, I do want to raise questions as 
to whether the level of R&D funding will allow that to happen. 
I note that once again the Army has submitted an Objective 
Force S&T unfunded requirement, this time $40 million.
    I would also question whether the maturity of the relevant 
technologies will allow the 2010 IOC date, and if not, whether 
the risk we have taken with respect to the Legacy Force then 
becomes excessive. Those are difficult questions and I look 
forward to your reasoned answers to them.
    Finally with regard to the Legacy Force, I remember asking 
last year at a similar hearing whether the Army could afford to 
recapitalize three divisions and the armored cavalry regiment 
of the counter-attack corps. The answer, I take it, was 
ultimately no, as the Army now intends to do only the two 
divisions.
    I think this year perhaps the question that we should 
discuss is whether the Army today and in this environment can 
afford not to recapitalize at least the armored cavalry 
regiment of that corps, which is so vital for reconnaissance 
and security missions.
    So those are some of the issues that, Mr. Chairman, I know 
that our subcommittee will consider as we evaluate the fiscal 
2004 budget request and mark up the defense authorization bill. 
I am confident that our witnesses today, two men who have 
served their country so honorably and ably and effectively in 
different capacities, can give us very helpful insight to guide 
us in our work.
    I thank you, Mr. Chairman.
    Senator Sessions. Thank you. It is good to see Secretary 
Brownlee on the other side of the table there.
    Senator Inhofe or Senator Pryor, do you have any comments 
that you would like to make before we get started?
    Senator Inhofe. No, not from me. Thank you.
    Senator Sessions. Let me just start off then with a general 
question. As we noted, the Army's $94 billion fiscal year 2004 
budget--I forgot. The good staff of Secretary Brownlee is 
always helpful.
    Secretary Brownlee. Yes, sir. They are very well trained, 
sir. [Laughter.]
    Senator Sessions. How about an opening statement? We would 
love to hear from both of you. [Laughter.]

  STATEMENT OF HON. LES BROWNLEE, UNDER SECRETARY OF THE ARMY

    Secretary Brownlee. Thank you, sir. Sir, first of all, let 
me thank you for your very kind words about our soldiers, those 
who have been wounded and those who have lost their lives, and 
particularly those who lost their lives yesterday in training 
at Fort Drum. We appreciate those words very much from you to 
the soldiers who really belong to all of us, and to their 
families and loved ones, who I am sure are now mourning their 
loss along with us. Thank you very much, sir.
    Senator Sessions. Yes.
    Secretary Brownlee. Thank you, Mr. Chairman and Senator 
Lieberman, distinguished members of the Airland Subcommittee.
    First, I would like to tell you how grateful General Keane 
and I are to have this opportunity to speak to you today about 
Army transformation.
    I am grateful also to have had the opportunity to meet with 
some of the Members and their staffs, and I just would like to 
state if there are any Members with whom I was not able to meet 
who would like to meet with me for any reason, I would be very 
happy to arrange those meetings in accordance with your 
convenience.
    At this time, General Keane and I would like to request 
that our joint witness statement be entered into the record.
    Senator Sessions. Without objection.
    Secretary Brownlee. Sir, as I begin my second year as the 
Under Secretary of the Army, I am again honored to come here 
and testify before this distinguished subcommittee and while I 
thoroughly enjoy serving in my current capacity, I have to 
admit that I miss very much the work of this wonderful 
committee where truly bipartisanship is not just a word, but it 
is a common way of doing business, and it is recognized 
everywhere that I know.
    But I do miss the people, both Members and the wonderful 
staff members, and I will always be proud to say that I was a 
member of the staff of this very important committee, and 
particularly this subcommittee where I was the lead staffer for 
several years before I was honored to become a staff director. 
In fact, I suggested the name, which it still bears, so 
anyway--[Laughter.]
    If you would be kind enough to indulge me, Mr. Chairman, 
for just a few moments, I would like to say a few words about 
the man sitting next to me, General Jack Keane.
    When I was the staff director of this committee, I had the 
opportunity to observe him on many occasions. Since I have been 
the Under Secretary, I have had the privilege of working 
closely with him on a daily basis. Over these past months, 
General Keane has only added to the very high degree of respect 
and admiration that I have for him. His management 
capabilities, dedication, loyalty, and, most important of all, 
the leadership that he brings to the Army is invaluable.
    The Army and the American people are fortunate that General 
Keane serves the Army in the marvelous way that he does. I am 
honored to work alongside him and to accompany him here today 
to testify to this subcommittee on the subject of Army 
transformation.
    John Keane and I would also like to thank you for your 
continued support of the Army. The 2003 budget has allowed us 
to make significant improvements in many key areas. We have 
structured our budget priorities for 2004 to reflect the same 
priorities as 2003: people, readiness, and transformation.
    In the last year, I have had the opportunity and the 
privilege to visit our wonderful soldiers who are forward 
deployed around the world. I have visited soldiers in Korea and 
the Philippines, including our special forces on Basilan 
Island. I had the privilege of spending Thanksgiving with 
soldiers in Bosnia, Kosovo, Kuwait, and Afghanistan, and 
returned to Kuwait and Afghanistan in January.
    Visiting these soldiers, as I know many of you have also, 
leads you to only one conclusion, that they are ready for 
whatever comes.
    Unquestionably, we have the best Army in the world. Our 
soldiers are well-led, well-trained, and well-equipped. They 
are determined and committed. They are disciplined and 
professional. I have no doubt they will accomplish any mission 
they are given.
    As I testified in last year's hearings, today's threats to 
our Nation's interests are more complex and diverse than at any 
time in our history. In order to fill our non-negotiable 
contract with the American people, to decisively fight and win 
our Nation's wars, the Army must change the way it fights and 
the way it deploys in the future.
    It must be able to get to the fight quickly. The Army must 
be able to support and sustain rapid combat power efficiently 
by reducing its operational and tactical logistics footprint.
    This is clearly a different world than the one that existed 
when I joined the staff of this committee in early 1984 during 
the height of the Cold War. Recent operations in Kuwait, 
Bosnia, Kosovo, and Afghanistan have illustrated the need to 
transform our Army.
    Our heavy forces are the best in the world, very survivable 
and extremely lethal. But they are slow to deploy and difficult 
to sustain.
    On the other hand, while our light forces are rapidly 
deployable, they lack the protection, lethality, and tactical 
mobility we need across the full spectrum of military 
operations.
    Transforming our Army to meet these new requirements is not 
without risk. Balancing this risk is the key to successful 
transformation.
    The most important challenge we face is to maintain a 
strong and lethal current force, while we are transforming. We 
have accepted risk in selective modernization and 
recapitalization. We continue to assess these risks as we 
balance current readiness, the well-being of our people, 
transformation, the global war on terrorism, and new 
operational commitments.
    Although we are working to field the Objective Force, we 
also understand that the current force is the force at war 
today and the force that will continue to serve us for several 
more years.
    Through the selective modernization and recapitalization I 
spoke of earlier, it is the current force that will guarantee 
our Army's near-term warfighting readiness throughout the 
transformation process.
    The Army 2004 to 2009 Program Objective Memorandum makes a 
clear statement about our priorities and our risk management. 
We are committed to transforming the Army and have allocated 
funds to complete the fielding of our six Stryker Brigades, the 
Comanche, the Future Combat System, and other key 
transformation-related programs.
    The Army appreciates Congress authorizing and appropriating 
funding for the complete fielding of the six Stryker Brigades. 
We have had to make some tough decisions with existing 
programs, terminating some and restructuring others, in order 
to provide the funds necessary for transformation.
    These decisions have allowed us to generate billions of 
dollars worth of savings--savings that can be reallocated to 
resource essential Objective Force, R&D, and eventually 
procurement.
    The Comanche helicopter is an example of how we 
restructured some of our programs. We have restructured this 
program using evolutionary development and an acquisition 
strategy that delivers capabilities in blocks. We have added 
time and funding to decrease program risk and to enhance the 
probability of success.
    Ultimately, we will field a mix of manned helicopters and 
unmanned aerial vehicles that will give us the optimum set of 
capabilities.
    The continued support of this Congress remains essential to 
the success of the Department of Defense. In that regard, you 
will receive soon a package of legislative proposals for the 
Department. These will include proposals on the management of 
civilian personnel, acquisition, and other key management 
initiatives.
    I urge you to support this package and we would appreciate 
also very much your support and favorable consideration of the 
Army's budget.
    Mr. Chairman and distinguished members of the subcommittee, 
I thank you again for this opportunity to appear before you and 
discuss these critical issues.
    I yield the floor to my dear friend and colleague, and I 
look forward to your questions.
    Senator Sessions. Thank you, Secretary Brownlee. I 
appreciate those remarks.
    General Keane.

  STATEMENT OF GEN. JOHN M. KEANE, USA, VICE CHIEF OF STAFF, 
                       UNITED STATES ARMY

    General Keane. Mr. Chairman, Senator Lieberman, Senator 
Inhofe, Senator Pryor, thank you. I appreciate the opportunity 
to be here with you this afternoon to talk about Army issues.
    I am certainly honored to be here with Secretary Brownlee. 
He is a real joy to work with. We truly appreciate the 
leadership that he has brought to our Department.
    I want to thank you up front for the support that you 
provided to us in the 2003 budget. We appreciate very much your 
support for Army readiness, for the pay compensation for our 
soldiers, for our civilians, and also for Army transformation.
    Today, we are a Nation at war. I cannot recall a time in 
our history, not since World War II, when our Army has been 
engaged in more places than it is today. Your Army is in 
Kuwait, Kosovo, Bosnia, Sinai, Korea, Honduras, the 
Philippines, and Europe.
    We have more than 240,000 troops deployed in forward 
stations in 120 countries around the world. To support our 
efforts, we have mobilized 130,000 Reserve component soldiers.
    We are preparing for a war in Iraq, and we are already 
fighting a war in Afghanistan. I will tell you on a personal 
note, I do believe there is something different about this war 
in Afghanistan. I have been there four times in the last year 
and a half, and the difference is in the attitude of our 
soldiers.
    Upon reflection, I realized that we have not deployed our 
soldiers on behalf of the American people since World War II. 
Every deployment that we have been on since World War II has 
been to help a beleaguered nation where some thug has imposed 
his will on his people or somebody else's people.
    The war in Afghanistan is all about the American people. 
Our soldiers get it. You can see it in the intensity of their 
attitude and this dogged determination that they have to 
succeed. I asked a company commander from the 82nd Airborne 
Division a routine question I normally ask which is, ``What is 
your most significant challenge?'' His immediate response was, 
``Sir, my most significant challenge is when we get into a 
fight here to control the amount of physical bravery that my 
soldiers display.'' He said, ``This is the first time I have 
ever been in combat.''
    I asked my sergeants have they ever experienced anything 
like this before--those who had more combat experience--and the 
sergeants said, ``No. We have never seen anything quite like it 
in terms of the scale, the magnitude of the bravery of our 
soldiers.'' They are also inspired in their openness and 
directness about why they are there, and how willing they are 
to give up everything that they care about in life to protect 
America, its people, and our way of life. It is inspirational 
to be around them and, frankly, most of us are actually moved 
to tears being around them.
    So there is really something special that has taken place 
there, and I know you are very proud of them. But we have a 
wonderful opportunity to visit them a little bit more than you 
do. I just wanted to share some of that with you.
    I also wanted to share with you some lessons that we have 
learned in Afghanistan, just to note a few of them very briefly 
to you. Our Special Forces teams have excellent long-range 
communications, target designation, and the ability to transmit 
that information to all kinds of strike platforms.
    Just 4\1/2\ years ago in Kosovo, we used one strike 
platform to drop GPS-guided munitions and that was a B2. In 
Afghanistan, we are using every strike aircraft we have from 
all Services, dropping GPS-guided munitions to include the B52 
at 45,000 feet, and our Special Forces teams are communicating 
directly with each aircraft usually in the digital mode with no 
voice communication whatsoever.
    It is a remarkable achievement and is a testimony to what 
is happening to us in joint warfighting, as we move down the 
vertical access, and where you are having organizations at 
lower levels having an enormous amount of combat power 
available to them that heretofore was not even imagined.
    The other thing is our training strategy. Our training 
strategy has always been ``train as you fight,'' and it is a 
buzzword in a sense, but it has been a theology to us for 14 
years. We have been dealing with asymmetric scenarios at the 
Joint Readiness Training Center, initially at Fort Chafee, and 
for the last number of years at Fort Polk.
    Those asymmetric scenarios trained our Special Operations 
Forces and our light forces and our air forces to deal with 
asymmetric threats like we are facing in Afghanistan.
    While the war against the al Qaeda had a strategic level, 
because we were fighting a network, it is obviously different 
because it does not represent a nation or an Army at the 
tactical level. We had been preparing our soldiers for that 
kind of war for over a decade. That is one of the reasons why 
they have responded so well to it.
    Marksmanship, our ability to hit what we shoot at, has been 
excellent, and again our physical conditioning paid off in 
Operation Anaconda, where we operated routinely at 8,000 to 
10,000 feet, and our soldiers were able to bear up under those 
altitudes and the stress of that fight.
    Afghanistan has a higher density of mines than any country 
in the world. We have extracted over a million mines from that 
country. It has paid a price. I have three soldiers at Walter 
Reed right now who have all lost their limbs to it, and we have 
had two previous limb injuries as well.
    But it is a remarkable achievement, the amount of mines 
that we have taken out of there, and the technology that we are 
using in some cases is still primitive, but nonetheless we have 
made some real progress.
    The care and treatment of our wounded, at the point of 
injury, is very responsive care, designed to preserve, to treat 
for shock, to stop bleeding. We were able to do that--all of 
our soldiers have advanced combat lifesaver techniques that are 
beyond the first aid that we heretofore were aware of. Very 
rapid evacuation to a forward surgical team--not a hospital--
that is just at the higher level command post. So within 
minutes, we have a soldier in the hands of a skilled surgeon. 
It has preserved the lives of many of our soldiers.
    Now, the Interceptor body armor that you helped fund for us 
protects our soldiers against 7.62 millimeter rifle shot. We 
have a number of them who actually have the bullets in them 
and, of course, they will be trophies for life, I am sure. We 
would be more than happy to let them keep them. But the armor 
has been very significant in protecting the torsos of our 
soldiers.
    The Apache helicopter is most notably in Operation 
Anaconda. We had nine helicopters in that fight. Virtually all 
of them were shot at, and they all had bullet holes. Twenty-
seven of the 28 rotors all had bullet holes in them, and not a 
single one of those Apaches went down.
    They were damaged to be sure, and it was just remarkable 
how they stayed in the fight. The soldiers, if they were here, 
would tell you that in the daytime the Apache helicopter 
provided the best close air support that they had. At night, it 
was the AC-130 gunship.
    The CH-47 helicopter, which you have also funded for us, 
was the only United States military aircraft that could operate 
at 10,000 feet with a load. If we did not have the aircraft, we 
never could have taken the fight directly to the al Qaeda, as 
we did in Operation Anaconda, because nothing else could get up 
at that altitude with a heavy load. We were blessed to have it.
    As we fight the global war on terrorism, we are also 
preparing for this war in Iraq, and much has changed in the 
last 12 years since we last dealt with Saddam Hussein. This 
time around, in this fight, we will bring with us the A3 
Bradley, which has an enhanced armor and second generation 
Forward-Looking Infrared Radar (FLIR), and also the M1A2 Abrams 
tank that has an improved fire control system, and the second 
generation FLIR.
    We have already deployed the PAC3 Patriot missile. We will 
have the Apache Longbow, a D model aircraft with its modern 
fire control system, which can detect and track and prioritize 
72 of those targets at one time. It is a quantum leap over the 
A model Apache.
    We have equipped our light force soldiers who are in Kuwait 
preparing for war in the recent months with new equipment such 
as the advanced combat helmet; a binocular laser rangefinder, 
which was used in Afghanistan--it was called the Viper; and a 
long range sniper rifle. We have a shoot-around-the-corner 
sight now, pretty remarkable technology. We have brought them 
some robotics to help clear bunkers and buildings when we work 
in urban areas. We have used them very successfully in 
Afghanistan.
    We have equipped our soldiers with the best chemical and 
biological protection equipment that is available in the world 
today. All of our soldiers have it. For the first time in our 
Army history, we will have unmanned aerial vehicles (UAV) that 
operate at the brigade and the corps levels.
    UAVs and Joint Surveillance and Target Attack Radar System 
(JSTARS) are linked directly to our command posts today. We 
also have the Army Battle Command System, which integrates 
command and control systems found at each echelon, from the 
ground force component commanders at the theater, joint task 
force level all the way down to our individual soldiers and 
weapons platforms.
    That is a first in combat for us. We have Common Ground 
Stations and we have Blue Force Tracking Systems that are in 
place and that will provide our soldiers with unprecedented 
situational awareness.
    So it is evident that we have not remained static for the 
last 12 years. Our Army remains the dominant land force in the 
world, and we thank you for the support that you have been 
providing to us.
    Our Army in Kuwait and in the other countries in the 
surrounding area, stand there today. They are well-trained; 
they are well-led; and they are well-equipped. They are ready 
to answer the President's call if he desires.
    What much of this discussion today is about is our need to 
change, and even to this day, some people still ask us, ``Why 
change? You are such a formidable Army that we see out there. 
There is no other force like you in the world. Why do you have 
to change?''
    Our answer is simple. The world has changed, and the Army 
must adapt. We have two fundamental challenges. First, along 
with our sister services, the Air Force and the Navy, we know 
we must maintain a decisive edge and overmatch, to deter other 
armies, armies that are usually large and defensive in nature 
with some limited offensive capability that they use within 
their region.
    If our Army is to deter these armies, it must have an 
offensive global reach. Then upon arrival, our combat power 
must be credible.
    A second challenge is we must have a capability to meet a 
wide array of asymmetric threats--non-state actors, terrorism, 
weapons of mass destruction (WMD). Recognition of these two 
challenges has led to some conclusions. First, the tools that 
won the Cold War and Operation Desert Storm will not suffice 
for the new challenges. That is the reality.
    The strategic environment is no longer relatively static. 
We no longer have the luxury of positioning forces and 
equipment everywhere they are needed to serve their purpose of 
deterrence. It is not going to work.
    Second, we cannot hope to overmatch our adversaries by 
sheer quantity. The Air Force and the Navy are the largest air 
force and navies in the world and also the best. The Army, the 
standing Army, is the sixth largest in the world. We are 
outnumbered by China, India, North Korea, South Korea, and 
Pakistan and other armies that are growing.
    Our superiority must come from quality rather than 
quantity. So, third, to achieve that qualitative superiority, 
we must fight in new ways characterized by simultaneous, 
distributed, and non-linear operations.
    We have made a commitment to move our operations built on a 
principle of mass and attrition warfare. These are the 
qualities we are building into the Objective Force, a force 
that is built around the FCS, I know we will discuss today, 
which is a system of systems that is qualitatively superior, 
rapidly deployable, and versatile to be effective against the 
threats I have discussed.
    This budget, the 2004 budget, supports the development of 
FCS capabilities by investing almost $2 billion in our RDT&E. 
Ninety eight percent of our science and technology efforts that 
are dedicated to the Objective Force.
    We intend to begin fielding the Objective Force this 
decade, with the first FCS-equipped unit in 2008, and its IOC 
is in 2010.
    As we develop concepts and technologies for the Objective 
Force, we are fielding a Stryker Brigade, and we appreciate the 
committee's support of the Stryker Brigade to meet the near-
term requirements and bridge the operational gap between our 
heavy and light forces.
    The first of our six SBCTs will achieve IOC this spring. We 
are excited about that prospect, and we are looking forward to 
deploying that organization in the fall.
    The third SBCT is fully funded in the 2003 budget that we 
are executing. The 2004 budget funds the Stryker Brigades that 
you have before you.
    So we are also selectively modernizing and recapitalizing 
the existing systems as you pointed out, Mr. Chairman, to 
guarantee the Army's near-term warfighting readiness throughout 
the transformation process.
    So in conclusion, let me say that maintaining a trained and 
ready Army now and in the future is a shared responsibility. We 
appreciate the help that you provided us in doing this and we 
look forward to your continued support and also your continued 
discussion on these important issues.
    Thank you for your support as well, and I look forward to 
your questions.
    [The joint prepared statement of Secretary Brownlee and 
General Keane follows:]

 Joint Prepared Statement by Hon. Les Brownlee and Gen. John M. Keane, 
                                  USA

    Mr. Chairman and distinguished members of the subcommittee, we 
thank you for this opportunity to report to you again this year on the 
status of Army transformation.
    We would first like to thank this subcommittee, and Congress as a 
whole, for your tremendous support of the fiscal year 2003 budget. With 
your help the Army received a 4.1 percent average pay increase for our 
soldiers and our civilian work force. Increased funding for housing 
allowances have reduced soldiers' out-of-pocket expenses from 11.3 
percent to 7.5 percent. The fiscal year 2003 budget also funds 
significant Army initiatives to retain and recruit quality soldiers, 
provides for upgraded single-soldier barracks, and expands many 
programs that improve the quality of life for our soldiers and their 
families.
    We also appreciate your continued support of our Army's 
Transformation goals. With your help the fiscal year 2003 budget fully 
funds our third SBCT, provides an additional $105 million for the 
Army's Future Combat Systems, $173 million for the development of an 
FCS non-line of sight cannon, and also funds $874 million for the 
Comanche helicopter system.
    Across the board, the fiscal year 2003 budget sends a strong 
message of congressional support for our soldiers, civilians, and 
families--and clearly indicates your resolve to help sustain the 
readiness of our Army as we transform for the future.

                            THE ARMY AT WAR

    Today our Army is engaged throughout the world--fighting the global 
war on terrorism, providing peace and stability to regions throughout 
the world, and preparing for a potential war in Iraq. Our simultaneous 
commitment to these operations, and the successes we have achieved, 
clearly indicate our military capability and state of readiness. Our 
soldiers demonstrate every day that they are trained and ready to 
respond to these requirements--to fight and win the Nation's wars. With 
the support of Congress and the administration, the Army will continue 
to fulfill its role in the war on terrorism, maintain our near-term 
readiness, and rapidly transform to fight and win our future conflicts.

                          OPERATIONAL LESSONS

    Operations throughout this past year have reinforced the value of 
joint operations, precision weapons, and the necessity for coordinated 
air-ground integration. We demonstrated that by compelling an enemy to 
mass, ground maneuver forces maximize the effectiveness of America's 
tremendous airpower. We also effectively incorporated the leading edge 
of our emerging technologies to maximize our battlefield advantage--
demonstrating future concepts and validating General Shinseki's vision 
of a transformed Army and the fielding of the Objective Force beginning 
in this decade.

                         THE NEED TO TRANSFORM

    The global environment has changed and the Army must change with 
it. Our military has demonstrated time and again that it is the finest 
force ever assembled. As a result, our adversaries understand that they 
cannot face our capabilities head-on. They are therefore changing and 
evolving in an attempt to exploit our vulnerabilities.
    In view of these factors, and our non-negotiable obligation to 
defend the American people against all threats, the Army must change 
the way it fights and the way it deploys. Our Army must be able to 
rapidly deploy and sustain itself in distant anti-access and area 
denial environments. We must be able to rapidly find the enemy and deny 
them sanctuary by providing persistent surveillance, tracking, and 
rapid engagement. We must leverage technologies and innovative concepts 
to develop inter-operable joint command, control, communications, 
computers, intelligence, surveillance, and reconnaissance, or C\4\ISR, 
and information networks that will provide our forces with unparalleled 
situational awareness and the ability to network joint fires. We must 
be able to maintain information systems in the face of attack and 
conduct effective information operations.
    Developments in technology and our pursuit of network-centric 
warfare will allow the Army to break our ties with the Cold War 
formations that relied on the principle of mass and the build-up of 
large forces. We will possess unprecedented situational awareness that 
will enable Army formations to maneuver with greater precision and 
dispersion. We will know where the enemy is and where our own people 
are, and we will be able to impose our will on the enemy at the time 
and place of our choosing. We will exploit vertical envelopment to 
avoid large movements along predictable lines of communication and 
focus our efforts on the enemy's strategic centers of gravity. We will 
transform to a more strategically responsive force that is dominant 
across the full spectrum of military operations. With changes to 
doctrine, training, leader development, organization, materiel 
acquisition strategies, and soldier systems, the Army is taking a 
holistic approach to its Transformation. The result will be a different 
Army, not just a modernized version of the current Army.
    Readiness remains our constant imperative. Therefore, 
transformation consists of three interrelated elements--the Objective 
Force, SBCTs, and the Current Force. We will develop concepts and 
technologies for the Objective Force while fielding SBCTs to meet near-
term requirements and bridge the operational gap between our heavy and 
light forces. Simultaneously, we will selectively modernize and 
recapitalize existing systems in the Current Force to provide enhanced 
capabilities that will guarantee our readiness throughout the 
transformation process.

                          THE OBJECTIVE FORCE

    Built around the FCS, the Army's Objective Force is the future 
joint, interagency, and multinational precision maneuver instrument for 
this Nation. Comprised of modular, scalable, flexible organizations for 
prompt and sustained land operations, it will be more lethal, more 
agile, and more rapidly deployable.
    By focusing much of its investment in science and technology, the 
Army will create a new family of ground systems called the Future 
Combat Systems. In the fiscal year 2004 budget alone, we are investing 
$1.79 billion in research, development, test, and evaluation (RDT&E) to 
design and develop Objective Force and enabling technologies--
technologies that will take us to the system development and 
demonstration phase for the Future Combat Systems (FCS).
    FCS is an integrated system-of-systems that reflects a paradigm 
shift from surviving a first round hit to avoiding a first round hit. 
FCS development includes low-observable stealth technologies, smaller 
caliber rounds, indirect fires systems and direct fire weapons with 
greater range and increased lethality, and integrated command and 
control that provides our forces with a common situational awareness. 
In May of this year, we are confident that FCS Milestone B will 
transition the FCS program from Concept and Technology Development into 
Systems Development and Demonstration (SDD). The Army will begin 
fielding the Objective Force in this decade with the first FCS combat 
maneuver force equipped in 2008--Initial Operating Capability (IOC) for 
this unit is expected in 2010.
    The Comanche helicopter is the centerpiece of the Aviation 
Modernization Plan and will be the first new system to reach IOC within 
the Army's Objective Force. The Comanche will correct the Army's most 
critical battlefield deficiency--aerial armed reconnaissance--with a 
capable, survivable, and sustainable aircraft. Continued development of 
the Comanche helicopter is projected to provide an initial training 
capability in December 2006 and IOC by September 2009.
    FCS and Comanche are essential to Army transformation, but 
transformation is more than hardware. We cannot truly transform the 
Army without transforming the way we do business--from transformation 
of logistics and acquisition, to personnel and installation 
transformation. Revolutionizing Army business management practices 
achieves the best value for taxpayers' dollars; conserves limited 
resources for investment in people, readiness, and transformation; 
enhances management of personnel systems, installations and 
contracting; and augments our potential to accelerate the arrival of 
the Objective Force. Changing the Army is first about changing the way 
we think, and better business practices represent practical application 
of common sense initiatives that best serve the Army and our Nation.
    We will harmonize our transformation efforts with our sister 
services, business and industry, and our science and technology 
partners to provide the best force possible that will allow us to 
arrive early to dissuade or deter conflict or, as required, swiftly 
defeat an adversary. We will be better able to See First, Understand 
First, Act First, and Finish Decisively.

                      STRYKER BRIGADE COMBAT TEAMS

    Stryker Brigades fill a capabilities gap between our lethal, 
survivable, but slow-to-deploy heavy forces and our rapidly deployable 
light forces that lack the protection, lethality, and tactical mobility 
that we seek. They respond to Combatant Commander requirements across 
the spectrum of military operations and provide the increased 
operational and tactical flexibility to execute fast-paced, 
distributed, non-contiguous operations. SBCTs also provide an 
invaluable means of spearheading Transformation. The SBCT trains junior 
officers and noncommissioned officers--tomorrow's commanders and 
command sergeants major--in the tactics, techniques, and procedures 
that we are developing for employment of the Objective Force. They will 
help to identify the soldier-leader skills required in the Objective 
Force and assess our current ability to cultivate those skills.
    By leveraging platform commonality, enhancing logistics practices 
and enablers, and reorganizing logistics formations, the SBCT is more 
deployable and sustainable than our heavy forces, while significantly 
increasing combat power generating capabilities. Augmented for 
sustained operations, the SBCT requires 37 percent fewer combat service 
support personnel than a digitized heavy brigade.
    The Army began fielding the first SBCT just 2\1/2\ years after 
announcing our intent to field such a force. In the spring of 2003 we 
will achieve IOC with the first SBCT at Fort Lewis, Washington. IOC for 
the remaining five SBCTs will occur each year thereafter through 2008.
    The transformation of four Active component brigades to SBCTs 
provides a rotational base with three of the SBCTs focused on the 
Pacific theater. One of the two SBCTs fielded at Fort Lewis will be 
forward-based in Europe not later than 2007. The Stryker Cavalry 
Regiment will support the XVIII Airborne Corps' critical need for 
robust, armed reconnaissance. The conversion of a Reserve component 
brigade to an SBCT will enhance our Strategic Reserve and support the 
global war on terrorism, smaller scale contingencies, and homeland 
defense missions. SBCT stationing also provides rapid, strategic 
responsiveness through power projection platforms capable of supporting 
four critical regions described in the 1-4-2-1 defense construct.
    The Army has resourced six SBCTs in concert with the 1-4-2-1 
defense construct and national security requirements. However, at this 
time the Secretary of Defense has only authorized the procurement of 
the first four brigades pending the Army's plan for potential 
modifications to Stryker Brigades five and six. We intend to work with 
the Secretary of Defense and this Congress to assure that all six 
Stryker Brigades are fielded with the force structure and capabilities 
they need to possess.

                           THE CURRENT FORCE

    The Current Force is the force at war today. Through selective 
modernization and recapitalization, it is the force that will guarantee 
our Army's near-term warfighting readiness throughout the 
transformation process.
    Because the Army bypassed a procurement generation during the 
1990s, the Army's combat support and combat service support systems now 
exceed their 20-year expected life cycle, and 75 percent of our 
critical combat systems exceed their expected half-life cycle. To 
maintain operational readiness while preserving resources for 
transformation, the Army is recapitalizing and selectively modernizing 
a portion of the current force. The modernization program addresses the 
critical issue of Active component and Reserve component 
interoperability and serves as a bridge to mesh these two components 
seamlessly.
    In general, the Army increased funding for programs that are 
clearly transformational and support the defense transformation goals, 
sustained funding for high-priority systems that will transition to the 
Objective Force, and reduced funding for systems not essential to Army 
transformation. The Army remains committed to its 17-system 
recapitalization program, but we have reduced the prioritized 
recapitalization program from three-and-one-third divisions to two 
divisions in order to invest in transformation.

                         FUNDING TRANSFORMATION

    The Army continues to make the difficult choices necessary to 
generate resources to fund transformation while sustaining acceptable 
risk to current readiness. In the previous three President's budgets 
submitted to Congress, the Army terminated or restructured 29 research, 
development, and acquisition (RDA) programs worth $12.7 billion. In the 
2004 President's budget, the Army accelerates its efforts to realize 
the Objective Force this decade by terminating 24 RDA programs and 
restructuring 24 others to generate $22.5 billion for transformation. 
These cost savings, in concert with congressional and Office of the 
Secretary of Defense funding increases, enable the Army to fund our key 
transformation priorities--the fielding of six SBCTs, Future Combat 
System science and technology and system development, and our 
prioritized modernization and recapitalization program.

                   RECAPITALIZATION AND MODERNIZATION

    Recapitalization is the cornerstone of the Army's strategy to 
sustain its warfighting capability throughout the fielding of the 
Objective Force. We are committed to the recapitalization of two 
divisions in the Counter Attack Corps and Army aviation modernization 
and restructuring. Our strategy is to selectively rebuild or upgrade 
systems that will remain in the inventory for the next 15 to 20 years 
and achieve an average fleet age of no more than half of a system's 
expected service life. These systems include the M1 Abrams tank,M2/M3 
Bradley Fighting Vehicle, AH-64 Apache, UH-60 Black Hawk, and CH-47 
Chinook. This investment in future readiness will sustain warfighting 
capabilities, reduce the cost of ownership, and extend the service life 
of systems until the Objective Force is fielded throughout the Army.
    Aviation transformation further demonstrates the Army's hard 
choices in balancing risk to resource transformation. Our interim 
plan--now in progress--eliminates Vietnam era aircraft from the force, 
lowers operating and sustainment costs, and postures aviation for 
arrival of the Objective Force by 2010. Apache modernization is an 
integral part of the Army Aviation Transformation Plan. The AH-64D 
Longbow heavy attack team will enhance domination of the maneuver 
battlespace and provide the ground commander with a versatile, long-
range weapon system against a range of fixed and moving targets. The 
UH-60 Black Hawk continues to be the assault workhorse of Army 
aviation, executing over 40 percent of the Army's annual flying hours. 
We are extending the life of the UH-60 while providing it with 
capabilities required of the future battlespace. Similarly, the Army is 
fully committed to the CH-47F Chinook program. Its heavy-lift 
capability is invaluable to transforming the Army. As we restructure 
and standardize attack and lift formations across the force, we will 
also adjust the stationing and alignment of Reserve component aviation 
units to mitigate the near-term risk.

                               CONCLUSION

    For nearly 228 years, the Army has kept its covenant with the 
American people to fight and win our Nation's wars. In all that time, 
we have never failed them, and we never will. The war on terrorism, the 
requirement to secure the homeland, and the need to maintain readiness 
for possible near-term contingencies have validated the need for a new 
kind of Army--a capabilities-based ground force that can fight and win 
battles across the full spectrum of military operations.
    Building and maintaining an Army is a shared responsibility between 
Congress, the administration, those in uniform, and the American 
people. Working with Congress, we will keep the Army ready to meet 
today's challenges and continue to make significant strides toward the 
fielding of our Objective Force.
    Mr. Chairman and distinguished members of the subcommittee, we 
thank you once again for this opportunity to report to you today on the 
state of your Army. We look forward to discussing these issues with 
you.

    Senator Sessions. Thank you very much.
    Those are good reports. We are indeed stressing our forces 
and the Army much more than anyone else while we expect the 
Services to transform. At the same time you are not given a lot 
of extra money, very little extra money, a $3 billion increase 
over last year's budget for the Army, which is what? A little 
less than 4 percent, a little over 3 percent is all, which is 
only slightly above the inflation rate.
    So we are asking you to do a lot of important things 
simultaneously. My impression is that this Congress appreciates 
your efforts and is pleased that you are making as much 
progress as you are.
    General Keane, thank you for that good report about the 
morale of your soldiers. That is what I am feeling as I talk to 
them. I have been with three different Guard and Reserve units 
who have been activated from Alabama. They were motivated.
    I talked to several of the guys after Operation Anaconda 
that were in Walter Reed. One had shown me where a bullet hit 
him. He was shot in the leg and the arm, but that vest saved 
his life, and that is the kind of advancement in combat that 
you are to be commended for.
    The Army's $94 billion fiscal year 2004 budget request 
included $10.8 for procurement and $9.1 billion for research 
and development. In order to make these significant changes to 
your investment accounts, the Army made some very difficult 
choices. Would you explain, Secretary Brownlee first and then 
General Keane, your comments would also be welcome--would you 
explain the difficulties you went through the choices and 
difficult challenges you faced as you had to develop this 
budget?
    Secretary Brownlee. Mr. Chairman, first of all, when you 
talk about the difficulties, I have to recognize my good friend 
here again, because before I even came to the Pentagon, General 
Keane had headed up a task force to do an analysis of the 
recapitalization of the current Army force. Shortly after I got 
down, I received that briefing, and it is one of the finest I 
have ever received. It is one of the finest studies I have ever 
seen the Army do.
    The important point here is that the analysis was so 
thorough for each piece of equipment in the current force that 
is key, it is almost like putting a dollar at a time on these 
systems to ensure that they last as long as they have to, but 
no more. The good thing about that is we are not wasting money 
on things we should not. But the other good point is that we 
have a good feel for what we are buying and how long it is 
going to last.
    Having said that, the difficulty is in making the hard 
decisions and the tradeoffs, because as I have indicated and 
General Keane has indicated, the current force that we have is 
one that we are going to war with tomorrow if we must. It is 
the one that will have to last us for several years, because as 
you well know, the first unit of the Objective Force would not 
have an initial operating capability until 2010, and the world 
supply would consist of one unit of action at that time, or 
roughly one brigade size.
    So we are going to have this current force with us for some 
time. We have taken very seriously what is required to 
recapitalize and modernize that force. As we have gotten deeper 
into the Future Combat System and what is required to develop 
these very critical technologies and to bring them to fruition 
in a way that allows this very complex system of systems to 
come together in the right way, it is very costly.
    So we have had to make tradeoffs. The tradeoffs involve 
risk. My view of this is that the most serious thing that we 
face every day is the decisions we make on those kinds of 
tradeoffs.
    I believe that we are making the right decisions. They are 
not easy, as I said, but they have certainly been analyzed 
thoroughly. You mentioned the three and a third divisions in 
the counter-attack force, we are still going to have three and 
a third divisions in the counter-attack force, but only two of 
them will be fully modernized.
    So we are still examining other things that we can do to 
hold the other parts of that up and make sure that it is still 
capable.
    General Keane. This became a crucible for us, and we were 
at a crossroads in coming to the decisions to make that. First 
of all, the fact that we were recapping and modernizing the 
heavy corps at Fort Hood, which in broad definition was three 
divisions and a third armored cavalry regiment (ACR), was a 
wise decision.
    What was driving that decision is that our operation and 
support costs were increasing at 10 percent per year. So in the 
3 years that we were looking at it, it had gone up 30 percent. 
You just cannot run a business that way.
    We were just getting ourselves in a hole, because much of 
our equipment has passed its average life of 20 years, and that 
is why those operational support costs are as high as they are.
    So that drove us initially to the analysis that Secretary 
Brownlee referred to and the recapitalization and modernization 
program itself. We made a decision for a three and a third as a 
hedge against the uncertainty of the future and to keep that 
modernized.
    Then as we started to look at the Objective Force and to 
try to field that force in 2008 and in 2010, and to meet the 
financial obligations to do that, we had to revisit this 
decision. It was the toughest decision I had been involved with 
in 4 years here. We took all of our systems, the 24 systems----
    Senator Sessions. Precisely, what was the toughest call? 
What were you deciding?
    General Keane. The toughest decision was to take money out 
of the recap and modernization program for the third division 
and the ACR and to take that money and put it into the FCS 
Objective Force. That was a tough decision.
    Also, commensurate with that was the program kills of the 
24 systems. In the previous 3 years, as this committee knows, 
we killed 29 systems. Added to that were these 24.
    The challenge we have is that we know that we have to do 
this within the amount of money the Army has allocated, that 
when we look down the hallway at the Department of Defense, 
nobody is going to give us extra money to do this. So we have 
to go into our own accounts and figure out how best to provide 
a current force that is capable for a number of years to come, 
and also field a future force to meet the emerging threats that 
we have and trying to find the balance to do that is really the 
issue.
    It takes our collective judgment and our wisdom to find 
that balance. It is not easy. Now, we have talked about it 
quite a bit and discussed it and analyzed it.
    In the 24 systems that we terminated, which was another 
tough decision, we put them through some analysis. We wanted to 
know did those systems support Army transformation? Did the 
systems satisfy essentially core requirements for the Legacy 
Force against the emerging crisis and adversaries that we are 
going to deal with in the next decade?
    What was the operational risk if the system was killed? Was 
the requirement baselined to contribute to the Objective Force? 
Could the industrial base accelerate to a rapid fielding option 
if needed in response to short notice operational 
contingencies?
    Then we looked at it from a warfighting analysis. We looked 
at it from a business case, as well. We wanted to consider the 
return on investment, to assess how much operational 
enhancement was realized compared to affordability.
    We looked at its impact on the industrial base, which is 
not something that we take lightly. Could material meet the 
required schedule? What was the technology risk of the material 
solution? That was the kind of analysis that we put ourselves 
through in terminating those 24 programs and restructuring the 
others.
    So I think what we are saying to you, Mr. Chairman, is that 
we made a very difficult decision. If we had more money, we 
would not have made this decision. Without any more money, we 
believe that we have balanced the risk, and that this is an 
acceptable, prudent risk to do what we are doing.
    Senator Sessions. We thank you for that. We will do a 6-
minute round and next will be Senator Lieberman, followed by 
Senator Inhofe and Senator Pryor.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Secretary Brownlee, General Keane, thanks for very good 
opening statements.
    General Keane, you talked some about lessons learned from 
Afghanistan. I want to go back to Operation Anaconda, in which, 
as we know, tragically several Special Operations Command 
soldiers were killed.
    The commander of the Army forces in that battle was 
critical of the time it took to acquire close air support when 
needed. There have been recent indications that the Air Force 
and Navy have subsequently refined their close air support 
procedures, so as we meet here today, obviously, there is a 
sense of imminence about military action in Iraq.
    I wanted to ask you, with that in mind, are you more 
confident from an Army point of view of a timely close air 
support being provided, should ground forces be called upon to 
invade Iraq?
    General Keane. Thank you for the question, Senator. You are 
right. We did have close air support challenges in that 
operation. Most of them revolved around the length it took to 
respond to a request from a battlefield commander.
    We were in close combat with an enemy which was within, in 
most cases, a football field length away. In one of the cases 
where we were really asking for close air support, we were 
outnumbered--the enemy had about 350 soldiers, and we had 60. 
We were outnumbered and fought against them for 12 hours.
    Miraculously, due to the bravery of the battalion 
commander, we won that fight. We had 30 soldiers wounded. This 
battalion commander from the 10th Mountain Division took the 30 
other soldiers, some of whom were his staff officers and staff 
NCOs, and some infantry, and he physically led two assaults 
against the positions that were at a higher altitude and 
fortified.
    Obviously we have decorated him for heroism. He killed 60 
when he did that and then the al Qaeda left the field. It was 
the skill of our soldiers and their will that brought about 
that victory, but during that day, during those 12 hours, he 
suffered from a lack of what the Air Force and the Army both 
would consider adequate close air support.
    So as a result of that, my counterpart in the Air Force, 
Doc Foglesong, and I have met with the leaders of the Army and 
Air Force, and brought to a conference room like this, all the 
battlefield commanders who were there, that battalion 
commander, the other battalion commanders, the Air Force wing 
commander, squadron commanders, all the people who were 
controlling the airplanes from all the Services and all the 
ground people into one room. We looked at what was wrong and 
what happened.
    I wish all of you could have just listened to the honesty 
that was in that room that day, as we tried to solve a problem, 
knowing full well that we could get soldiers or marines hurt if 
we did not solve this problem. The people were not interested 
in protecting their parochial service or prerogatives. They 
were just interested in solving the problem.
    Solve the problem, we did. We had a series of meetings to 
do it, and our problem is one that our cultures, we let them 
drift a little bit apart from Operation Desert Storm with the 
advent of precision-guided munitions.
    As a result of that, we have to make some procedural 
changes, which we are making, and have made. We have to make 
equipment changes, so that our special forces and our infantry 
soldiers have the same equipment that the trained air/ground 
team has. The Air Force provides that equipment to our 
organizations. We have to make some doctrinal changes, as well.
    So as a result of all of this, we think we have all of 
those changes in place, and we took it very seriously, the 
criticism that came from our subordinates, who said this was 
not right. The leadership took it on to do something about it. 
We think we have done that.
    Senator Lieberman. Sir, that is very reassuring. Those 
changes are in place now as we contemplate action in Iraq?
    General Keane. With the impending nature of what was taking 
place with the potential war with Iraq, we knew we had to get 
this fixed. We did not have a lot of time to study it.
    Senator Lieberman. Yes.
    General Keane. We had to do it quickly.
    Senator Lieberman. I appreciate the answer. Let me ask one 
of the questions that I raised in my opening statement as to 
whether the level of research and development funding will 
enable you to reach the IOC of 2010 for the Objective Force, 
and if it does not, whether the risks--and obviously we all 
acknowledge that there is not enough to go around, so there is 
some risk--that we have taken with respect to the Legacy Force 
then may become excessive? Secretary Brownlee?
    Secretary Brownlee. Yes, sir. This is the question we 
continually ask ourselves.
    Senator Lieberman. Sure.
    Secretary Brownlee. If we take money out of the current 
force and the FCS, the Future Combat Systems does not show up 
on time, we are left holding the sack here. So this is not 
something that we have just left to chance.
    We have studied very carefully these critical technologies 
that will enable us to field Future Combat Systems. All the 
indications are that the studies of an outside group we asked 
to come in and look at this indicate that these technologies 
should enable us to do that.
    The question you posed, I think, is if there are not enough 
funds available.
    Senator Lieberman. Right.
    Secretary Brownlee. The affordability of FCS and the 
produceability of FCS on the schedule that we have outlined is 
something we still do not know for certain. It will probably be 
a year or two before we know better--before we know well enough 
to make that decision.
    So we are in the process of establishing some metrics that 
will allow us to continually monitor where we are and what we 
are doing, and again, thanks to this great analysis that Jack 
and his team did on recapitalization, we believe that we will 
be capable if we are able to make the decision at the right 
time to revisit some of the recapitalization, modernization, if 
we have to, so that we would be able to go back and say, 
``Okay. This is not going to show up on time,'' or, ``We cannot 
afford it on the schedule we are on, therefore we are going to 
have to reinvest and maintain the current force for so much 
longer.''
    Senator Lieberman. General Keane, what about the unfunded 
requirement of $40 million for Objective Force science and 
technology? Should we be concerned about that? Should we be 
pushing to see if we can fund it for you?
    General Keane. We would take any assistance that you would 
be willing to provide.
    Senator Lieberman. It has been your traditional strong 
position on those issues.
    General Keane. As I said before, we put $1.79 billion into 
that and we reduced our procurement account, so that we could 
actually put more money into R&D, which is what we thought the 
appropriate priority would be for the Objective Force. The 
procurement account this year actually has gone down when 
compared to previous years, which I know may be of concern.
    But the reason for that is so that we could put those 
monies into the R&D program. We just were not able to put 
everything that we wanted to do in it.
    Senator Lieberman. My time is up. Thanks, Mr. Chairman. 
Thank you, both.
    Senator Sessions. The numbers I have and see, if they are 
correct, show that you cut $10.8 billion from procurement, 
which was a 15-percent reduction in real terms over 2003.
    Secretary Brownlee. That is correct.
    Senator Sessions. A $9.1 billion increase for research and 
development, which was a 20 percent increase over----
    Secretary Brownlee. Correct. Those numbers are correct, 
sir.
    Senator Sessions. Obviously you needed every dollar, or you 
would not have--if you need more, we need to know, I guess.
    Secretary Brownlee. What you just said, Mr. Chairman, 
reflects exactly what we set out to do, to spend more money, to 
develop these systems for the future at the expense of those we 
currently have, while at the same time, ensuring those that we 
currently have are ready enough to do what they have to do.
    That is not something that is easy to do. I know General 
Keane takes it very seriously, as does the Chief and the 
Secretary, and the Secretary of Defense as well.
    Senator Sessions. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. First of all, let 
me echo what both of you said about our troops and about the 
spirit that is out there.
    I spent some time at Landstuhl and talked to a lot of these 
people who are coming back. In fact, the downed CH-47 
helicopter crew was there. I remember--although it was not your 
service; it was the Navy. I remember so well, because this 
young lady's name was Tennes and she was on the U.S.S. Tennes. 
It is the accident you all are aware of where she, during a 
refueling operation, got tangled up in the hose, and it took 
her down free falling, crushing her lungs and all of that.
    I talked to her in the hospital, and her only concern was 
getting back to the unit and making a career of the Navy. I got 
the same response from everyone we talked to there. So clearly 
that is it.
    But I feel guilty because I do not think we are giving them 
the best support that they need. Now, Senator Lieberman was 
talking about close air support and the deficiencies in 
Operation Anaconda.
    General Keane, it seems to me that at one of our hearings I 
asked the question that if we had had a competitive, more 
sophisticated artillery system, such as the Crusader, which was 
cancelled, could you have used it at that time? I think you 
said, ``Yes, even though it is heavy and hard to get up.'' It 
had the range and the rapid fire to give you better support. 
Does my memory serve me right?
    General Keane. That is correct. That is my own opinion 
obviously, and I am not the combatant commander.
    Senator Inhofe. Yes, I understand that.
    General Keane. I am not the ground commander.
    Senator Inhofe. But when that was cancelled--and I can 
understand what we all went through in trying to get to the 
FCS, trying to get it to a lighter, more efficient system. We 
have come up with, of course, the Non-Line of Sight (NLOS) 
cannon, and that is one that could have been taken up there, in 
terms of the size and the maneuverability and how it can be 
transported.
    I am a little concerned. Last year, when we had the NLOS 
cannon in as a part of the FCS, Secretary Brownlee, it was on 
two different program elements (PE).
    Secretary Brownlee. Yes.
    Senator Inhofe. This year it is coming back on one.
    Secretary Brownlee. Yes.
    Senator Inhofe. Now, if there is a slippage in the FCS, my 
concern is that that portion of the FCS stay with its 
deployment date of 2008. What are your feelings about that?
    Secretary Brownlee. Sir, our intent is to field the FCS 
cannon in the year we have indicated, 2008. That is our intent. 
That is what the Army intends to do. That is the way we are 
funded to do it. Hopefully, the rest of FCS will come along 
with that.
    Senator Inhofe. Yet----
    Secretary Brownlee. Our intent with the FCS cannon, because 
of the urgent need for it, is to field it during that time 
period.
    Senator Inhofe. Although I disagreed with the decision of 
termination at the time and everyone is aware of that, I will 
say something good has come from that, because there is 
awareness--you guys were aware of it, but a lot of us on this 
side were not--as to the deficiency we have in our artillery 
capability. The Paladin--I will not mention names--but when I 
talked to some of our own Senators that are on this committee, 
and said, ``Are you aware that you have to swab the breech 
after every shot?''--almost reminiscent of the Civil War--and, 
of course, this is 1950s' technology. They were not aware of 
it. Now that awareness has come up.
    That is the reason that I feel that even though--yes, I 
want it to be compatible as far as the chassis is concerned, as 
far as the weight, and the characteristics with the FCS, in the 
event that there is slippage, I want to do everything I can to 
be sure that that part of it does not slip, because I believe 
that is a deficiency that we have that we need to correct.
    Any comments on that?
    Secretary Brownlee. Senator, as you indicate, there is a 
clear advantage to having the common chassis for this whole 
family.
    Senator Inhofe. Yes.
    Secretary Brownlee. But the need to have the improvements 
in those kinds of artillery, fire power pieces that we need on 
the battlefield has caused us to commit to the fielding of the 
FCS cannon, NLOS, as you referred to it, by 2008.
    Senator Inhofe. Good.
    Secretary Brownlee. That is certainly our intent. I just 
really--that is long on time, but----
    Senator Inhofe. Yes. No, I understand. That is----
    Secretary Brownlee. That is our intent to----
    Senator Inhofe. Do you generally agree with that, General 
Keane?
    General Keane. I do, and I----
    Senator Inhofe. Okay.
    General Keane. The NLOS cannon--I mean, obviously we have a 
problem with overmatch of artillery by our adversaries. There 
are a number of countries that clearly outrange us and outgun 
us. That has been our concern from the beginning.
    That concern is resident today. The NLOS cannon will solve 
that overmatch problem. Certainly while that schedule is 
ambitious, we clearly want that to happen. What we will do in 
the Army leadership is make sure that we are not going to let 
any of those funds drift away on us to other priorities, 
because it enjoys such a high priority with----
    Senator Inhofe. I know it does. That is the point I am 
trying to make. While FCS is very significant and we want to 
get to the Objective Force, there are some deficiencies we have 
today that can be met by the early deployment of parts of that, 
which should have priorities.
    I hear over and over again that we have the best Army in 
the world and all this--I know we do--and the fact that, yes, 
we are ready. Unfortunately, a lot of people misinterpret that 
as everything can go as it has been going, and everything is 
going to stay as ready as it is today. I do not believe that.
    Now, when you look at the budget since the 1990s, we have 
had a 34 percent cut, while undergoing a 300 percent increase 
in mission rates--now this is a real serious problem. While, 
yes, we are ready today, these Senators over here and I spend a 
lot of time talking to our Guard and Reserve--the Reserve 
component of all Services, but mostly the Army.
    Many of the critical Military Occupational Specialties 
(MOS) are disappearing. We are not able to do this and so I do 
not know how long we can continue down this road. So I would 
like to have you talk in terms of what we are going to have to 
do in the future?
    Let us look at the number of divisions. We went from 18 
down to 10. Some people are saying now, ``Well, the Army is not 
important,'' or, ``The ground effort is not important. We can 
get by with six divisions.''
    Right now, in your professional judgment, faced with the 
type of challenges we have, what would you think would be ideal 
if you could have it today, as opposed to what we have today? 
Numbers of divisions, let us start there.
    Secretary Brownlee. Senator, first of all, let me just say 
how much I share your high regard for our Reserve component 
forces. They are serving with great distinction all over the 
world, and everywhere you go and talk to them, and the 
sacrifices they and their families are making, I just have to 
take a minute to mention--we all know Tom Brokaw wrote a book 
called, The Greatest Generation. There is another great 
generation out there now that deserves another book. Some of 
them--many of them are these Reserve component soldiers. But to 
directly address your question, sir, clearly the Army we have 
today, as Jack indicated, is deployed all over the world. 
Sometimes, I think every single soldier we have in the Army is 
on the move somewhere right now today.
    So these commitments that we are meeting today are taking 
most of not just the combat power of the Army, but the combat 
support and service support parts of the Army to support these 
missions.
    We are able to do what we are doing now today, but how long 
we can do it is a question.
    Senator Inhofe. Yes. I think we need to talk about that, 
because if we had a 1989 deployment at that time of 261,000 or 
whatever it was, that used, as I recall about 53 percent of our 
deployable end strength. That same thing today would be 86 
percent.
    Secretary Brownlee. Yes.
    Senator Inhofe. Then you get into the Reserve and the Guard 
component. I think every time we talk about how we are ready 
to--yes, we have the best Army in the world, we should be very 
honest and say, ``We cannot sustain this state of readiness 
without some changes,'' and then talk about this.
    Secretary Brownlee. Well, it is pretty obvious, Senator, 
that the forces we have deployed now, we do not have--without 
going far more deeply into the Reserve components--a rotation 
base to rotate those forces.
    Senator Inhofe. Yes.
    Secretary Brownlee. Now if we made the decision to do that, 
we still have Reserve component units that we have not touched, 
but we would have to go much more deeply into those Reserve 
components to do that.
    Senator Inhofe. Yes. Mr. Chairman, while there is not time 
to get into it, just so they can answer for the record, I have 
been concerned about the increase in the aviation accidents in 
all Services. There are some articles we read--I think--I do 
not know where it was--but a couple of days ago, and they 
talked about the high tempo of operations (OPTEMPO) in the 
Marines and the Navy. I have been over there and you have been 
over there we have all been there and have seen this. Perhaps 
it is a deficiency in maintenance. I would like to have your 
analysis of this maybe for the record insofar as the Army is 
concerned. Because Fort Drum reminded us yesterday that that is 
a very serious problem now.
    General Keane. Yes. We are very concerned about it 
ourselves.
    Senator Inhofe. I know you are.
    General Keane. This year from last year, we have almost a 
29 percent increase in our accident rate, and we have a--when 
you compare it to a 3-year average, it is up by 50 percent. So 
we are very concerned about it.
    Senator Inhofe. Thank you. You can do that for the record.
    Thank you, Mr. Chairman. I am sorry I went over.
    [The information referred to follows:]

                      Army Aviation Accident Rates

    The rate and number of Army Class A aviation accidents in fiscal 
year 2003 was 28.6 percent higher for number (nine Class A aviation 
accidents in fiscal year 2003 versus seven in fiscal year 2002) and 
28.5 percent higher for rate (2.108 versus 1.64 per 100,000 flight 
hours) than in the same period of fiscal year 2002. These rates were 
also 50 percent higher than the 3-year average for number of accidents 
and 42 percent higher than the 3-year average for accident rate. While 
these statistics are troubling, we are aware that they have been 
tabulated during a year when the Army is conducting around-the-clock 
combat operations in many areas of the world. Thus, a 3-year trend 
comparison may be inappropriate to help understand the real trends in 
these incidents. A more meaningful assessment may come from a 
comparison of Army fiscal year 2002 and 2003 aviation accident rates 
against those experienced during other intense Army operational periods 
(such as in 1989-1990 with Operation Just Cause and Operation Desert 
Storm/Shield). We do not yet have this basis of comparison, but plan to 
review relevant historical data and make this comparison as soon as 
possible.
    Irrespective of aviation accident historical trends in appropriate 
context, we remain deeply concerned about the current rate of aircraft 
accidents and the associated loss of precious soldier lives. We 
continue to conduct extensive investigations of each accident to 
determine underlying causes and to establish workable approaches toward 
curbing these incidents.
    Our review of fiscal year 2003 Army aviation accidents presently 
indicates that maintenance was not a primary factor. Instead, two 
common factors seem to have been at play: human error within the crew 
and environmental factors like intense dust and darkness. Individual 
human error has been determined as an underlying factor in 100 percent 
of the accidents for which a cause has been determined. Within this 
category, aircraft crew coordination breakdowns and incomplete crew 
duties account for 50 percent of these human errors. The environment 
has been determined as a factor in 62.5 percent of these aviation 
accidents, with 66 percent occurring at night.
    Informed with these insights, the Army has been pushing lessons 
learned and recommendations for additional crew training and aviation 
soldier briefings to commanders in the field. We will continue to 
provide this kind of feedback to aviation field commanders and safety 
monitors as ongoing accident investigations are completed. We are also 
looking closely for all equipment modifications and updates that might 
prove helpful to limiting aviation accidents or limiting accident 
casualties. As we identify any of these equipment possibilities, we 
will aggressively pursue acquisition and fielding of them for use in 
the Army aviation community.

    Senator Sessions. Thank you, Senator Inhofe, for your 
excellent series of questions.
    The vote has started. Senator Bayh, why do we not do your 
questioning now? Then we will take a recess and come back.
    Senator Bayh. Thank you, Mr. Chairman. I do not think my 
questions will take too long, but if they do, we can come on 
back.
    Thank you, gentlemen, very much for your service to our 
country and for your courtesy in being here today. I appreciate 
it.
    Secretary Brownlee, I have a couple of questions for you, 
and they relate to the changes you are trying to make to 
modernize the force going forward and so forth. My questions 
have to do with how we maintain the industrial base necessary 
to produce the next generation of vehicles, and maintain the 
current systems in place while we are cancelling these various 
systems. For example, I think the Abrams tank is in its last 
year of production. You have decided the M113 armored personnel 
carrier for not to go forward with the upgrade program. I am 
concerned that there might be a gap there. I mean, many of 
these companies who produce things like transmissions and other 
things, they are going to have to make a decision about just 
going out of the business.
    Then we come back with the Army's Future Combat Systems, 
which are going to be good, but there is going to be a period 
of years where there is perhaps a gap.
    How are we going to produce the next generation of vehicles 
if these companies get out of the business? How are we going to 
supply the current generation of vehicles, if they are not 
making spare parts and things like that?
    Secretary Brownlee. Senator, you have hit on a key question 
that both General Keane and I talk about all the time. We are 
continually seeking ways to mitigate those things to get work 
into those plants that are most threatened by these cutbacks.
    Clearly because we are not producing the numbers of M1 
tanks or Bradley Fighting Vehicles as we once were in great 
numbers, there is a lot of excess capacity in that industry 
that is going to be taken down. Some of it is already taken 
down.
    I mean, you go to some of these places now, and they are 
operating at 20 and 30 percent of what they were only a few 
years ago. So it is a very serious question, and related to 
that directly are the work forces that are trained and can do 
this kind of work, and we cannot afford to lose it all.
    Then there is, of course, the design expertise that rests 
within some of those firms, and we recognize the critical 
importance of this, and that is why we have continually looked 
at upgrading National Guard equipment, as well as the active 
component, as seeking all the ways we can to get it to work, 
and get it into those places, as well as continuing to 
recapitalize and modernize what we have in ways that help them.
    But as you all know, it is very difficult to do when you 
simply do not have the capacity or the resources to do that. 
You have hit on one of the things that troubles us the most. 
Because there will be in some of these segments of the industry 
very serious gap problems that are going to come.
    Senator Bayh. The marketplace today is brutal. I mean, they 
demand that inefficiencies be eliminated immediately.
    Secretary Brownlee. Yes.
    Senator Bayh. So if there is a gap there of 2, 3 years, 
they are going to face no choice but to take out their 
capacity. Then what do we do? It is hard to ramp back up 
overnight.
    So I am glad you focused on this problem. Part of our 
responsibility is to make sure you do have the resources 
necessary to, at least, keep the infrastructure in place so 
that when the new generation comes along, we are in a position 
to go with that.
    General Keane. Senator, I would like to add to what Les 
said. Where we are today is a little different than even the 
months prior, when we made this decision, when we discussed 
this with industry, because the effect the economy has had.
    So we recognize that, and maintaining this great Army is a 
partnership, and we know that. We cannot do it without the 
support of American industry, and there are only certain 
companies out there that make the kind of things that we need. 
So it is in our interest to maintain that industrial base. We 
recognize it.
    I think what we have in front of us is we have to work with 
our partners, because some of the things that have changed in 
just the last number of months, I know you have some 
information on and so do we.
    They have made some recommendations to us, and we want to 
seriously look at all of that, see how we can mitigate the 
risk.
    Senator Bayh. Gentlemen, I appreciate your attention to 
this issue, and I hope you will let us know what we can do to 
help you resolve it.
    Secretary Brownlee. I wish I could tell you we have solved 
it all, sir. We have not. But we are working hard on it, 
especially in those critical areas where we can already see 
that there are problems that exist.
    Senator Bayh. Mr. Chairman, if we had a witness who could 
tell us he had solved every problem, that would be a first in 
my experience, but it is certainly a standard to aspire to. 
Thank you, gentlemen.
    Secretary Brownlee. Thank you.
    Senator Sessions. Thank you, Senator Bayh.
    Due to the vote, we will take a recess and be right back. 
[Recess.]
    All right. Here we go. It is strange to go from voting on 
Roe versus Wade--I thought the Supreme Court had already 
settled that one, but we voted on it, as if somebody wanted to 
know what our sense was of it. [Laughter.] But here we are back 
at this matter, and that is just life in the Senate.
    I would note for the record on this that we are having a 
budget today, and several questions related to the funding for 
the Department of Defense. I have been looking at the numbers, 
and in 1993, the defense budget was $334 billion. In the mid-
1990s, it had dropped to $278 billion--not adjusted for 
inflation, as I recall. Those are actual numbers.
    Then just last year we hit the $330 billion level--the year 
before last maybe, the $330 billion level. So we have really 
left the Defense Department with a real problem, and I think 
the real problem is that we should have been recapitalizing all 
along, a steady process of recapitalization over a long period 
of time. Then we would not be facing the bow wave of unmet 
needs, in addition to being in a conflict situation, and trying 
to deal with this with an economy that is hurting at the same 
time. So I think it is a good lesson to us.
    Now, the President's budget calls for a solid increase this 
year, plus presumably we will be having a supplemental, and 
then about a $20 billion a year increase for the next 4 years. 
If we sustain that, I think we can keep you on the level of 
transformation that we need to. If we come in, again, and start 
cutting that and not giving the Defense Department the funds it 
needs, then we are not going to be able to meet our 
requirements.
    Let me run a few questions by you. I might submit some for 
the record, and I will see when any of our other members get 
back from the vote.
    Now, I understand that the Department of Defense has asked 
the Army to evaluate the SBCT capabilities and to make 
recommendations regarding areas where the Army can improve the 
capabilities of the fifth and sixth Stryker Brigades. The 
report is due July 2003. Can you provide some insights into 
what capabilities will be added, and do you see a need to 
increase organic aviation assets?
    General Keane. I will do it. Yes, sir. That is true. We 
have been asked to look at the fifth and sixth brigades, 
primarily in the area of intelligence, air defense, precision 
munitions, and also in terms of aviation. We have that under 
study right now, and we will be providing some feedback to 
Deputy Secretary of Defense Paul Wolfowitz on that issue.
    I also want to use that to inform us and inform them as to 
potential changes in the first four brigades, if those changes 
merit that. We would go back and make adjustments to the first 
four brigades, so this--there are two parts to that. One is to 
take a look at five and six with some additional capabilities, 
and then also make some judgments about making those kind of 
improvements also to the first four brigades.
    Senator Sessions. Can you share any, or do you think it is 
premature to share----
    General Keane. Right now, we think it is. Yes, sir.
    Senator Sessions. Because of the $1.7 billion increase in 
R&D costs, the Army restructured the Comanche helicopter 
program, the sixth restructuring in as many years. Last 
October, the Department approved the Comanche program 
restructure and an acquisition milestone of 650 aircraft, down 
from the 819 Comanches the Army said were required for an 
active component of the Objective Force.
    The approved program does not reflect requirements for the 
Objective Force unit of employment currently being designed, 
nor does it reflect potential additions of Comanches to the 
Stryker Brigade Combat Teams. Because the authorization 
committee felt that the Comanche helicopter program required 
increased oversight, the 2003 Defense Authorization Bill 
required quarterly Comanche program updates to the defense 
committees.
    Question, would you provide us with the progress the Army 
has made to date in the Comanche program and any emerging 
results from the unit of employment design effort?
    General Keane. Senator, yes, thank you for that question, 
because it is my belief that the Army finally came to grips 
with the Comanche program.
    Everybody here who has looked at the record of that would 
agree that it has been a troubled program over the years. I 
think when the Army restructured the program, we literally 
doubled the amount of money in the development program and we 
extended the program out by 2 years and 9 months--I think 
exactly.
    But the good thing is that we mitigated a lot of the risk 
in the program, and I believe the Army has now set the stage 
for a successful program here. We are certainly looking to the 
contractor to perform well in this regard, and we will be 
watching that very closely. But I think this time, thanks to 
the people on this committee who seem to have agreed with what 
we did with the program, it now appears to be on a far more 
sound footing. It is a much better program with much better 
chances of success.
    But as I said, we are watching very closely the performance 
of the contractor and we are going to continue to do that.
    Senator Sessions. It is an important program, and I hope 
things----
    General Keane. It has been a troubled program for years. We 
had restructured it before, and we moved money around to pay 
for other programs. One of them was the Crusader, ironically 
enough.
    But Secretary Brownlee, one of the things that he did here 
so we could get a grip on that program, was to set up an 
independent review panel, headed up by former Chief of Staff of 
the Air Force, Larry Welch, and brought together a lot of other 
notables from a national security influence area, and looked 
very hard at the program.
    We had a big question mark around the program, and they 
came in and helped us re-baseline and restructure it, and they 
thought it was a very transformational program. With the 
strategy that they had recommended to us, they thought it was a 
very viable program. That is where we are today. We have a lot 
of confidence in it.
    We also had two contractors who were butting heads here, 
Boeing and Sikorsky. We had to fix the management oversight 
that they were providing to the program as well. I think we 
have done that by getting the attention of the leadership of 
both of those organizations.
    Senator Sessions. Good.
    Senator Clinton, we are glad to have you here, and if you 
are ready, I have been going on past my limit, so I would be 
glad to recognize you at this time.
    Senator Clinton. I would be happy to wait if you are not 
finished with your questions.
    Senator Sessions. I just had a couple more questions.
    Senator Clinton. I would be happy to wait.
    Senator Sessions. I will ask one more then.
    The heavy counterattack corps remains the highest priority 
for Legacy Force recapitalization and selected modernization. 
However, the Army funded the Objective Force by reallocating 
funding from the counterattack corps, reducing the 
recapitalization and selected modernization program from three 
divisions and an armored cavalry regiment, as funded in the 
fiscal year 2003 budget request, to two only divisions.
    With 48 program terminations and restructures, the Army has 
again taken risk in the current Legacy Force. Over the last 
several years, the subcommittee has asked the Army leadership 
how they would prioritize among Objective and Interim and 
Legacy Forces. With 77 program terminations and/or restructures 
in the Legacy Force, it is clear that you have set priorities 
and are willing to take risk in the current force.
    What are the implications for reconnaissance and security 
missions of not modernizing the counterattack corps, armored 
cavalry regiment?
    Please include in your response what you can plan to do to 
that unit to enable it to fight alongside the division in the 
corps. How much would it cost to modernize the ACR?
    General Keane. Okay. As we have said before, Mr. Chairman, 
that was a very difficult decision for us. The most difficult 
one I have dealt with in the last 4 years and very challenging.
    We think the risk is acceptable to begin with. Also if we 
had more money, we would put it right back into those programs 
as a top priority; first with the Third ACR, and then with the 
Third Infantry Division.
    The Third Infantry Division's recapitalization program was 
not going to take place until 2007 in any event. So there are 
still some things that we could do with that division if we are 
able to generate more financial support between now and then.
    Then in terms of how it would fight, all of the 
organizations in the Army would be digitized. By that, I mean, 
they would have similar situational awareness and they would be 
able to talk to one another, even though the basic tank may be 
a little different, or the fighting vehicle itself is not as 
modernized as another one.
    We are digitizing the entire III Corps, so that there is 
commonality there in terms of the situational awareness they 
have of where they are and also the information we are going to 
provide to them in terms of where the enemy is.
    We know we have to have that kind of commonality. If we did 
not establish that, then we would have a problem. The fact that 
they are operating side by side with another division----
    Senator Sessions. I understood that was not going to be one 
of the problems of modernization.
    General Keane. That will not be a problem.
    Senator Sessions. You can solve that.
    General Keane. We have solved that problem. We have kept 
those funds to make certain that that happens. The fact that 
one division will have a more modern tank than another division 
will not cause us a problem in terms of those organizations 
working together.
    Senator Sessions. Thank you.
    Senator Clinton.
    Senator Clinton. Thank you very much, Mr. Chairman.
    First, I want to thank the Secretary and the General for 
being here to give us this update. I particularly want to 
extend publicly my regret and sympathy about the crash of the 
Black Hawk yesterday up at Fort Drum.
    I have had the opportunity to speak to General Hagenbeck, 
and I know how difficult this is for everyone involved directly 
or indirectly. It is a great loss for us with these young 
soldiers getting trained, and I certainly extend my sympathy as 
well to the families.
    I hope that we are able to continue this conversation about 
transformation as it goes forward, because just listening to 
the few questions I heard from the Chairman, this is such a 
huge undertaking, and it is such a dramatic departure from 
traditional or legacy understanding of what the mission has 
been and how to fulfill it.
    It is the case that I am sure there will be lots of fits 
and starts along the way, but I am committed to ensuring that 
the Army continues to play the central role that it always has 
in our military, because I do not see any other way to create 
an effective fighting force without the Army being right at the 
center.
    So while we are transforming, we do not want to lose sight 
or undercut the capacity to provide the forces and resources 
that are needed for every kind of mission. Now, with that in 
mind, I am interested in the--this may have been asked to some 
extent before I came--the budget increases for the Interim 
Combat Systems, including the Stryker Brigades and the FCS, and 
the way that we have cut the amounts spent on the Legacy Force. 
In your written testimony, you express your beliefs that in 
May, the Future Combat System will meet its Milestone B 
deadline, and therefore will transition the FCS program from 
concept and technology development into systems development and 
demonstration.
    What would be the consequences to the budget if the FCS 
does not meet its Milestone B deadline, and how soon would we 
know that? Would we have time to take appropriate actions 
within the budgetary framework to be able to continue the work 
that you are doing? Mr. Secretary.
    Secretary Brownlee. We would know in May, ma'am, if it did 
not make the Milestone B deadline.
    Senator Clinton. That is a firm deadline in your opinion?
    Secretary Brownlee. It is a firm deadline as far as that 
milestone. I should add, because this is a different kind of 
procurement or procurement acquisition strategy that we have 
developed for this, as you have described so well, this very 
complex and huge undertaking that we have, it is a system of 
systems. It is right now 24 different requests for proposals 
with 19 for the FCS and other related ones, and trying to bring 
all those together in a way that will create this kind of new 
force with very new and distinct capabilities.
    It would have impact on the budget, but probably not to the 
degree in the near term that it might, because we would still 
be using developmental funds if we were--if this was a 
milestone where we were going from development into 
procurement, then yes, we would have the problem we face so 
often of having to transition or convert procurement funds back 
into R&D or something like that.
    But the reason I wanted to describe the difference is 
because I think people going into this very important milestone 
decision also have to recognize that we have to look at this 
differently. Some of the things we are doing, using elite 
system integrator as a very important part of this strategy is 
different for the Army. Outside of the missile defense area, it 
is different for everyone.
    So it is just a different thing, and we are going to have 
to all recognize that. Going from concept development to 
systems development is a very important step, but in my mind, 
it is more important about what it says about Milestone C.
    If we do not make Milestone B, what does that say about the 
next one, which would be in 2006.
    Senator Clinton. Yes.
    Secretary Brownlee. So I do not think it is a catastrophe 
if we do not make it. While some of us might have been pretty 
worried a few months ago about our ability to make it, some of 
the things that have happened recently are very encouraging.
    I mentioned earlier the evaluation of the critical 
technologies that we have identified. We started off looking at 
about 3,000 and gradually narrowed it down to a list of 31 that 
are considered critical. Those have all met or nearly met the 
technology readiness levels that they should have in order to 
proceed.
    We also--to help assure ourselves--asked an independent 
group to come in and evaluate those. They also gave a very 
encouraging report about that.
    So, yes, it would be greatly disappointing not to make that 
milestone. I do not think it is catastrophic, because this is a 
very ambitious schedule, and I think everybody has to recognize 
that.
    I have asked myself is it too ambitious? Then the question 
comes back, we are taking money out of the current force in 
order to fund this very ambitious program, and there is a lot 
of money we are putting into R&D. There is $13.5 billion worth 
of R&D in this plan, this 5-year plan or 6-year plan it is.
    Senator Clinton. Yes.
    Secretary Brownlee. So, yes, it would be disappointing. I 
do not think it would be devastating. I think we could still 
proceed. When I ask myself what is the alternative, the 
alternative is to have a less ambitious schedule, and we have 
opted not to do that.
    Senator Clinton. I really appreciate that explanation. I do 
not know that that is the alternative, I guess, is the point of 
my question. I think we are falling into a lot of either/or 
thinking around here, not just with respect on this specific 
issue but on a range of other concerns as well.
    So I am hoping that the drive for transformation does not 
blind us to the need to continue to support the existing force, 
and to ensure that for the next 4 to 6 years, or however long 
this process is, that we are not hollowing out what we 
currently have in order to try to meet deadlines and pursue 
some worthy goals that I think we agree with. It should not be 
an either/or approach. I think many of us will watch that and 
work with you.
    Secretary Brownlee. Yes, ma'am.
    Senator Clinton. Has the procurement system undergone a 
similar transformational initiative?
    Secretary Brownlee. It is in the process of undergoing 
something similar and as I said the acquisition strategy that 
we have adopted for this is new and different for the Army.
    Senator Clinton. What kinds of conflicts of interest 
proposals are you putting in place with respect to all of these 
contracts that are being undertaken?
    We are embarking on an enormous undertaking that involves 
multiple billions of dollars, and some recent news reports have 
been highly concerning to me about what, if any, conflicts of 
interests and other kinds of rules are in place as to who bids 
on contracts, who has information, and who does not have 
information, and I would like additional detail about what it 
is we are doing to safeguard anyone taking advantage of these 
situations by virtue of being insiders or in any other way 
undermining the transparency insofar as possible of the 
procurement and bidding and contracting process.
    Secretary Brownlee. I share your concern, and I have voiced 
that several times. I think we have to continually work those 
issues.
    We have put in place around the Lead Systems Integrator 
certain firewalls that we believe will protect against the 
kinds of things you mention.
    I cannot tell you that in my mind right now I am totally 
assured they are all foolproof, but we are looking at it very 
closely.
    In order to make this work, the Lead Systems Integrator has 
to have some authority within the source selection process, but 
one of the things that I insisted on when I came there a year 
ago was that the Army acquisition authority always had the 
final word.
    Senator Clinton. I appreciate that, Mr. Secretary. I know 
you have a distinguished career on this side of the Government 
as well and I would appreciate your conveying the concerns many 
of us on this committee have that in our efforts to discharge 
our public responsibilities, we are not able to obtain 
information in direct question and answer sessions with 
officials from the Pentagon; whereas it appears the contractors 
are.
    Secretary Brownlee. Yes.
    Senator Clinton. I find that somewhat disturbing. When, in 
a comparable hearing, we asked repeatedly--in fact, the 
Chairman was there--Secretary Feith and others, ``What is 
happening? When is it happening? How much it is going to 
cost?'' We were told it was unknowable.
    Then we pick up the newspaper and find out the contracts 
are being let for the unknowable. I am not making any judgment 
about the substance of the contract or the persons or 
institutions to whom it was awarded, but we have an obligation 
here in the Senate and on the other side of the Hill to be kept 
informed about these matters.
    Ultimately, we are the ones who have to appropriate the 
money and answer to the taxpayers.
    Secretary Brownlee. Yes, ma'am.
    Senator Clinton. General Keane, I am very concerned also 
about what you might call the manufacturing base of the Legacy 
Army. We have Watervliet in New York. I visited the arsenal 
last week.
    It is troubling to me that we might lose the capacity as we 
have in other areas of necessary equipment to not only private 
contractors, but offshore or Government contractors. Certainly 
when you look at the Watervliet arsenal and the fact that it is 
the only remaining Army manufacturing facility making cannon 
and howitzer tubes and the like, it is a cautionary note that 
we do not want to give up the ability to quickly turn out heavy 
equipment even if we are transforming, because I still believe, 
and I may be at a minority, that you have to hold ground and 
you may need heavy equipment to help you do that.
    Do you have any comments about the need for continuing that 
kind of manufacturing within the Army itself as opposed to 
contracting it out?
    General Keane. Yes. Thanks for the question, Senator. I 
appreciate your condolences for our soldiers and their family 
members and also we really appreciate the interest that you 
have shown in Fort Drum and the number of times that you have 
been up there around family members. I thank you for all of 
that and your continued support of our Army.
    You put your finger right on that issue. It is the only 
place truly in America that does that kind of work, so it is of 
great value to the Army.
    Our problem is we have a work capacity problem there, in 
terms of the amount of production and work that we are 
providing to that institution. But there is a lot of work 
coming in the future with NLOS cannon, which will be the new 
artillery system for the Army after the cancellation of the 
Crusader program.
    So we are optimistic. Obviously like every other program it 
will get reviewed by the BRAC Commission, and judgments will be 
made about it. But it is the only one of its kind in America. 
So we have a lot of confidence in what it has done for us.
    Senator Clinton. I appreciate that and I would hope that 
you and the Secretary and the Chairman or others might possibly 
come up and visit there, because I remember very well when the 
U.S.S. Cole was attacked and that terrible gaping hole was 
blown into the hull, and there was, at that time, only one 
place left in the entire United States where you could get 
armored steel. That was Bethlehem Steel, which has since, of 
course, gone into bankruptcy.
    As we are looking at transformation, I think we do not want 
to be reliant on Chinese steel companies or Russian steel 
companies, or anybody else in the world for the kind of nuts 
and bolts equipment that is absolutely needed. Whether you are 
transformational or non-transformational, you have to produce 
some of that heavy-duty equipment. So I think that is going to 
be an issue for us.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you. You raise a very important 
point. The Barry amendment, we have some problems with that. I 
think the Defense Department is back on track about that.
    But it is true that steel is a good example. It is a 
security issue. The total collapse of the steel industry in 
America does leave us vulnerable strategically, I think, at 
least in the economic pain from it.
    General Keane, I would just like to say we have been 
talking about transformation and we have been pushing the 
Defense Department to do that. Most large organizations are 
bureaucratic and slow to change. Maybe ours is too, but I want 
to say without any doubt that our military is more open to 
change, more willing to change, more focused on the future 
than, I am sure, any in the world.
    You talk about the Operation Anaconda review, the honesty 
that was there and the commitment to figure out how we can do 
it better in the future without worrying about our parochial 
interests, I think, is a good commentary. We need to keep that 
and keep this momentum going and hopefully we can achieve the 
goals that we would like to achieve. Do you generally feel 
optimistic? You have worn the uniform a long time.
    General Keane. Yes, I am, and most people focus on the 
platforms that we are changing, and many of the leaders in the 
Army do. We cannot help ourselves. We are a platform-centric 
organization, more ground platforms than air platforms get a 
focus in the Army. At times, wrongly so, to be honest with you.
    But the real change in transformation is a cultural change, 
and it occurs in people's heads. That is where the challenge 
has been. When you move in any large organization and--most 
people think because we have all this rank and we are somewhat 
of an autocratic institution, by issuing orders we will create 
positive change. Nothing could be further from the truth.
    We have to have an idea, and we have to be persuasive with 
that idea. It has to be moving to people in our Army to get 
them to willingly commit to change. If you do not get them to 
commit willingly to it, to believe in it, it is not going where 
you think it is. Despite the rank that we have and the orders 
that we can give, in this bureaucracy that we have--and at 
times it is that--it can slow and stop good ideas from taking 
place if they are not convincing and persuasive.
    So our challenge has always been cultural. We are trying to 
change an Army that has fought one way to fight a different 
way. We have to be convincing. I mean, it has been a journey, 
and it has been a struggle.
    At the beginning, it was very hard. We have made some 
progress, but we are not completely there yet. It will take 
more energy and more conviction to get us there.
    Senator Sessions. It has been incredible to me the efforts 
and success in which the air and the ground have worked 
together.
    General Keane. Yes.
    Senator Sessions. Where you have the Air Force and 
sergeants on the ground working together effectively to direct 
firepower exactly where it needs to go.
    I know Senator Lieberman had asked you about Operation 
Anaconda, and I guess those were some of those same type 
issues, how you coordinate effectively; but it seems to me you 
are doing very well at that.
    Would you comment on where you are and what your hopes are 
for the future?
    General Keane. Specifically dealing with air/ground 
support, what we learned from Operation Anaconda and the 
commanders who were there, both in the air and on the ground--
we have spent considerable effort these last months fixing 
that. We think we have done that.
    It is not just fixing the procedures and some of the 
technology. We have to also talk to our youngsters about it. 
The Vice Chief of the Air Force and I both attended his command 
and staff college and his war college. We both got up on the 
stage and we openly talked to them about the problems we had 
and what we are doing about it, because the youngsters out 
there who were doing this have to believe as well that we have 
fixed those issues. We do not want them going into battle, 
whether they are in the air or on the ground, thinking that the 
Army and the Air Force are not going to work effectively 
together.
    We do not want any doubt in anybody's mind that the Air 
Force is going to be there for Army soldiers when they are in 
trouble. We know that the Air Force will be there for us. Now, 
we do not want any pilot thinking that somehow procedurally the 
Army is not going to be able to communicate with him 
effectively to help those soldiers that are in need. So we 
think we fixed it.
    Senator Sessions. I know in Afghanistan, that has been 
stated as the biggest change, where you actually had ground 
combat special forces directing air munitions.
    How far are we from having the normal Army combat unit 
having those same capabilities? Is that only special forces or 
is that throughout the Army that we have the systems in place 
to do that?
    General Keane. Now, that is a great question. When you look 
at warfare, one of the things that is occurring to us and that 
is exploding is the ability to integrate our joint warfighting 
capability in ways that we have not in the past. The 
integration we used to achieve was normally at field commander 
level, where you would find a three- or a four-star flag 
officer. We achieved some operational integration at his level.
    What is happening now, because of the explosion of 
technology, our ability to have a common read of the 
battlefield from the air as well as the ground, is that 
everybody is looking at the same thing at the same time, and we 
have the capacity to truly communicate effectively with each 
other very rapidly, so we have a common situational awareness 
of our own forces as well as the enemy's forces.
    What that is enabling us to do is move down the vertical 
access of warfare and empower people at lower levels with the 
capacity to integrate the combat power across service lines in 
a way that was not imaginable even 10 years ago.
    In Operation Desert Storm, when we went there in 1991, if 
we are honest with ourselves, what we really did is all the 
Services were there, but we sort of de-conflicted our 
operations and stayed out of each other's way. When we look 
back at it in the cold reality of the day, as successful as 
that operation was--and it was very successful. It was 
magnificent as the sailors, soldiers, airmen, and marines 
performed, and it was that when we look at it procedurally, we 
could have done much better.
    We have been working very hard on that the last 10 or 12 
years to achieve better integration. We are not completely 
there, but if we are asked to do something in Iraq, I think you 
will see there will be some profound differences along the 
lines that I have discussed.
    The people at lower levels will be integrating combat 
capability across service lines in a way that we have not in 
the past. You saw some of that when I gave you the illustration 
of special forces teams in Afghanistan controlling the air 
power of all of our strike aircraft. Young sergeants who were 
broken up into groups of threes and fours doing that because 
they had the right communications, they had the right 
technology to fix the GPS-guided munitions and to deliver it 
very accurately. So that is profound change for us.
    Senator Sessions. It certainly is. That is also the next 
question, which is probably a subject for another discussion or 
maybe a closed briefing. Are we there enough, and is that 
transformation recognizing that incredible technological 
advancement sufficiently?
    General Keane. It is the technological change that is 
enabling us to move towards a transformational way, at least 
for a land force to fight.
    What we have done historically, for 100 years, is we have 
always fought principally the same way, we have gathered 
ourselves in very large formations. We call them divisions. If 
you looked at it, it has been a rectangular box. We put them 
together in threes or fours, and you had a guy like me, a 
three- or four-star general, and put him in charge of them.
    He would move into a country on an axis with those 
divisions, and very methodically would control terrain, 
overmatch an adversary, and control the population. Maybe we 
would be moving on two or three axes.
    As the latter part of the 20th century arrived, because of 
the kind of technology and the better systems we had, we were 
able to make more dramatic moves with those formations. But the 
formations inherently stayed the same. They were in those 
massive formations, because there was a hedge against the 
uncertainty of what an enemy was going to do.
    We always had that degree of uncertainty. In the first part 
of the 20th century, we could not even see over the hills, so 
we sent guys over the hill to find out what was going on. At 
the latter part, we started to see with satellites and we 
started to integrate air power so we could see better, and 
those formations loosened up. You saw what Norm Schwarzkopf did 
in Operation Desert Storm when he made that big sweep, but the 
way of fighting really did not change. It was principally the 
same.
    The technological change that is occurring is that now we 
have what I would describe as an unblinking eye over that 
battlefield, where you can truly see where an enemy is and what 
they are doing. The terrain between you and the enemy is less 
important to us than what it has been in the past.
    So if you accept that, if you accept that premise and you 
believe it, then you can introduce forces dramatically 
different as opposed to moving on an axis like this, and you 
can send them to places at the same time to defeat what is 
there, or to take control, to seize what you are interested in, 
a capital city, an air field where there is an enemy formation, 
highways or railroads that you want to seize, so the enemy does 
not use it.
    You can do this in six, seven, eight, nine places, and I 
will call it just drawing circles around the places you are 
interested in, discard the long axis, and you go to those 
places much more rapidly than we do today. In days and weeks, 
you can defeat an adversary, because you will force him to 
implode on himself.
    That is different. Technology is enabling us to do that. I 
think what we are doing is recognizing that technology is 
there.
    So these formations that we will have in the future will be 
much smaller, and we will not be intimidated by the fact that 
we are fighting an adversary that is larger, because while they 
may have a larger Army force than we do, we will be integrating 
all of the joint fires at a much lower level than we do today, 
and be able to address that adversary in ways that we can see 
today, but we cannot completely do today.
    We think that is pretty transformational, because it is 
really changing how an army fights and we have not made as 
dramatic a change like this in 100 years, when you really get 
down to it.
    Senator Sessions. I think that is pretty transformational. 
I agree. That is a marvelous explanation of where we are 
headed. Thank you very much.
    Senator Clinton. Mr. Chairman, if I could, I would like to 
follow up on what the general just said. I can understand and 
visualize the description that you just gave us, until you came 
to the words ``capital city.'' What I need to understand is 
what transformational concept guides our thinking with respect 
to urban warfare.
    General Keane. Yes, that is a great question.
    Senator Clinton. Because, when you think about Schwarzkopf 
making a sweep, or you think about Afghanistan, you have 
different kinds of topography, but it is basically an 
unpopulated, large expanse in which to operate.
    I am confident that we can be successful anywhere, but I am 
just having a hard time understanding a kind of heavily urban 
area that if I were a determined adversary, I would use to 
embed my forces and I would require us to undertake actions 
that would inevitably result in very large civilian casualties, 
and which under the circumstances would not be immediately 
successful, just by the very nature of the environment in which 
we found ourselves.
    So how does the transformational philosophy go along with 
what I view as a very serious continuing threat with respect to 
our ability to take on whatever comes our way?
    General Keane. Yes, Senator, that is a great question. It 
is one that has challenged us intellectually for a number of 
years.
    What we have been doing, for the last 10 to 15 years, is 
drawing circles around these major cities and convincing 
ourselves we were going to bypass them. Most of our operational 
plans called for all of that, to include the ones in Operation 
Desert Storm.
    The reality is our adversaries are very much aware of that. 
You saw what Milosevic did, relatively successfully in Kosovo. 
He had a 40,000-man force. We put no ground forces into Kosovo 
and he was rather successfully able to hide that and shield 
that force from a 78-day air war. He did that in population 
centers and also hiding the forces in villages and using some 
camouflage techniques from us.
    So that technique is well known by our adversaries, and we 
have had to change. We have the capacity to do it. It takes 
some craftsmanship. I do not dispute that. It takes some 
generalship to do it. We would go into a major city with the 
values of the American people with us, with the intent that 
clearly we are not going to harm people unnecessarily.
    If the adversary is crafty, he would hold that population 
in residence. He would not let it go. One of the things that we 
would have to do is attempt to separate the military targets as 
best we could from the population. We have to control the 
population. We have to make some pretty interesting decisions 
early on.
    Is one radio and television? We have to take control of 
radio and television so we can talk to that population, and 
have the appropriate people talk to them in terms of what our 
intentions are. Even while the adversary is there, we have to 
have the capacity to take the TV and radio stations away from 
them and talk to that population.
    We do not necessarily have to use his. We can shut down his 
and use our own to do that sort of work. Talking to the people 
themselves is a major issue for us, and we would not want them 
to leave. We want them to stay in their homes and know we are 
not there to harm them.
    We may actually have to segment that population, so we do 
not want it moving around. An adversary like Saddam Hussein can 
probably get 20,000 people to participate in an event, just by 
calling for it.
    Well, if we are segmenting that population, barricading it, 
blocking it, and we are doing that within the American value, 
they see and feel the strength of our forces there, that we are 
not going to let them move and participate in an event like 
that, which will be covered by CNN and would result probably in 
the loss of innocent lives. We are not going to let that 
happen.
    So controlling the population is critical to do that. We 
have to have presence to do that. We also have to have a means 
of communicating to the people to be able to do that.
    The second thing is we have to deal with military targets, 
and we would use air as well as ground forces to do that, and 
we would do that very surgically. That is an often-used word. 
What I am saying is it would not necessarily need a lot of 
force or a lot of presence to do that.
    We would probably use some special operations forces to do 
it, as well as we would use air power with GPS-guided munitions 
to do that sort of work. We would obviously have to know that 
that is a bona fide target and know what it is and make our 
judgments about it, just as obviously we would have to do in 
this upcoming war.
    So the technology is enabling us to see better. We are 
developing UAVs to use in cities that we can move down 
alleyways, over buildings and we can watch and see. We are 
going to have multiple UAVs to do this, as part of our 
Objective Force, we need those sensors to have this unblinking 
eye in a city, so that we know what is happening.
    If we can see it and understand, then we can make the 
appropriate decisions. We would never do what the Russians did 
in Chechnya. We would not do that.
    Even the problems that the Israelis were facing in Jenin. 
They had a significant challenge that they were facing there, 
and they found that all the roads and alleys were booby-trapped 
and mined, and they had to go through the buildings as the 
avenue of approach. In other words, they took bulldozers and 
moved through the buildings and did it that way.
    We would hope that our technology in the future would give 
us the opportunity to avoid doing that kind of work, but it was 
a challenge that they were facing certainly. They did the best 
they could with that challenge.
    So you are right, Senator. I mean, it is a long response. 
It is challenging work for us, and I think we put a lot of 
intellectual energy into it. We have the values of the American 
people that are in our soldiers, and that is the way we 
operate. I think we can do it without undue harm to the people.
    We have to have that capability. If we do not, then our 
adversaries will just use the people as a shield and try to get 
the best political deal they can out of a stalemate. In many 
cases, that would probably be unacceptable to us.
    Senator Sessions. That was most interesting. It becomes 
more difficult as the adversary is fiercely dedicated to 
resistance. The degree at which that notches down, the lesser 
degree of loyalty to their existing government, I think, is a 
factor in all of this too. If they will operate like the North 
Vietnamese did in small groups far away from a command center, 
you have a more difficult problem than if they have to be kept 
together.
    We are just appreciative of your leadership. I will submit 
a question about our pre-positioned material. I understand that 
some of the equipment that we had pre-positioned was not as 
modern as we would like it to be, and that some units who were 
actually training on it and had to down-train to be able to 
utilize the older equipment. So it would be something that I 
will submit in writing.
    Is there anything else, Senator Clinton, you have?
    Senator Clinton. No, thank you.
    Senator Sessions. Thank you very much. It was an excellent 
hearing and we look forward to working with you as time goes 
by.
    General Keane. Thank you.
    Secretary Brownlee. Thank you.
    Senator Sessions. We are adjourned.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Jeff Sessions

                               PRIORITIES

    1, 2. Senator Sessions. Secretary Brownlee, we look to the Army's 
unfunded requirements (UFR) list when we consider opportunities for 
increasing the Army's modernization budget. Unfortunately, it is often 
difficult to understand Army priorities as reflected in that UFR list. 
For example, while the Army has terminated so many programs related to 
the modernization of the Counterattack Corps, it has included an $88 
million unfunded requirement for two battalions of Paladin howitzers 
for a National Guard Strategic Reserve division. Does this accurately 
reflect Army priorities? Where should we look to help the Army should 
we find additional resources?
    Secretary Brownlee. The Army's top priorities are funded in the 
President's budget submission. While we would have liked to have funded 
all of our requirements, we took prudent risk in some areas. Our top 
five shortfalls reflect those areas where we have taken the most risk, 
and if additional funding were available, we would apply them to these 
areas first. Our number one shortfall is active duty pay and 
allowances. This shortage is due to an unforeseeable short-term change 
in the mix of officer and enlisted soldiers. Number two is in chemical 
weapon stockpile and material storage/demilitarization site security. 
The additional funding allows us to enhance security around chemical 
weapons storage and demilitarization. Number three is anti-terrorism/
force protection funding for security guards and equipment on military 
installations. Number four is for ammunition and helps fund training 
ammunition and replacement of expended war and operations ammunition. 
The last item in our top five is Flight School XXI, enabling us to 
better and more rapidly train our helicopter pilots.
    Regarding Paladin howitzers, the Army National Guard (ARNG) has a 
critical requirement to modernize their heavy division self-propelled 
howitzer systems from M109A5 to M109A6 Paladins. The required $88 
million will support the ARNG request for two battalion sets consisting 
of 36 M109A6 Paladins to modernize two direct support 155SP artillery 
battalions in the 49th Armor Division (Texas ARNG). The Paladin 
howitzer provides essential improvements in survivability and 
responsiveness through a self-locating capability. Most importantly, 
Paladin provides a digitized system that is mandatory on today's 
battlefield. The 49th Armor Division, due to its alignment with III 
Corps, is a high-priority unit in support of the counterattack mission.

                            OBJECTIVE FORCE

    3. Senator Sessions. Secretary Brownlee and/or General Keane, 
fiscal years 2003 and 2004 are critical times for Army transformation. 
In partnership with the Defense Advanced Research Projects Agency 
(DARPA), the Army has focused its science and technology (S&T) funding 
on identifying technologies which can be quickly developed into combat 
capabilities. Over the past 3 years, the Army has dedicated over 95 
percent of its S&T funding to the Objective Force program. I understand 
that towards the end of May, the Army and DARPA will be evaluating 
these technologies as you conduct a Future Combat Systems (FCS) 
Milestone B review to determine which technologies will be ready to 
enter into System Development and Demonstration (SDD). What else can be 
done to mitigate risk in the FCS program? If, for some unknown reason, 
the FCS SDD is delayed, what alternatives do you have?
    Secretary Brownlee and General Keane. Risk mitigation within the 
family of systems that comprise FCS is addressed using both technology 
alternatives for subsystems and capability alternatives to elements of 
the FCS family of systems. The FCS program manager commissioned an 
assessment to identify the critical technologies required to achieve 
the first FCS capability increment. The assessment, endorsed by the 
Deputy Under Secretary of Defense (Science and Technology), determined 
the technical maturity, the degree of criticality of the technology to 
FCS, and the requirement for risk mitigation plan in the event the 
technology did not mature as required. The Army subsequently developed 
risk management plans for all of the medium- and high-risk critical 
technologies. Any significant delay in FCS SDD would require the Army 
to revisit plans for legacy system recapitalization and modernization 
to keep those systems in use for longer periods of time.

                            EXPERIMENTATION

    4. Senator Sessions. Secretary Brownlee and/or General Keane, 
Section 215 of the National Defense Authorization Act for Fiscal Year 
2003 directed the Army to provide a report on the experimentation 
program regarding the design of the Objective Force. Please describe 
the experimentation plan for the Objective Force, the role of the SBCT 
in informing that experimentation, and the cost of that experimentation 
for fiscal year 2004 and the FYDP.
    Secretary Brownlee and General Keane. The report required by the 
Fiscal Year 2003 National Defense Authorization Act is currently under 
review and expected to be approved for distribution in the near future. 
Present Army experimentation planning, the first to truly focus on the 
Objective Force, will support Office of the Secretary of Defense 
guidance to transform America's national security institutions. The 
plan establishes processes, responsibilities, and procedures to 
implement aggressive, innovative concept development and 
experimentation. The plan also reduces risk and integrates Army concept 
development and experimentation into a coherent service/joint context 
to provide combatant commanders with sustained land combat 
capabilities. The plan informs the Army leadership vision and concept 
for the Objective Force and commits the Army to a transformation path 
to achieve Objective Force capabilities in 2010 and field operational 
SBCTs while maintaining the current force as a strategic hedge.
    The SBCTs will be incorporated into Objective Force experiments to 
the extent practicable in order to ensure Objective Force unit of 
action/unit of employment development. These experiments also will 
serve as an important link in developing requirements for the Objective 
Force.
    Experimentation, including that necessary for the battle 
laboratories, is funded at $112 million for fiscal year 2004 and $772.6 
million across the FYDP.

    5. Senator Sessions. Secretary Brownlee and/or General Keane, what 
role did experimentation play, if any, in the design of the Objective 
Force unit of action?
    Secretary Brownlee. Experimentation played a key role in the 
development of the operational and organizational concepts that 
ultimately led to the design of the Objective Force unit of action. 
Experimentation took the form of Army seminar war games and battle lab 
concept experimentation program experiments, joint and sister services 
battle lab experiments, and other Government agencies' experiments and 
technology demonstrations.
    Seminar war games led by the U.S. Army Training and Doctrine 
Command permitted Army senior leaders to model and examine capabilities 
envisioned for the Objective Force within an operational scenario. 
Insight gained from these war games facilitated the definition of the 
unit of action and unit of employment operational and organizational 
concepts. Experimentation validated and refined concepts; provided 
insights for metrics to incorporate in operational requirements 
documents; assessed impacts of FCS on tactical operations; examined the 
influence of future tactical and technical capabilities; and explored 
the potential effects on commanders, staffs, and military operations. 
Experimentation also provided insights into future information 
requirements, development of tactics, techniques, and procedures and 
early insights into the warfighting capabilities derived from advanced 
technologies.

    6. Senator Sessions. Secretary Brownlee and/or General Keane, what 
experimentation is being conducted with respect to the division- and 
corps-level unit of employment? When will that design be completed?
    Secretary Brownlee and General Keane. Army Transformation War Games 
2001 and 2002 examined echelons of command. During Unified Quest 2003, 
the Army will examine alternatives to current echelons of command above 
brigade level. Unified Quest 2003 will focus on the possibility of 
reducing the number of command echelons, and will explore the impact of 
headquarters designed to provide joint and operational command and 
control using an advanced battle command system. The exercise will 
allow the Army to look at alternative command design constructs using 
emerging joint concepts and within the framework of major combat 
operations.
    Insights obtained from this 2003 Army Transformation War Game will 
shape forthcoming decisions on the number of echelons the Army will 
design as well as identify their functions. We anticipate that the 
initial design of the Objective Force units of employment, along with a 
more detailed operational concept for these units, will be completed in 
the first quarter of fiscal year 2004.

    7. Senator Sessions. Secretary Brownlee and/or General Keane, how 
was/is the SBCT formally linked to that experimentation?
    Secretary Brownlee. Objective Force `excursions' will be executed 
during SBCT exercises. As the Army proceeds with development and 
fielding of the two SBCTs at Fort Lewis, lessons learned in SBCT 
exercises and evaluations will inform Objective Force concept 
development and experimentation.
    Recently the Joint Forces Command conducted its first major 
experiment, Millennium Challenge 2002, with the embedded Army 
experiment--Army Transformation experiment 2002. Insights from SBCT 
participation in Millennium Challenge 2002 and future joint 
experimentation will inform Objective Force concept development and 
experimentation.

                             BASIC RESEARCH

    8. Senator Sessions. Secretary Brownlee and/or General Keane, your 
testimony mentions the role that science and technology play in the 
development of the Objective Force. What role does ``6.1'' or basic 
research mostly performed at universities play in that plan? Will 
investments in this fundamental research suffer as you seek to 
accelerate transformation and focus on near-term technology issues?
    Secretary Brownlee. The goal of university research funded by Army 
S&T is to provide new capabilities beyond those that are currently in 
development for the Objective Force. We have a multifaceted strategy 
that takes advantage of the best and brightest minds in our 
universities and develops state-of-the-art infrastructure necessary to 
conduct basic research. The single investigator program identifies and 
leverages the most significant research being done at universities in 
support of the Army mission. University Affiliated Research Centers 
(UARC) perform research in areas that we believe will provide paradigm-
shifting capabilities in support of the Objective Force. As an example, 
the Institute for Soldier Nanotechnologies UARC is focused on 
leveraging and exploiting advancements in nanotechnology to provide 
revolutionary capabilities in soldier protection.
    University Centers of Excellence focus the basic research program 
on enduring needs, such as rotorcraft and automotive technology, in 
order to assure that the U.S. Army maintains our `overmatch' of 
capability in these areas. The Army's Multidisciplinary University 
Research Initiatives program, devolved from OSD in fiscal year 2004, 
funds university centers to investigate multidisciplinary, far-term 
transformational topics critical to maintaining U.S. land combat 
technology superiority. The Defense University Research Instrumentation 
Program, also devolved from OSD in fiscal year 2004, builds and 
maintains the infrastructure needed to improve the quality of defense 
research performed at universities. The program fulfills its objective 
by supplying funds for university purchase of state-of-the-art 
instrumentation capable of meeting current and future research 
challenges.
    As reflected in our past four budgets, Army investment in 
university programs has not been skewed by the acceleration of 
transformation of near-term technology. We continue to sustain a 
balanced portfolio of investment in basic research efforts for near-, 
mid-, and far-term science and technology excellence.

                   MANUFACTURING AND INDUSTRIAL BASE

    9. Senator Sessions. Secretary Brownlee and/or General Keane, what 
investments are you making to ensure that the Nation's industrial base 
can support the needs of the Objective Force in the future?
    Secretary Brownlee and General Keane. The preponderance of the 
Army's investments is currently directed toward those technologies that 
hold the greatest promise for achieving the Army's transformation 
goals. The Future Combat Systems Program Office and the Lead Systems 
Integrator are developing a list of those technologies critical to the 
Objective Force. The Army's strategy is to aggressively partner with 
the commercial sector in developing dual-use technologies and to 
leverage funding from multiple program managers to address a few 
specific manufacturing technology objectives that promise maximum 
overall impact for both new and legacy systems. Ongoing technology 
assessments and investments will form the basis for future decisions on 
the technologies that will ultimately be incorporated into the weapons 
and support systems of the Objective Force. Those assessments will also 
provide focus for the manufacturing technologies that will be required 
within the industrial base to produce and support the Objective Force.

    10. Senator Sessions. Secretary Brownlee and/or General Keane, how 
are you developing the manufacturing technologies needed to produce the 
unmanned vehicles, computer networks, and advanced sensors and 
electronics that are an integral part of the force?
    Secretary Brownlee and General Keane. The Army conducted a special 
study in fiscal year 2000 through the National Center for Advanced 
Technologies to identify the requirements from manufacturing 
technologies for the Future Combat Systems and the Objective Force. The 
blue ribbon panel identified funding priorities for specific topic 
areas and priorities--including the areas you have listed in this 
question. The Army's manufacturing technology effort has been increased 
over 50 percent from fiscal year 2001 to fiscal year 2004, and will be 
over 100 percent higher by fiscal year 2009. We view manufacturing 
technology as a critical element in the delivery of the right 
technology at the right time and at the right price.

      FUTURE OF LABS AND RESEARCH DEVELOPMENT ENGINEERING CENTERS

    11. Senator Sessions. Secretary Brownlee and/or General Keane, 
traditionally, the Army laboratories and Research Development 
Engineering Centers (RDEC) have played an important role in developing 
new technologies and translating Army requirements into R&D programs. 
What role do these facilities play in the Army's development of the 
Objective Force?
    Secretary Brownlee and General Keane. The Army labs and RDECs 
continue even more strongly in this role. The Army Materiel Command 
(AMC), which is the primary developer of Army warfighting materiel, is 
undergoing major internal changes to respond to Army transformation. 
The formation of the Research, Development, and Engineering Command is 
part of the response to bring about Army transformation. This will 
enable AMC to respond more efficiently to the system of systems 
challenge of the FCS and the Objective Force by unifying multiple labs 
and RDECs into one organization.

    12. Senator Sessions. Secretary Brownlee and/or General Keane, in 
light of the need to restructure the Army for transformation, are there 
specific areas that should have more or less emphasis in the S&T and 
R&D infrastructure?
    Secretary Brownlee. Since 1999, Army transformation has been driven 
by S&T investments to bring forth new technologies that are addressing 
the goals of a lighter, more lethal force. Over 98 percent of S&T 
investments are currently aligned with the Objective Force. In terms of 
restructuring, the system of systems challenge of FCS and the Objective 
Force has already resulted in the development of the Research, 
Development, and Engineering Command. Since 70 percent of the S&T 
program is executed by AMC, this response to the challenge has been 
both dramatic and appropriate, moving away from the stovepipe mentality 
of developing the ``eaches'' of the past to the integrated requirements 
of the future. This restructuring will better enable the Army to 
develop and effectively exploit the system of systems aspects of the 
Objective Force.

                               WORKFORCE

    13. Senator Sessions. Secretary Brownlee and/or General Keane, 
Congress has provided the Army with a number of personnel flexibilities 
in order to meet their need for highly trained scientists and engineers 
to support technology development programs. Specifically, Congress has 
tried to provide Army lab RDEC directors with maximum flexibility to 
recruit and retain the appropriate workforce to meet their specific 
missions. Does the current personnel system adequately address the 
specific needs of your individual lab directors?
    Secretary Brownlee and General Keane. No. While the laboratories 
have made significant progress while using the authority provided by 
Congress in Section 345 of the fiscal year 1995 authorization language, 
a number of the other legislative initiatives have not yet been 
effective or fully implemented. In the case of Section 245 and 246, the 
Department of Defense Office of General Counsel has had serious 
problems with them. Section 1113 is about to be enacted. Section 1114 
has also encountered challenges at the OSD level and has not yet been 
implemented. While Congress has been interested in assisting the labs, 
the biggest hindrance to the lab managers in implementing the original 
legislation has been local union veto over laboratory managers' 
initiatives.

    14. Senator Sessions. Secretary Brownlee and/or General Keane, what 
specific authority and flexibility do these lab directors need to 
ensure that they have the technical workforce they need?
    Secretary Brownlee. The original Section 342 legislation included 
in the Fiscal Year 1995 National Defense Authorization Act should be 
modified to allow Defense laboratory directors to test certain 
initiatives with union consultation (as opposed to union veto), and 
with a 3-year sunset clause. At the end of the 3-year period, the Army 
should then make the changes permanent if they have proved effective. 
These changes could be firmly established through additional 
legislation if that proves necessary. The Army also would benefit 
greatly from legislative action that would enable hiring of scientists 
and engineers at market rates, rather than within the limitations 
presently imposed by Government pay scales.

                         CRUSADER REPROGRAMMING

    15. Senator Sessions. Secretary Brownlee and/or General Keane, how 
much of the reprogrammed Crusader funding was transferred into S&T 
accounts to support the development of next generation weapons systems 
to replace Crusader?
    Secretary Brownlee and General Keane. During fiscal year 2002, $32 
million was reprogrammed from Crusader to initiate the Future Combat 
System, non-line of sight cannon (FCS NLOS-C) concept technology 
development (CTD) in fiscal year 2003. This action, along with the 
$368.5 million appropriated in fiscal year 2003 for the CTD, reduced 
the Crusader program termination costs and benefited the FCS program by 
transferring Crusader technology, engineering experience, vital 
information, and facilities to the FCS NLOS cannon demonstration. The 
CTD is progressing along a timeline to advance the cannon designs that 
support fielding the first unit in the unit of action and building a 
demonstration vehicle that will execute test firing and mobility 
demonstrations starting in September 2003.

    16. Senator Sessions. Secretary Brownlee and/or General Keane, will 
this money be used to accelerate the programs being developed by the 
joint Army-DARPA FCS program?
    Secretary Brownlee. Yes, the reprogrammed fiscal year 2002 funding 
along with the $368.5 million appropriated in fiscal year 2003 is 
dedicated for FCS NLOS CTD work and will directly support a cannon 
demonstration vehicle. Another essential aspect of the FCS NLOS CTD is 
the development of a design that supports initial fielding with the 
first unit of action. Since the NLOS is an integral variant of the FCS 
family of manned ground vehicles, the FCS NLOS is fully synchronized 
with the FCS manned ground vehicle design process through the CTD 
program. This up-front CTD design work simplifies meeting the FCS and 
NLOS requirements for commonality and interoperability. Additionally, a 
primary objective of the CTD demonstrator is reducing the engineering 
risk to the NLOS and other FCS variant design and integration efforts, 
all of which will accelerate development of the joint Army-DARPA FCS 
program. 

                      STRYKER BRIGADE COMBAT TEAMS

    17. Senator Sessions. General Keane, the Office of the Secretary of 
Defense reported to Congress that the results of the Stryker-M113A3 
operational comparison indicate that neither vehicle was preferred for 
all of the criteria considered. The Stryker was considered superior 
under some criteria, the M113A3 was superior on others, and the 
vehicles were equal on yet others. There was, however, a considerable 
difference with respect to cost. Twenty-year operating costs are 
approximately the same, Stryker being slightly cheaper because of fuel 
efficiency. However, Stryker procurement costs are considerably higher. 
Why is the Army willing to spend several billion dollars extra to 
procure the Stryker rather than using equipment currently in the 
inventory to field the Interim Brigade Combat Teams (IBCT)?
    General Keane. The Army selected the family of Stryker vehicles to 
equip our Interim Force because it best fulfilled the Army's tactical 
and operational requirements. The results of the comparison evaluation 
validated the decision to choose Stryker because the Stryker vehicle 
provided significant performance and supportability advantages. These 
advantages outweighed the primary competitor's submission advantages of 
a lower cost and a better delivery schedule.
    Both the Office of the Secretary of Defense and the Army Test and 
Evaluation Command comparison evaluation reports note that the Stryker 
is superior in the critical area of survivability. While the M113A3 
does have better mobility in severe terrain, the Stryker is faster, 
quicker, and more operationally mobile--capabilities necessary to fight 
our new interim brigades as envisioned. The ongoing initial operational 
test and evaluation and the congressionally mandated operational 
evaluation of the first Stryker Brigade Combat Team will address 
Stryker's ability to meet the tactical and operational requirements. We 
remain confident that these tests will demonstrate that the Stryker 
fully meets the requirements reflected in the organizational and 
operational concept and the vehicle specifications outlined in the 
Stryker operational requirements document.

    18. Senator Sessions. General Keane, the Department has asked the 
Army to evaluate the SBCT capabilities and to make recommendations 
regarding areas where the Army can improve the capabilities of the 5th 
and 6th Stryker Brigades. The report is due in July 2003. Can you 
provide us some insights into what capabilities will be added to the 
SBCTs? Do you see a need to increase organic aviation assets?
    General Keane. The Army is not complete with its analysis at this 
point, so any discussion of recommendations at this time is premature. 
I can tell you that the Army is looking at several SBCT enhancement 
options--to include enhanced sensors, upgraded communications, more 
precision munitions, and the possibility of adding Comanche, should 
those aircraft become available in the future. Since Stryker brigades 
are optimized for combat in complex and urban terrain, these 
enhancements could make each SBCT more lethal and better able to 
operate as part of a joint force.

    19. Senator Sessions. General Keane, will these capabilities be 
applied to the first four Stryker brigades?
    General Keane. As time and funding permit, the Army certainly will 
look at retrofitting enhanced capabilities into the first four Stryker 
brigades. As a matter of course, the Army looks at the feasibility of 
spiraling new technologies into its standing formations whenever 
possible. We always desire to provide our soldiers with as much 
warfighting capability as possible. As you can appreciate, we must 
balance this strong desire against constraints imposed by funding level 
limitations and other competing operational and acquisition 
requirements.

    20. Senator Sessions. General Keane, if aviation assets are to be 
added to the brigades, will that change the acquisition objective for 
Comanche helicopters?
    General Keane. If the decision to integrate the Comanche helicopter 
into Stryker brigades is taken, then there would need to be a full 
review of the Comanche fielding plan. The Comanche helicopter is not 
sequenced or planned for the Stryker brigades. The first five Stryker 
brigades are slated for fielding before completion of the Comanche 
engineering, manufacturing, and development phase in fiscal year 2009. 
The final Stryker brigade fielding for the Pennsylvania Army National 
Guard covers an extended 5-year schedule from fiscal year 2005 to 
fiscal year 2010.
    Presently, the Comanche is planned to be the Objective Force 
multirole aircraft. If a decision were made to field the Comanche 
within Stryker brigades, we believe that 12 additional low-rate initial 
production Comanches would be required at a cost of $540 million per 
brigade. Absent a major change in schedule, presently unforecast 
Stryker brigade fieldings would occur concurrently with Objective Force 
fieldings and could delay Comanche fieldings to Objective Force units.
    However, we are not yet sure that Comanche will be an appropriate 
addition to the Stryker brigade. We continue to study options of 
embedding current aviation platforms within the Stryker brigades. 
Developing a generic mix of aircraft to enhance the range of Stryker 
brigade missions is resource intensive in equipment and personnel. 
Comanche's reduced supportability footprint is one significant 
attribute that allows us to realize a habitual air-ground operational 
teaming in the Objective Force.
    From both a resource and operational perspective, our best outcome 
is to field an appropriate and capable aviation force into a structure 
that is supportable, deployable, but most of all, effective for the 
range of Stryker missions. At present, our analysis shows we can best 
support Stryker brigades with a tailored, dedicated, direct support 
aviation package designed to enhance Stryker brigade capabilities and 
mission requirements. We must continue to study options in this area 
before drawing any firm conclusions about whether to, and then how to, 
integrate Comanche within the Stryker brigade.

    21. Senator Sessions. General Keane, how do you intend to fund 
these capabilities?
    General Keane. The Army has made difficult decisions in the fiscal 
year 2004 budget proposal regarding which programs to fund. We killed 
24 programs and restructured 24 others for over $22 billion to dedicate 
toward the Objective Force. We would have to weigh carefully the 
capabilities gained versus the capabilities lost from any additional 
program adjustments involved with Stryker brigade enhancements. There 
are no easy financial offsets remaining, so we cannot presently advise 
the subcommittee on precisely how SBCT enhancements might be funded. We 
will work to keep the subcommittee informed of options being explored 
as our OSD-mandated study of this issue continues.

    22. Senator Sessions. General Keane, given the delicate balance in 
the Army budget request, how would you prioritize between greater 
capabilities for the first four brigades against funding the 
procurement of the 5th and 6th Stryker brigades?
    General Keane. After a thorough analysis of the security 
environment and anticipated operational requirements, the Army 
determined that at least six SBCTs were required to fill the current 
capabilities gap. While enhancing one or more SBCTs would improve 
overall force capabilities, we have determined that eliminating one or 
more SBCTs to pay for enhancements to the remaining units would result 
in a reduced overall capability. Consequently, we strongly advocate 
fielding of all six Stryker Brigades, and request continuing Airland 
Subcommittee support for them all.

                         CERTIFICATION EXERCISE

    23. Senator Sessions. Secretary Brownlee, the Fiscal Year 2002 
Defense Authorization bill directed the Army to conduct an operational 
evaluation of an SBCT against the full spectrum of anticipated threats 
prior to deployment and certify that it is operationally suitable. Can 
you describe the exercise as currently envisioned and provide us a 
status report on the planning for this evaluation?
    Secretary Brownlee. Planning for the Operational Evaluation (OE) is 
complete. We will start execution of the plan on April 1, 2003, at the 
National Training Center (NTC). The commander's assessment will focus 
on brigade operations with joint aspects in a full spectrum environment 
against a full spectrum threat. The OE will be conducted at two of the 
Army's Combat Training Centers (CTC): NTC from April 1 to 11, 2003, and 
the Joint Readiness Training Center (JRTC) from May 17 to 27, 2003.
    The NTC phase begins with battalion-level training and live-fire 
exercises and evolves into a brigade-level field exercise. The brigade 
event will emphasize offensive operations, force protection, and intra-
theater lift and resupply against a world-class opposing force (OPFOR) 
in a desert environment under mid- to high-intensity combat operations.
    The JRTC phase will commence with an early entry operation and a 
relief-in-place mission that will involve Special Operations Forces. 
This phase will emphasize maneuvers in restricted terrain and military 
operations in urban terrain (MOUT) under low to medium intensity combat 
operations. The JRTC rotation will focus on the complete range of 
military operations as a contingency mission against another world-
class OPFOR. Additionally, there will be a wide spectrum of 
asymmetrical threats. Training and evaluations at both CTCs will be 
conducted in a free-play environment. This gives the OPFOR more 
latitude to challenge the operational suitability of the Stryker 
Brigade.
    Throughout the OE process, the Brigade will validate the ability of 
the SBCT to deploy strategically by programming rail, sea, and air 
transportation of the Stryker vehicle and SBCT equipment. This 
deployment exercise includes a planned insertion of combat elements by 
C-130 aircraft.

    24. Senator Sessions. Secretary Brownlee, will the SBCTs conduct 
missions across the spectrum of combat during this evaluation? Can you 
give examples of the missions they will conduct?
    Secretary Brownlee. The SBCT will conduct missions across the 
spectrum of combat. Conducting the OE at two different CTCs will give 
us the opportunity to evaluate the performance of the SBCT in a wide 
range of demanding and distinctly different terrain. Additionally, the 
SBCT will be challenged by a continuous variety of asymmetric threats, 
irregular forces, terrorists, civilian encounters, and coalition 
forces.
    The SBCT was designed as a full spectrum, early entry combat force. 
The brigade has full utility, confirmed through extensive analysis, in 
all operational environments against all projected future threats, but 
it is optimized primarily for employment in complex and urban terrain, 
confronting low-end and mid-range I threats that may employ both 
conventional and asymmetric capabilities. The SBCT will deploy very 
rapidly, execute early entry, and conduct effective combat operations 
immediately on arrival to prevent, contain, stabilize, or resolve a 
conflict. Missions at NTC will focus on medium- to high-intensity 
conflicts conducted in a desert environment against a heavy mechanized 
and armored threat. The JRTC evaluation will focus on a low to medium 
intensity conflict conducted in restricted and urban terrain against 
both conventional and unconventional enemies. Asymmetric threats will 
be incorporated into both scenarios. The SBCT will conduct both 
offensive and defensive operations and will include live-fire 
exercises. Specific missions they will execute are: early entry 
operations, distributed simultaneous offensive operations, brigade 
attacks, defensive operations, area security operations, tunnel complex 
operations, and sustainment operations. The SBCT will also employ a 
full range of joint, lethal, and non-lethal fires.

                             APACHE LONGBOW

    25. Senator Sessions. Secretary Brownlee and/or General Keane, I 
understand the Commander of the Army's Aviation Center approved the 
proposed Block III series of upgrades for the Apache Longbow AH-64D 
attack helicopter with the intent to start the program in the fiscal 
year 2007 time frame. It is anticipated that the Block III improvements 
to the Apache will enable network-centric operations, increase sensor 
ranges, and improve platform lethality. There is some indication that 
the Block III program will allow the Apache Longbow to become the heavy 
attack helicopter for the Objective Force. Has the Block III helicopter 
been included as part of the unit of employment analysis?
    Secretary Brownlee and General Keane. The unit of employment 
analysis, although still a work in progress, has included Longbow Block 
III. The analysis included Longbow Block III teamed with both Comanche 
and unmanned aerial vehicles. The Apache Longbow is the initial attack 
helicopter for the Objective Force. The Block III initiative ensures 
the Longbow remains a valid and capable member of the system of systems 
in the Objective Force until a future attack platform is developed and 
fielded.

    26. Senator Sessions. Secretary Brownlee and/or General Keane, what 
is the impact of the Block III Apache on the Comanche helicopter 
requirement? Can the Block III Apache fulfill the attack helicopter 
requirement for the Objective Force, obviating the necessity for 
additional Comanches?
    Secretary Brownlee and General Keane. In fact, the case is just the 
opposite. The initial Comanche procurement objective approved 650 
airframes at a production rate of 60 per year using spiral development 
through a Comanche Block III configuration. The current funding levels 
restrict Comanche to the armed reconnaissance configuration. The 
Comanche decision caused the Army to examine how to best ensure the 
Longbow Apache is relevant in the Objective Force. The Longbow Block 
III program will meet all of the known Objective Force requirements and 
extend the life of the airframe. However, the Army's position on 
Comanche as a multirole aircraft remains constant.

    27. Senator Sessions. Secretary Brownlee and/or General Keane, how 
will you fund this initiative?
    Secretary Brownlee. The Army will examine funding options for this 
program in Program Objective Memorandum 2005-2009. The funding profile 
for the Longbow Block III program begins in fiscal year 2005 with 
research, development, testing, and engineering and non-recurring 
engineering requirements. Initial airframe deliveries would begin in 
fiscal year 2008.

                             CH-47 CHINOOK

    28. Senator Sessions. General Keane, the Army has learned many 
lessons from the ongoing war on terrorism, particularly from the 
operations in Afghanistan. One of these lessons was the operational 
capability and desirability of the Chinook CH-47F and the Special 
Operations Forces version, the MH-57G. To that end, during the fiscal 
year 2004 budget review process, the Department directed the Army to 
provide 24 additional MH-47G Chinook helicopters to Special Operations 
Forces by reprioritizing current CH-47F remanufacture work. What is the 
economic and operational impact of this decision?
    General Keane. Economically, adjusting the CH-47F production 
schedule to comply with the Department directive will add an estimated 
$132 million to the CH-47F life-program cost, half of which, $63.6 
million, will be realized in fiscal years 2005 to 2009. The primary 
reason for this cost increase stems from the results of front-loading 
MH-47Gs in the production schedule. Formal cost increase estimates are 
under review and will be refined by the Army Cost and Economic Analysis 
Center. Additionally, if the Army elects to modify additional aircraft 
at the end of the program to restore those Chinooks transferred to 
Special Operations Forces, the cost to buy back the transferred CH-47D 
to CH-47F conversions is estimated at an additional $444 million in 
base-year dollars. The buy-back would come from the Army's 130 Chinooks 
that are not currently funded for the CH-47F conversion.
    Operationally, we are already short of our total Chinook 
requirement. Transformation requires 513 aircraft and we have a current 
inventory of 463 Chinooks. Our emerging Objective Force requirement is 
502 Chinooks with digital connectivity. Yet due to competing 
priorities, we currently only have 333 remanufactures funded: 272 CH-
47Fs and 61 MH-47Gs. We have no new-build Chinooks funded. In addition 
to these forecast aircraft shortages, our preliminary analysis of the 
DOD directive indicates the Army will incur a reduction of aircrew 
experience in the conventional aviation force for several years. This 
reduced expertise will be most noticeable in the CH-47 crew chief 
senior noncommissioned officer ranks. We also anticipate that the 
Army's CH-47F first unit equipped will slip 21 months as a result of 
the requirement to front-load MH-47Gs in the Chinook production line.

    29. Senator Sessions. General Keane, it is my understanding that 
the ``touch hours'', the time spent making an item, on a MH-47G is 
twice the ``touch hours'' required to make a CH-47F. With a 2-year 
delay in the CH-47F program, has the Army assessed the impact on the 
unit cost of the CH-47F Chinook and has the Department provided any 
resources to cover these costs?
    General Keane. There are two issues that must be addressed in 
response to this question: man-hour costs and the costs incurred from 
CH-47F production delays. First, there will not be any direct impact 
from man-hour costs to the anticipated Army per-unit price for the CH-
47F. It will require approximately 26,000 man-hours to completed CH-47F 
and approximately 50,000 man-hours to complete a MH-47G. Funding the 
difference in the labor hours is the responsibility of the U.S. Special 
Operations Command (USSOCOM). USSOCOM has programmed funds to pay for 
the additional labor hours required to manufacture the MH-47G. As a 
result, the increase in labor hours alone will not directly impact the 
unit cost of the CH-47F to the Army.
    The second issue--CH-47F production delays--will have an impact on 
unit cost. Due to the pressing requirements of the global war on 
terrorism, most of the first three production lots of the Chinook will 
be dedicated to the MH-47G. This initial MH-47G focus will require the 
contractor to re-tool and re-configure the Chinook production line from 
the MH-47G to the CH-47F after these initial lots have been 
manufactured. Costs incurred from this industrial adaptation coupled 
with other small inefficiencies anticipated from production transition 
will result in increased unit costs to the Army for the CH-47F. 
Presently, we estimate that the per-unit CH-47F cost increase will be 
less than 10 percent. The Army Cost and Economic Analysis Center is 
working on a revised cost estimate for the CH-47F in light of the DOD 
directive. We will have a better feel for additional program costs once 
this analysis is complete.

                         BLACK HAWK HELICOPTER

    30. Senator Sessions. Secretary Brownlee, I am concerned about the 
funding profile for new Black Hawk helicopters. As currently 
configured, the budget funds 10 this year, 8 in fiscal year 2005, 28 in 
fiscal year 2006, 23 in fiscal year 2007, 5 in fiscal year 2008, and 4 
in fiscal year 2009, with 9 remaining to be procured in the out-years. 
This kind of profile causes havoc for a manufacturer, and costs the 
Army more in the long-run. What is the possibility that you can spread 
the quantities out in a more even distribution, and complete the buy 
earlier to stabilize the program and reap those savings?
    Secretary Brownlee. There is currently a 5-year multi-year/multi-
service production contract with the Army and the Navy. The Navy's 
procurement quantities from fiscal year 2002 to fiscal year 2006 are: 
13, 15, 13, 15, and 26 respectively. The combined Army and Navy 
procurements approximate the procurement Economic Order Quantity. The 
yearly quantities are more evenly distributed when the Navy 
procurements are added. The Army is procuring 80 aircraft and the Navy 
82 aircraft during the current 5-year multi-year/multi-service 
contract. Savings have been made by use of this multi-year/multi-
service contract. The Army is nearing its end strength requirement of 
1,680 Black Hawks. Quantities in fiscal year 2007 and beyond will be 
reconsidered in following budgets.

    31. Senator Sessions. Secretary Brownlee, it is my understanding 
that the Black Hawk UH-60M recapitalization program may face a delay. 
What is the current status of the Black Hawk recapitalization program?
    Secretary Brownlee. The Army is projecting a $41.8 million cost 
overrun in the Black Hawk UH-60M program in fiscal years 2003 to 2007. 
The cost growth is a result of a combination of factors: Sikorsky 
Aircraft Corporation underestimation of work and lack of cost controls; 
and Army configuration changes that add capability, improve aircraft 
performance, and resolve safety issues. The Army has developed a plan 
that mitigates the cost overrun internal to the UH-60M program while 
minimizing delays to the program. The plan will cap the contractor's 
work on the UH-60M program in fiscal year 2003 to the Army's current 
funding level. The plan will mitigate cost growth in fiscal years 2004 
to 2007 by reducing UH-60M production by seven aircraft in those years. 
To minimize schedule delays, the Army plans to build four additional 
prototypes in fiscal year 2004 that will help accelerate the 
development and operational test requirements. All these changes will 
result in a 6-month delay of the first unit equipped from the fourth 
quarter of fiscal year 2006 to the second quarter of fiscal year 2007.

                       RESERVE COMPONENT AVIATION

    32. Senator Sessions. General Keane, the Fiscal Year 2003 Defense 
Authorization bill directed the Chief of the National Guard Bureau to 
provide a report on the impact of the Army Aviation Modernization Plan 
on the Army National Guard. Could you provide a synopsis of the report? 
Does the fiscal year 2004 Army budget request address the shortfalls 
identified in the report?
    General Keane. I am happy to report that the acting Chief of the 
National Guard Bureau (CNGB) completed the report on January 21, 2003. 
Following the congressionally-mandated review of the report by the Army 
Staff, the Chief of Staff of the Army forwarded the report and 
accompanying Army Staff comments to Congress on February 6.
    This report indicates that while the Army and the Army National 
Guard are in basic agreement on the additional aircraft and funding 
needed to achieve the interim aviation transformation structure of the 
ARNG, progress toward attaining this goal has been slowed by the 
unforecast impact of real-world operational contingencies and funding 
level constraints. The Army has twice delayed the scheduled cascade of 
modernized UH-60A and AH-64A aircraft from the 101st Airborne Division 
and other active duty units to the ARNG because of contingency 
operations in Afghanistan and Iraq. These unfortunate, but we believe 
necessary, delays have slowed the transfer of approximately one-third 
of the modernized aircraft needed for the initial phases of the ARNG 
aviation modernization plan. We anticipate making good on these 
transfers during fiscal year 2004. For the longer term, Army funding 
levels through fiscal year 2009 remain insufficient to provide the full 
number of modernized aircraft needed by the ARNG. In addition, many of 
the aircraft to be provided to the ARNG will not be the most current 
variant of the airframe series. The fiscal year 2004 Army budget 
request only partially addresses these shortfalls identified in the 
CNGB report.
    Despite these challenges, the Army continues to work with the ARNG 
to complete the Guard aviation modernization plan in as timely and 
comprehensive a manner as possible. We also will continue to work with 
DOD and Congress to secure the funding necessary to address identified 
shortfalls, consistent with the overall needs for total Army force 
readiness and modernization.

                   COUNTERATTACK CORPS MODERNIZATION

    33. Senator Sessions. Secretary Brownlee and/or General Keane, the 
heavy Counterattack Corps remains the highest priority for Legacy Force 
recapitalization and selected modernization. However, the Army funded 
the Objective Force by reallocating funding from the Counterattack 
Corps, reducing the recapitalization and selected modernization program 
from three divisions and an armored cavalry regiment as funded in the 
fiscal year 2003 budget request to only two divisions. With 48 program 
terminations and restructures, the Army has again taken risk in the 
current (Legacy) force. Over the past several years, the Airland 
Subcommittee has asked the Army leadership how they would prioritize 
among the Objective, Interim, and Legacy Forces. With 77 program 
terminations and/or restructures in the Legacy Force, it is clear that 
the Army has set priorities and is willing to take risk in the current 
force.
    What are the implications for reconnaissance and security missions 
of not modernizing the Counterattack Corps' armored cavalry regiment? 
Please include in your response what you can plan to do to that unit to 
enable it to fight along side the divisions in the Corps.
    Secretary Brownlee and General Keane. Balancing risk is integral to 
Army transformation. The Army has accepted risk in selective 
modernization and recapitalization, and we continue to assess these 
risks as we balance current readiness, the well-being of our people, 
Army transformation, the war on terrorism, and new operational 
commitments.
    The Army will continue to employ the armored cavalry regiment in 
support of Counterattack Corps operations. A major area of concern will 
be command and control and information sharing between forces.
    The Army is currently reviewing the modernization requirements of 
3rd Armored Calvary Regiment. Abrams tank options, based on available 
funding, will include equipping the 3rd Army Calvary Regiment with MIA2 
System Enhancement Program (SEP) tanks and Bradley M3A2 ODS-D+ with 
Force XXI Battle Command Battalion/Brigade and Below capability and the 
second generation forward looking infrared thermal weapon sight system. 
These added capabilities would allow seamless, digital communications 
between the 3rd Army Calvary Regiment, the division, and in the corps. 
It would also allow the 3rd Armored Calvary Regiment to acquire targets 
at the same distances as those divisions. This digital capability is a 
long-term investment and provides a digital bridge to the Future Combat 
Systems and Objective Force.

    34. Senator Sessions. Secretary Brownlee and/or General Keane, how 
much would it cost to modernize the ACR?
    Secretary Brownlee. The cost for modernizing the 3rd Armored 
Cavalry Regiment is $726 million. This cost would include providing an 
additional 129 M1A2 SEPs and 144 M3A2 ODS-D+ Bradleys, and procuring 
other critical combat support and combat service support systems for 
the unit. Providing funding in this amount will ensure that 3rd Armored 
Cavalry Regiment modernization meets the minimal acceptable 
capabilities commensurate with the rest of the Counterattack Corps.

                            INDUSTRIAL BASE

    35. Senator Sessions. Secretary Brownlee and/or General Keane, the 
cancellation of current programs is certain to affect the industrial 
base. For example, United Defense, one of only two remaining armored 
vehicle manufacturers, has briefed subcommittee staff that it will have 
to close three production facilities 2 years before Future Combat 
Systems low-rate initial production begins. What are Army plans for 
preserving the industrial base and ensuring that the requisite 
production facilities will be available for meeting FCS production time 
lines?
    Secretary Brownlee and General Keane. Army transformation required 
cancellation of certain programs so we could afford FCS. We assessed 
the risks to the industrial base from these program cancellations and, 
where we judged necessary, we have taken steps to mitigate adverse 
impacts. We saw two major risks to the industrial base as a result of 
the decision to not modernize the Counterattack Corps. Both of these 
risks involved maintaining viable armor system production capabilities 
at two production facilities: the Lima Army Tank Plant in Ohio and the 
United Defense combat vehicle production facility in York, 
Pennsylvania.
    The first risk involves General Dynamics' combat vehicle 
fabrication capability at the Lima Army Tank Plant. We judged that risk 
as unacceptable since Lima initially had an insufficient workload to 
remain viable as a production facility for the fabrication of the 
Marine Corps' Advanced Amphibious Assault Vehicle and the Army's FCS 
ground vehicles. To mitigate this risk, the Army has restructured some 
programs and now has sufficient work to sustain Lima in active 
production until these new programs are brought into production.
    The second risk involves maintaining United Defense's combat 
vehicle production facility in Pennsylvania. We recognize that this 
facility would also be a likely candidate to manufacture FCS ground 
vehicles in the future. We expect that the production facilities in 
Pennsylvania will remain viable and open through calendar year 2004 
because of a continuation of their current fiscal year 2003 Bradley 
upgrade work. With this expectation and acceptance of risk, we did not 
program fiscal year 2004 funding for Bradley upgrades to protect that 
portion of the industrial base.
    While we cannot guarantee additional work from support for fielded 
systems, foreign sales, and reprocessing vehicles from operations in 
Iraq, the Army is looking hard at workload projections after calendar 
year 2004 and identifying fiscal year 2005 options which might be 
needed to protect any United Defense combat vehicle fabrication 
capability determined essential for future production. Those options 
will consider United Defense work on development of manned FCS non-line 
of sight gun system, unmanned ground systems, foreign sales, and other 
new non-traditional business. All of the other industrial base risks 
from not funding the Counterattack Corps are judged acceptable.

    36. Senator Sessions. Secretary Brownlee and/or General Keane, how 
will the Army cost-effectively support the tanks, Bradley Fighting 
Vehicles, tank recovery vehicles, and self-propelled howitzers which 
will be in the inventory for many years to come without a healthy 
industrial base?
    Secretary Brownlee and General Keane. Given that final vehicle 
deliveries are scheduled for June 2005, we expect fiscal year 2003 
funding and other work to keep essential skills active through the end 
of calendar year 2004. The program funding for system sustainment and 
technical support will transition in fiscal year 2006 from the Army 
procurement to the operations and maintenance account. We believe 
United Defense's engineering staff and the Army's own in-house staff 
will be able to sustain the vehicles made by United Defense.
    The shortage of Bradley upgrade funding is manageable, but there 
are two key issues we must address. The first issue is how we will fund 
the required technical support to the fielded fleet. During fiscal year 
2003, the Army has had to fund vehicle technical support from 
operations and maintenance accounts. This approach, while necessary, 
presents us a challenge as we address both peacetime requirements and 
operational requirements for the global war on terrorism and operations 
in Iraq. Obviously, we continue to finance the highest priority 
operational requirements first and defer those that are of a lower 
priority. A second issue is whether key suppliers will abandon the 
supplier network as we reduce requirements. This is an ongoing 
challenge. In our efforts to mitigate risk in this area, the Army is 
conducting additional analysis to enable appropriate decisions, for 
example, to either stockpile components or find alternate suppliers.

                              ABRAMS TANK

    37. Senator Sessions. Secretary Brownlee, I understand that the 
Army intends to upgrade 588 M1A2 Abrams tanks to the System Enhancement 
Program configuration. Subcommittee staff has been briefed that the 
current plan is to pull the remaining 586 M1A2s that will not be 
upgraded to the SEP configuration from the units that currently have 
them and store them in a depot to be used for parts for the SEPs. This 
would be a bitter pill for the Army and Congress to swallow--using the 
Army's second most modern tanks for spare parts. Why is the Army 
contemplating such a drastic action?
    Secretary Brownlee. The Army is currently funded to upgrade 588 
Abrams tanks to the M1A2 SEP configuration. The Army also desires, and 
is working to secure, funding to upgrade an additional 129 M1A2s to the 
M1A2 SEP configuration for modernization of 3rd ACR. This brings the 
total number of M1A2 SEP tanks produced to 717 for the Counterattack 
Corps. That leaves 457 M1A2s that would not be upgraded.
    By the end of fiscal year 2007, the Army expects to have a pure 
M1A1 fleet for the remaining active and Reserve component units, 
thereby reducing the logistical burden of supporting numerous versions 
of Abrams. The Army will also upgrade its pre-positioned stock with 
versions of the M1A1 tank allowing units to draw the same model tank 
they will train on at home station. Finally, the Army will upgrade a 
major portion of active component forces to Force XXI digital 
situational awareness.
    Since the M1A2 is a unique tank with several obsolete parts and 
limited second and third tier vendor support, it has become 
increasingly difficult to support. The M1A2 fleet is not digitally 
interoperable with digitized forces and would require extensive work to 
embed these capabilities into this platform. Our analysis shows this 
approach to be uneconomical and unnecessary.

    38. Senator Sessions. Secretary Brownlee, why would you not put 
those tanks in the Counterattack Corps' armored cavalry regiment, 
another active division, or in the National Guard?
    Secretary Brownlee. Our intent is to put the M1A2 SEP into the 
Counterattack Corps across the 4th Infantry Division, 1st Cavalry 
Division and the 3rd Armored Cavalry Regiment. The Army National Guard 
has expressed a desire for a pure fleet of the more supportable M1A1 
and M1A1 heavy armor tanks. Significant funds would be required to 
bring excess M1A2s back up to standard for refielding. Due to the 
current Abrams plan to upgrade the active component with M1A2 SEP and 
M1A1 AIM tanks and cascade M1A1s to the National Guard, we believe that 
the funds to upgrade the MIA2 can be used for higher priority 
requirements.

                         PRE-POSITIONED STOCKS

    39. Senator Sessions. General Keane, the Army has faced a challenge 
keeping pre-positioned stocks modernized. I understand that the 3rd 
Infantry Division drew equipment, such as Bradley Fighting Vehicles, 
which was less modern than their own back in Georgia. That required 
them to ``train down'' to learn how to operate with the less modern 
equipment, and means that they may fight with less capable equipment 
while their more capable equipment sits in motor pools in Georgia. The 
lack of modernized pre-positioned stocks also means that units which 
deploy quickly and draw that less capable equipment may be the first to 
fight, while more modernized forces come much later. It appears that 
may be the case in Iraq, with the 4th Infantry Division, the most 
modern heavy division, yet to be deployed. Is the Army considering 
alternatives to deal with this problem, which will only be exacerbated 
in the future as the Army modernizes two divisions of the Counterattack 
Corps?
    General Keane. The 3rd Infantry Division drew equipment from Army 
pre-positioned stocks (APS) that are not the most modern. However, this 
equipment was well-maintained as evidenced by the readiness rate of the 
fleet when it was drawn in Kuwait. Furthermore, the equipment used by 
the 3rd Infantry Division has proven itself successful on the 
battlefield as exemplified during recent training exercises in Kuwait.
    The majority of the equipment within the APS program was built up 
from stocks drawn down in Europe at the end of the Cold War. 
Concurrently, Army financial constraints during the post-Cold War 
drawdown did not allow us to simultaneously modernize all equipment 
throughout the Active Force, much less the equipment in the APS. 
Difficult dollar-driven decisions had to be made, and the Army decided 
to keep less modern equipment in the APS program and field its newest 
equipment to high-priority operational units. The APS continues to be 
modernized with equipment cascaded down from high-priority active units 
receiving new equipment. We believe it remains most correct to assure 
the highest caliber equipment remains in our active units. However, we 
continue to review various alternatives to the issue of modernizing APS 
equipment, with an objective improving our ability to the APS as modern 
as we possibly can.

    40. General Keane, what are the Army's plans for reconstituting the 
Army pre-positioned stocks after the current crisis with Iraq is 
resolved?
    General Keane. The APS unit sets that are presently being used in 
Southwest Asia are projected to remain in theater until at least fiscal 
year 2005. Consequently, we plan to reconstitute this fleet in the 
theater with assets that will remain there. The sustainment stocks and 
ammunition that were issued to units but not used will be reloaded upon 
container ships and returned to the Diego Garcia region. The 
sustainment stocks and ammunition that were used or consumed will be 
requisitioned and uploaded on container ships when they become 
available.

                   FAMILY OF MEDIUM TACTICAL VEHICLES

    41. Senator Sessions. Secretary Brownlee, in fiscal year 2002, the 
Army conducted a competition for a replacement for the Family of Medium 
Tactical Vehicles (FMTV) A1. In the Fiscal Year 2003 Defense 
Authorization Bill, Congress imposed limitations on the Army's ability 
to award a contract for the FMTV competitive re-buy without certifying 
a 10 percent cost savings of a multi-year contract over a contract of 5 
consecutive years. While the competition was underway, Senator Warner 
received reports from Afghanistan that the FMTV A0 dump truck was not 
performing up to specifications. Has the Army corrected deficiencies 
identified in Afghanistan?
    Secretary Brownlee. Before the deployment of FMTV dump trucks to 
Afghanistan, the Army had embarked on an aggressive program to make 
improvements in the dump configuration. The dump upgrade program began 
in the field in June 2002 and was accelerated to support deployments. 
The upgrade program includes 11 changes in all, including a 1/4 inch 
steel plate bed liner, new stronger tail gate, maximization of the 
current hydraulic lift system, stronger suspension system, and in-cab 
controls relocated for greater operator ease. A sideboard kit was added 
to the upgrade program and addresses the only new issue coming from 
Afghanistan. To date, all of the 448 dump trucks in the fleet are 
complete with the exception of 4 vehicles which are deployed, to be 
upgraded on their return, and 12 vehicles that are located on the outer 
Hawaiian Islands, planned to be completed by the end of April 2003.

    42. Senator Sessions. Secretary Brownlee, will you be able to 
certify a 10 percent cost savings using a multi-year procurement 
instrument? If not, why not? What savings do you expect to achieve?
    Secretary Brownlee. The Army will not be able to certify a 10 
percent cost savings for the FMTV A1 competitive rebuy. A comparative, 
verifiable database for successive single year versus multiyear 
acquisition savings for this program, sufficient for certification, 
does not exist. The approved acquisition strategy did not require 
binding single year and multi-year proposals, which would be the only 
way to verify actual multi-year savings. The Army relies on cost 
estimating to compute reliable savings estimates associated with 
multiyear procurement and these savings for the FMTV A1 competitive 
rebuy program are estimated to be 6.5 percent. Actual savings could 
approach, or even exceed 10 percent. Both current FMTV A1 competitive 
rebuy contractors have expressed, orally or in writing, the claim that 
10 percent savings are realistic and achievable. These assertions, 
however, have not been tendered in a binding proposal, and therefore, 
are not verifiable.

                           RESERVE COMPONENT

    43. Senator Sessions. Secretary Brownlee and/or General Keane, the 
Army National Guard (ARNG) force structure includes eight divisions. 
The Army, with the support of the ARNG, is in the process of converting 
two of these divisions into a combat service support structure. It is 
my understanding that the Army National Guard has agreed to restructure 
two-to-four divisions into multifunctional organizations. Has the Army 
made a decision with regards to the design and operational capabilities 
of the ARNG multifunctional divisions?
    Secretary Brownlee and General Keane. There are two concepts you 
have mentioned. The first is the Army National Guard Division Redesign 
Study (ADRS), the second is the Army National Guard Restructuring 
Initiative (ANGRI).
    In 1995, the ARNG combat structure consisted of 8 divisions and 18 
separate brigades, for a total of 42 combat brigades. Under the ADRS 
plan that was approved in 1996, 12 combat brigades and slice elements 
from two division bases would convert to required combat support/combat 
service support structure. At the end of ADRS, the ARNG would have 8 
divisions and 15 separate brigades, 9 of which would be embedded in the 
divisions, for a total of 30 combat brigades. ANGRI will adapt the ARNG 
to the new Defense Strategy while providing a bridge to the Objective 
Force. ANGRI will achieve these objectives by converting four of the 
eight divisions to a more versatile design called the Multi-Functional 
Division (MFD). Embedded within the MFD is the Mobile Light Brigade 
(MLB), an infantry-centric organization enhanced with systems that 
provide commanders with more versatile capabilities than found in 
present ARNG divisional brigades.
    We are currently staffing the designs for the MFD and MLB for final 
approval. Our near-term focus is to get the MLB design approved and 
included in the Program Objective Memorandum (POM) 2005-2009. However, 
we will continue to refine the MFD design with a goal of addressing MFD 
requirements in POM 2006-2011.
    The MFD will perform operations in a variety of roles. We envision 
that it will perform missions ranging from a post-hostilities role in a 
major combat operation, to direct participation in small-scale 
contingency operation, to providing general purpose capabilities for a 
homeland security operation supporting Northern Command (NORTHCOM).
    After we implement ANGRI, the ARNG force structure will still 
consist of eight divisions (four MFDs, two heavy, one medium, one 
light) and some number of separate brigades (to be determined). These 
will be apportioned to Army missions. Total Army Analysis 2006-2011, 
which will be completed later this year, will address the specific 
number of MFDs and MLBs.
    As we work through design issues associated with implementation of 
ANGRI, we will continue to ensure the Army retains the operational 
capabilities required to meet the National Security Strategy, the Joint 
Strategic Capabilities Plan, the Contingency Planning Guidance, and 
other key documents.

    44. Senator Sessions. Secretary Brownlee and/or General Keane, do 
you have an estimate of the costs associated with the restructure and, 
if so, are these costs reflected in the fiscal year 2004 budget 
request?
    Secretary Brownlee and General Keane. The designs for the MFD and 
the MLB have not yet been finalized; therefore, we cannot provide a 
cost estimate at this time. Our intent is to begin funding ANGRI in POM 
05-09. Consequently, we envision no direct impact on the fiscal year 
2004 budget.

    45. Senator Sessions. Secretary Brownlee and/or General Keane, what 
is the impact of this reorganization on Army National Guard aviation 
force structure?
    Secretary Brownlee and General Keane. There is no direct impact to 
Army National Guard aviation force structure as a result of the ANGRI 
initiative. ANGRI and the ARNG aviation transformation are separate, 
but complimentary efforts of the overall Army Transformation Campaign 
Plan--both efforts are intended to bridge the ARNG to the Objective 
Force.

    46. Senator Sessions. Secretary Brownlee and/or General Keane, will 
the contemplative changes solve the Army's problem with respect to 
military police, civil affairs, and other units which are in extremely 
high demand in this new strategic environment?
    General Keane. The full scope of operational requirements demanded 
by the new strategic environment is not known at this time. We continue 
to assess Army requirements for the global war on terrorism and the 
emerging strategic environment, and have already planned and programmed 
a number of required changes into the fiscal year 2004-2009 POM 
underpinning the Army fiscal year 2004 budget submission. In this 
initial wave of adaptation, over 19,500 spaces have been programmed for 
change within the active, Guard, and Reserve force structure. These 
enhanced force capabilities include some force restructuring to address 
evolving requirements for military police, chemical specialties, 
special operations capabilities and civil affairs forces.
    The Army will continue to adjust its force structure based on the 
Secretary of Defense's ``1-4-2-1'' force-sizing construct. To stay 
within targeted end strength levels, the Army anticipates that adding 
capabilities to the Active Force will require the transfer of some 
mission capabilities between the Active and Reserve Forces. We are 
exploring a number of options to reduce risk in achieving Army missions 
in the new strategic environment. Some of these options under study 
include converting lower demand structure inside the Active Force, 
converting key capabilities held in the Reserve component but needed on 
a recurring basis for contingency operations, and changing the Reserve 
personnel management system by enhancing volunteerism and diminishing 
involuntary mobilization in order to increase access to Reserve-
specific capabilities.
    The Office of the Secretary of Defense (OSD), in conjunction with 
the Joint Staff, has undertaken a study to improve operational 
availability of all military forces. As part of this undertaking, the 
active component/Reserve component mix is being studied carefully in 
the context of short-notice, short-duration major combat operations. 
This study remains incomplete. However, we anticipate preliminary 
recommendations from it, including those that might necessitate force 
structure changes, may be incorporated as part of Defense planning for 
fiscal year 2005 that is anticipated from OSD later in the year.

    47. Senator Sessions. Secretary Brownlee and/or General Keane, are 
there any other roles and functions that should migrate from active to 
Reserve or vice versa?
    Secretary Brownlee and General Keane. OSD, in conjunction with the 
Joint Staff, has undertaken a study to improve operational availability 
of all military forces. As part of this undertaking, the active 
component/Reserve component mix is being studied carefully in the 
context of short-notice, short-duration major combat operations. This 
study remains incomplete. Once finished, we expect it to inform Army 
decisions on which, if any, forces that should migrate from the Active 
to Reserve Force (or vice versa). The Army's active and Reserve 
component force mix is the result of deliberate actions to balance 
risks and priorities in light of operational requirements, resource 
constraints, and the ``1-4-2-1'' force sizing construct. The Army's 
force mix is designed to support the geographic combatant commander's 
requirements as determined by the Total Army Analysis process. To stay 
within constant end-strength levels, we anticipate that adding 
capabilities to the Active Force will require the transfer of some 
mission capabilities between the Active and Reserve Forces. Thus, while 
it remains uncertain precisely which roles or functions might be best 
reallocated between Army active and Reserve components, we believe that 
the OSD and Army processes now in place to address this issue will 
account fully for the key factors in the new strategic environment 
mandating any such change.

                           RAND ARROYO CENTER

    48. Senator Sessions. Secretary Brownlee, how does the RAND Arroyo 
Center support Army transformation efforts?
    Secretary Brownlee. The RAND Arroyo Center conducts mid- to long-
term policy studies and analyses under the direction of the Army's 
Arroyo Center Policy Committee (ACPC) which is co-chaired by General 
Keane and the Assistant Secretary of the Army (Acquisition, Logistics 
and Technology).
    The Arroyo program supports Legacy, Interim, and Objective Force 
topics. Arroyo's research addresses Army transformation efforts such as 
human resource implications, leader development evaluation, the total 
Army school system, training development for combat service support 
systems, managing the Future Combat Systems acquisition program, 
organizing and managing the Army science and technology community for 
transformational research and development, CSS transformation 
(including rapid deployment of early entry forces), support to the 
Training and Doctrine Command for Army transformational analysis, 
Objective Force bandwidth requirements, and lessons learned from recent 
Army employments, e.g., Afghanistan lessons learned.

    49. Senator Sessions. Secretary Brownlee, is Arroyo's 
legislatively-mandated cap on funding adequate to support all of the 
Army taskings for the organization? What would the appropriate ceiling 
level be?
    Secretary Brownlee. Yes. The ceiling still allows for adequate 
support by the Army's Federally Funded Research and Development Center 
(FFRDC). RAND Arroyo's share of DOD's FFRDC ceiling for fiscal year 
2003 is 99 staff-years of technical effort.
                                 ______
                                 
               Questions Submitted by Senator Pat Roberts

              EFFICIENT BASING EAST AND SOUTH INITIATIVES

    50. Senator Roberts. General Keane, are the Efficient Basing East 
and South Initiatives consistent with the overseas basing review 
currently being conducted by the EUCOM commander?
    General Keane. The Secretary of Defense has given the Under 
Secretary of Defense for Policy and the Chairman, Joint Chiefs of 
Staff, until July 1, 2003, to develop a comprehensive and integrated 
presence and basing strategy looking out 10 years. The results will 
determine if the Efficient Basing East and South Initiatives are 
consistent with the strategy and support for future presence in Europe.

    51. Senator Roberts. General Keane, if the Efficient Basing East 
and South Initiatives are not approved, could the Army execute the 
fiscal year 2004 military construction funds associated with those 
initiatives within the continental U.S.?
    General Keane. In accordance with overall program priorities, the 
Army could execute fiscal year 2004 construction funds associated with 
these European efficient basing initiatives in the continental United 
States. We would want to work closely with the Office of the Secretary 
of Defense and Congress to assure that any re-focusing of fiscal year 
2004 military construction funds presently focused for Europe is 
accomplished in accordance with an overall program that accounts for 
Army soldier and family needs both within and outside the continental 
United States.

                   FAMILY OF MEDIUM TACTICAL VEHICLES

    52. Senator Roberts. Secretary Brownlee, to help pay for 
transformation, the Army has reduced funding for the Family of Medium 
Tactical Vehicles program. Given the importance of FMTV to both the 
current force and the Objective Force, does the Army require additional 
funding to sustain the FMTV program in fiscal year 2004? How would 
additional funding continue truck modernization?
    Secretary Brownlee. While the Army can sustain the FMTV program 
with the fiscal year 2004 funding in the fiscal year 2004/2005 
President's budget, additional funds would be put to use to continue 
and accelerate modernization of the medium fleet.

              ADVANCED ALUMINUM AEROSTRUCTURES INITIATIVE

    53. Senator Roberts. Secretary Brownlee, transforming the force 
hinges, in part, on our ability to stimulate innovation and apply best 
business practices in the design-manufacturing paradigm. Along these 
lines, this committee has supported the Advanced Aluminum 
Aerostructures Initiative in each of the past 3 years to identify, 
develop, and demonstrate design and manufacturing capabilities that 
will enable systems producers to provide aluminum aerostructures at a 
dramatically reduced cost. The program, which is managed by the Air 
Force Research Laboratory's Air Vehicles Directorate, has targeted 
select components on a variety of platforms, including the C-17, C-130, 
UCAV, JSF, F-22, and Global Hawk, and produced some very impressive 
achievements in terms of part count reductions, weight reductions, and 
cost reductions.
    As the Army continues its efforts to transform the force, it would 
seem that the same principles and methodology demonstrated in the 
Advanced Aluminum Aerostructures Initiative could be applied to ground 
systems modernization to substantially reduce the weight and costs of 
vehicle structures and, thereby, enhance performance and affordability 
of future combat systems. Would you review the Air Force's Advanced 
Aluminum Aerostructures program and provide me with your perspective on 
how we might apply this innovative design/manufacturing methodology to 
our ground systems modernization program to enhance transformation and 
generate cost and weight reductions in military ground vehicle 
structures? I would appreciate your response as soon as possible so 
that your input can be factored into the committee's deliberations on 
the fiscal year 2004 budget request.
    Secretary Brownlee. The Army is familiar with the ALCOA/Air Force 
Advanced Aluminum Aerostructures Initiative (AAAI) program. We are 
aware of this program as a result of discussions conducted between Army 
Tank-Automotive Research Development and Engineering Center (TARDEC) 
engineers, the ALCOA Technical Center in Pittsburgh, and the ALCOA 
Automotive Division (located in the vicinity of TARDEC). At the summer 
2001 annual Automotive Industry Aluminum Association symposium, TARDEC 
engineers made presentations to the aluminum industry, informing it 
about the Army's transformation challenges--and industry's 
opportunities--to reduce future ground vehicle size, weight, and cost 
without sacrificing lethality and survivability. They encouraged the 
aluminum industry to take advantage of the new opportunities to apply 
aerospace technologies to help meet the FCS objectives.
    Since that meeting, TARDEC has taken further steps to facilitate 
introductory relationships between ALCOA and the Army's FCS Lead 
Systems Integrator and its ground vehicle contractor team. As a result, 
we can report that. ground vehicle industrial base contractors with a 
stake in Army transformation are aware of, and have indicated high 
interest in, the methodologies and technologies described by ALCOA. We 
are confident that the best solutions and options available to 
incorporate aluminum in the Army's FCS are under active review and 
being incorporated in the budgetary proposals underpinning the fiscal 
year 2004 and future fiscal year Army budget submissions.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                        MODULAR CAUSEWAY SYSTEMS

   54. Senator Levin. General Keane, the Army has not funded the 
Modular Causeway Systems (MCS) in fiscal year 2004. After systems 
bought under current contracts are delivered, the Army will still be 
critically short of MCS assets, including 4 roll-on/roll-off discharge 
facilities, 14 causeway ferries, 1 floating causeway, and 15 warping 
tugs. The decision to cease MCS procurement will have a devastating 
impact on the industrial base and incur substantial costs to rebuild 
that base and resume production in the future. How does the Army intend 
to meet the outstanding requirement for MCS?
    General Keane. The projected Army MCS shortfall after fiscal year 
2003 production buys is 2 roll-on/roll-off discharge facilities, 13 
causeway ferries, 9 warping tugs, and no floating causeways. This 
shortfall is less than previously projected as the Army now plans to 
field three company sets rather than four. There is no additional 
program funding until fiscal year 2007. The Army's intent is to fully 
fund the entire MCS requirement and has budgeted at least $12 million 
per year from fiscal year 2007 to fiscal year 2013 for MCS production.

    55. Senator Levin. General Keane, what would be the cost to procure 
the outstanding requirement assuming a renewal of current contracts?
    General Keane. Based on the unit costs in the current production 
contract's final option period (ending in November 2004), the 
requirements shortfall is approximately $61 million.

    56. Senator Levin. General Keane, what would be the cost to procure 
the outstanding requirement assuming that the current contract is 
allowed to lapse?
    General Keane. The estimated cost of the requirements shortfall 
assuming a new contract action is $84.5 million.

    57. Senator Levin. General Keane, what would be the cost of 
reopening current production facilities in the future if allowed to 
close at the completion of current contracts?
    General Keane. Based upon non-recurring costs in the current 
contract, the estimated non-recurring costs for these systems when 
program funding is next expected to be available (fiscal year 2007) is 
$2.6 million.
                                 ______
                                 
                Question Submitted by Senator Evan Bayh

    58. Senator Bayh. Secretary Brownlee, I would like to know what the 
Army is doing to ensure it maintains a viable industrial base to 
support current systems in the interim as we move to the Objective 
Force. Specifically, what is the Army's plan to sustain the 
transmission base for both the Abrams tank and the M113 combat vehicle 
fleets over the next 20 years?
    The Army is working closely with Allison Transmission Division to 
maintain a combat vehicle transmission support capability for heavy 
combat vehicles. Obviously, it is difficult to lay out specific plans 
for the next 20 years for a particular supplier, but we will always 
take whatever actions are required to support industrial capability 
that is defense-unique, critical, and endangered.
    Specific actions by the Army to preserve the Allison Transmission 
base include a near-term buy of 43 M113 transmissions, to be awarded by 
mid-September 2003, and the X200-4 to X200-4a conversion program, 
beginning August 2004.
    Other work includes the Abrams upgrade of X1100-1 to X1100-3b 
transmissions, part of the Abrams System Enhancement Program. This 
upgrade will be complete by late calendar year 2003. The Defense 
Logistics Agency and the Army buy spare parts from Allison Transmission 
Division that support the Army's overhaul program at Anniston Army 
Depot. Systems technical support will require Allison to provide 
engineering and logistics support. Finally, as combat vehicles return 
from Iraq, Allison will likely get additional work.
    Obviously, Allison has other work, such as foreign military sales 
that also helps maintain this capability. As a prime example, Egypt may 
buy an additional 275 tanks. Depending on their terms, Allison may get 
the contract for the transmissions and engineering support. That could 
begin in September 2005 and continue for 1 year.

    [Whereupon, at 5:19 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                        THURSDAY, APRIL 3, 2003

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

  NAVY, MARINE CORPS, AND AIR FORCE AVIATION AND AIR-LAUNCHED WEAPONS 
                                PROGRAMS

    The subcommittee met, pursuant to notice, at 2:50 p.m., in 
room SR-232A, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators McCain, Sessions, 
Chambliss, and Pryor.
    Majority staff members present: Ambrose R. Hock, 
professional staff member; Gregory T. Kiley, professional staff 
member; and Thomas L. MacKenzie, professional staff member.
    Minority staff members present: Creighton Greene, 
professional staff member; and Maren R. Leed, professional 
staff member.
    Staff assistants present: Andrew W. Florell and Nicholas W. 
West.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; James Beauchamp, assistant to 
Senator Roberts; James W. Irwin and Clyde A. Taylor IV, 
assistants to Senator Chambliss; Aaron Scholer, assistant to 
Senator Lieberman; William Todd Houchins, assistant to Senator 
Dayton; and Terri Glaze, assistant to Senator Pryor.

      OPENING STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. Good afternoon. It is great to have 
Senator Pryor here as our ranking member today, a new Senator 
but a fine public servant. We served some time in the same 
office as attorneys general of different states. So it is great 
to have him in the Senate.
    Senator Pryor. Thank you.
    Senator Sessions. I would like to welcome each of our 
witnesses here and thank you for taking the time from your busy 
schedules as the Airland Subcommittee meets to consider how the 
fiscal year 2004 budget request and the Future Years Defense 
Program (FYDP) support aviation and air-launched weapons 
programs and priorities.
    Many of the platforms and systems we are going to be 
discussing today are at this very moment being used by the 
young men and women of our armed services who have been 
deployed in harm's way. We owe all of them a debt of gratitude 
and pledge our support to them.
    I especially want to express my sympathy for the families 
of those who have fallen or who have been wounded on the 
battlefield. I will be at a funeral Saturday for Private First 
Class (PFC) Howard Johnson from my hometown of Mobile. I knew 
his father. He is the pastor of Truevine Missionary Baptist 
Church with just a fine family. He was out there doing what he 
could for his country and gave his life for it.
    Our predecessors on the Armed Services Committee over the 
last 40 years have made key and difficult investment decisions 
to authorize the development and procurement of many of the 
aircraft and weapons systems that are being used today around 
the world. Many of those were criticized at the time. So it is 
now our responsibility to ensure that the weapons systems that 
will be used in the decades to come are developed and produced 
in an efficient manner.
    Today in the deserts of Iraq, our ground forces have the 
ability to maneuver with the benefit of air dominance. We must 
have the same goal today to provide the men and women of the 
armed services with effective and suitable equipment with which 
to accomplish their missions. Domination of the airspace is an 
absolute requirement.
    I want to thank Senator Pryor for his willingness to act as 
ranking member today. I am sure Senator Lieberman appreciates 
your willingness to fill in for him.
    Our panel of witnesses today should be able to give unique 
insight into both the requirements and acquisition plans for 
the aviation programs of the Navy and Air Force departments. 
From the Department of the Navy we welcome Secretary John 
Young--there he is--the Assistant Secretary of Navy for 
Research, Development, and Acquisition. With him are Vice 
Admiral Nathman, the Deputy Chief of Naval Operations for 
Warfare Requirements and Programs; Lieutenant General Hough, 
the Deputy Commandant of the Marine Corps for Aviation; and 
from the Department of the Air Force we have Secretary Marvin 
Sambur, the Assistant Secretary of Air Force for Acquisition; 
and Lieutenant General Keys, the Deputy Chief of Staff for Air 
and Space Operations.
    A good panel. They can answer, I am sure, any questions 
that we would have.
    There have been numerous studies completed on the 
affordability of projected aviations programs. In the area of 
tactical aviation, we have the F/A-18E/F Super Hornet in full 
rate production, the FA-22 Raptor in low rate production, and 
the Joint Strike Fighter (JSF) in Systems Development and 
Demonstration (SDD) with production scheduled later in the 
decade.
    As the average age of our current tactical aircraft 
continues to increase, it is clear that we have to 
recapitalize. The cost associated with this recapitalization, 
however, makes it imperative that we carefully examine the 
performance and numerical requirements for these platforms.
    The subcommittee is also interested in precision-guided 
munitions. In Operation Desert Storm, only 10 percent of the 
air dropped munitions were precision-guided. In our current 
conflicts, the vast majority of our weapons have been 
precision-guided. This has increased the survivability of our 
strike aircraft, decreased the incidence of collateral damage, 
and provided a substantial force multiplier effect.
    I understand that the production of our laser-guided bombs 
is at the maximum rate and that the production of the Joint 
Direct Attack Munition (JDAM) is scheduled to achieve maximum 
rate in the near future. I have been concerned, however, that 
we do not have a sufficient inventory of these weapons. I feel 
we must do all we can to achieve necessary inventory 
objectives.
    Another area of concern to the subcommittee is the 
Department's plan for providing electronic attack. Since the 
current inventory of EA-6B Prowlers used by all three services 
is aging, I understand that quite a few of our current fleet of 
EA-6s are either grounded or have flight restrictions. We will 
talk about that.
    This subcommittee is aware of ongoing negotiations between 
the Air Force and industry for the potential lease of airborne 
refueling aircraft. Although no proposal has been delivered to 
Congress for this approach to recapitalization of the KC-135 
fleet, the fiscal year 2004 budget request does include a plan 
to retire 68 KC-135E aircraft. This would have a significant 
impact on our ability to provide the required airborne 
refueling to our mobility, long-range strike, and tactical 
aircraft.
    Again, gentlemen, thank you for being here today. I look 
forward to your testimony.
    Senator Pryor, we would be delighted to have any opening 
statements you would like to make.

                STATEMENT OF SENATOR MARK PRYOR

    Senator Pryor. Thank you, Mr Chairman. It is an honor to be 
here with you today. The first thing I need to do is submit a 
statement by Senator Lieberman for the record, if that is 
permissible.
    Senator Sessions. It will be made a part of the record.
    [The prepared statement of Senator Lieberman follows:]

           Prepared Statement by Senator Joseph I. Lieberman

    Thank you, Mr. Chairman. I would like to take an opportunity to 
thank our witnesses for appearing before this subcommittee today.
    First, I think it's important to note the heroism and 
professionalism of the coalition Armed Forces presently engaged in 
hostilities in Iraq. I would like to draw special attention to those 
forces that undertook the daring and brilliantly executed rescue of PFC 
Jessica Lynch Tuesday night in the town of Nasiriya. All those involved 
in that rescue mission, like all those men and women in uniform who are 
serving their country in the Middle East right now, represent the best 
in word and in deed that this country has to offer.
    It is against that backdrop of continued bravery and exemplary 
performance that we convene this session of the Airland Subcommittee to 
discuss the present status and the future, of tactical aviation. It is 
a humbling backdrop indeed. It serves to remind us of the importance of 
the issues raised in this subcommittee . . . that the decisions made, 
in part, in these chambers, may result in lives saved months or even 
years down the road in conflicts both prepared for and hardly imagined.
    To this end, therefore, I would like to raise a few issues with our 
witnesses--issues that I hope this subcommittee will hear more about 
during its proceedings and the witnesses' testimony today.
    First, I note with no small amount of dismay that the testing of 
the F/A-22 Raptor has been delayed. Last year the Air Force was 
predicting that the F/A-22 program--a program essential to future U.S. 
air superiority--would start operational testing and evaluation this 
month. Since that announcement there have been delays in two major 
areas: one, delayed aircraft deliveries have slowed the progress of the 
development testing leading up to initial operational testing and 
evaluation; and two, problems with the aircraft's software have proven 
harder to correct than anticipated.
    Production costs have also increased. In fiscal year 2003, Congress 
provided more than $4.6 billion for the production of 23 F/A-22 
aircraft. After negotiating the contract for this year's aircraft, the 
Air Force has found that those funds will only buy 20 aircraft--a 
change caused by cost increases and the need to shift research and 
development (R&D) funds to support additional development and testing 
efforts. Now the Air Force intends to purchase only 22 of the aircraft 
in fiscal year 2004, down from the 27 it planned to buy at this time 
last year.
    Moving to the Joint Strike Fighter, I note with disappointment that 
this program may also have hit a ``snag.'' Reports indicate that a 
critical weight problem has developed which needs to be addressed 
sooner rather than later. I would urge the services and the contracting 
team to fix the problem now in such a way that will not create a ``bow 
wave'' of further complications as we approach delivery dates. Hasty 
weight reduction fixes have been responsible for substantial cost 
increases in other aircraft developments late in the program, and 
neither I nor my colleagues on this subcommittee want to see the same 
sort of mistakes be repeated to the JSF program.
    Moving from platforms to capabilities, I would like to ask our 
witnesses what the Marine Corps and the Air Force plan to do about 
replacing the EA-6B Prowler electronic warfare aircraft. As we all 
know, the EA-6B is the world's premier electronic warfare aircraft and 
is vital for the suppression of enemy air defenses and the disruption 
of their communication capabilities. Precisely because of its superior 
abilities to decimate the enemy's ability to utilize the electronic 
ether to its own ends, the Prowler is a prominent member of the U.S. 
Armed Forces' ``high demand, low density'' asset community. The DOD 
sponsored an analysis to determine how to modernize the aging EA-6B and 
increase the assets' availability to deployed forces. As a result of 
this study the Navy has decided to develop an electronic warfare 
variant of the F/A-18. But it is much less clear what the Marine Corps 
and Air Force plan to do. I hope to hear from our representatives of 
the Air Force and Marines present today on their plans to fill this 
crucial operational niche in the near-to-middle distance future.
    In addition to a substantial demand for airborne electronic warfare 
assets, the U.S. military is also experiencing a high demand for air-
to-air refueling tankers. I was troubled to learn of press reports that 
carrier aircraft were literally stuck on the deck because the Iraqi 
front line has receded inland so quickly, and there aren't enough 
tankers to provide the required refueling stops. I would like to hear 
of the services' plans to rectify this capability gap. I would also 
like to hear more information about the proposed leasing of 100 tanker 
aircraft from Boeing to replace 133 KC-135s.
    The budget request includes retiring 43 of the KC-135s in fiscal 
year 2004, and another 20 or so through the FYDP. Given the high 
utilization of the tankers themselves, it seems premature to do away 
with this many high demand assets when their replacements are not yet 
identified. Indeed, although the Air Force has indicated that it was 
close to obtaining approval from the administration for a tanker-
leasing plan, they have not yet submitted any plan to the Armed 
Services Committee. Senator Levin has already made it quite clear that 
he would argue against the adoption of any plan until the full 
committee was given the opportunity to review its details. I also know 
that Senator McCain has expressed strong reservations about such a 
proposal.
    I firmly believe that tactical air support is one of the most 
demanding air combat roles a pilot can undertake. Indeed, flying 
extremely close to the ground while trying to identify friend from foe 
at blistering speeds is a daunting enough task to give anyone pause. 
However, on March 28 an American A-10 apparently attacked a small 
convoy of British Chieftain tanks and Scimitar armored vehicles from 
the Household Cavalry. Preliminary reports indicate that although the 
attack by the A-10 took place in a British-controlled area, although 
the British armor had `popped' colored smoke to identify themselves to 
the aircraft, and although the tanks and armored vehicles had friendly 
markings applied to their exterior, the attack was pressed.
    In the end one British tanker was killed and four injured in the 
attack. Given the importance of coalitions to our national security, 
and given that working with coalition partners, especially the British, 
will increasingly become the rule rather than the exception, I would 
like the witnesses to address the question of whether or not our 
procedures or training need to be updated to prevent such unfortunate 
accidents from recurring in the future.
    Lastly, as the ranking member of this subcommittee which holds 
jurisdiction, in part, over the Air Force, as a long-time supporter of 
the military, as a Senator who has proudly nominated young women to our 
military academies, and as the father of two daughters, I feel it 
necessary to address current events at the United States Air Force 
Academy. I share my Armed Services Committee colleagues' deep concern 
and dismay over the way that that institution has handled allegations 
of sexual assault and misconduct at the Academy. While I support 
Secretary Roche's change of the top Academy leadership, I too must 
wonder aloud if this is too little, too late. The lives of scores of 
young cadets have been irreparably harmed so too has the spirit and 
core of the Air Force which has now lost some of its best and brightest 
through the wrong-doing of some of their classmates, and the failure of 
the leadership to take their allegations seriously. Senator Collins and 
I have already called for an independent investigation of the Academy. 
. . I am now proud to co-sponsor Senator Allard's amendment to the 
Emergency Defense Supplemental to create an independent board of 
inquiry to examine the decisions of the Academy leadership 
specifically, and the Air Force leadership more generally, concerning 
the allegations of sexual misconduct at the Academy. I await their 
findings.
    Again, I would like to welcome the witnesses to this hearing, and 
thank you in advance for your candor.

    Senator Pryor. I want to thank our witnesses for being 
here, and I certainly appreciate everything that you all do. I 
cannot say another word without acknowledging the wonderful job 
our Armed Forces are doing in Operation Iraqi Freedom. It has 
really been amazing to watch the progress we have made in these 
last few days.
    One thing I am proud of about the Senate Armed Services 
Committee is this commitment we have to try the best we can to 
work in a very bipartisan way. I think that there is a broad 
consensus on the Armed Services Committee, and certainly on 
this subcommittee as well, to enable the Department of Defense 
(DOD) to respond to the changes of the uncertain world we face.
    The challenges are many. We know that you are going through 
a transformation process, a modernization process. We know that 
we are living in an ever-changing and dangerous world. We 
appreciate your commitment to the security of our Nation and 
the freedom of people all over the world.
    One thing I would love to hear from each of you, as is 
appropriate, is testimony on the FA-22. I would like to get an 
update on that. I would love to hear about the JSF. I would 
love to hear about the replacement for the EA-6B and also the 
KC-135 lease proposal. I know those are four issues that we are 
all familiar with and I think this subcommittee would like to 
hear about them.
    One thing I would like to emphasize is that this 
subcommittee and the full committee in the Senate will give a 
lot of attention to the Department of Defense and the needs of 
the Department of Defense. That attention is very appropriate 
considering all the challenges that you have. We are committed 
to maintaining our advantages and improving upon those. So we 
also acknowledge that our resources are limited. We are here to 
make sure that our resources are utilized in the wisest fashion 
possible.
    So I look forward to hearing from you today and look 
forward to a frank and open discussion of whatever issues you 
have on your mind.
    Thank you.
    Senator Sessions. Thank you, Senator Pryor. I appreciate 
that. We are glad to have Senator McCain here. He is a national 
resource in a whole lot of ways. He has a vast history dealing 
with many of these issues that he knows of personally. I value 
his insight and counsel very much.
    Do you have any comments to open with?
    Senator McCain. After something like that, it is best to 
remain silent. [Laughter.]
    I thank you, Mr. Chairman. I thank you for holding the 
hearing. I thank the witnesses for being here.
    Senator Sessions. All right. Mr. Young, do you want to 
start? We would be glad to hear your opening statements. I do 
not know if we have a timeline, but I think 5 minutes would be 
a good goal.

 STATEMENT OF HON. JOHN J. YOUNG, JR., ASSISTANT SECRETARY OF 
      THE NAVY FOR RESEARCH, DEVELOPMENT, AND ACQUISITION

    Mr. Young. Thank you, Mr. Chairman, distinguished members 
of the subcommittee. I appreciate very much the opportunity to 
testify on our fiscal year 2004 tactical aviation programs.
    Recently, I visited our sailors and marines in the Persian 
Gulf area. I am proud to report that the commitment that we 
made and Congress' support in fiscal year 2003 to focus our 
taxpayers' dollars towards improving current readiness has 
yielded strong dividends. Today we have over 70 ships, 370 
tactical aircraft, and more than 55,000 sailors and 60,000 
marines in theater. They are trained, equipped, and carrying 
out the Nation's will. Our prayers are with them.
    The fiscal year 2004 budget sustains the enormous strides 
we have made in personnel and readiness and also attains a 
balanced approach to procurement and modernization, cultivating 
promising aircraft technologies, efficiently acquiring mature 
systems, and improving the maintenance of our existing systems. 
Through these steps, we have been able to increase the number 
of airplanes from the 89 indicated in the fiscal year 2003 
budget request to 100 in the fiscal year 2004 budget request.
    The fiscal year 2004 budget request proposes innovative and 
creative approaches to achieving greater combat air capability. 
First, the Department's initiative to integrate Navy and Marine 
Corps tactical aircraft will achieve significant reductions in 
procurement and operating support costs while achieving combat 
requirements and readiness levels.
    Navy and Marine Corps tactical air (TACAIR) integration is 
enabled by improving the reliability and maintainability of 
current and future systems, reducing the maintenance pipeline 
by properly funding spares and depot maintenance, and enhancing 
the support of our deployed systems.
    In another innovative step, the Department of the Navy has 
worked with the Air Force, the Office of the Secretary of 
Defense (OSD), and the Defense Advanced Research Projects 
Agency (DARPA) to forge a joint unmanned combat air vehicle 
(UCAV) program. Clearly, unmanned air vehicles (UAV) will play 
a significant role in our future operations. We are developing 
a joint strategy with the Air Force, DARPA, and OSD for a UCAV 
program that meets our common requirements, while maintaining 
the flexibility to support service-unique functions. We will 
structure this effort to maintain competition among the UCAV 
contractors with the goal of a JSF-like acquisition strategy 
that results in the selection of a common platform with 
service-unique variants.
    We are also continually advancing the current and future 
combat value of our airplanes. The Multifunction Information 
Distribution System (MIDS) provides the capability to share the 
airspace picture amongst all 16 linked ships and aircraft. The 
next step is evolving Cooperative Engagement Capability (CEC) 
to provide an enhanced, high-confidence air picture for systems 
like E-2C and other participants. A CEC-equipped E-2C with our 
Radar Modernization Program upgrade and our Evolving Extended 
Range Active Missile development will provide a 
transformational enabler against current and future cruise 
missile targets, particularly those operating over land.
    The F/A-18E/F Super Hornet you mentioned is our principal 
tactical aviation recapitalization aircraft in the near term. 
The budget includes $3 billion for 42 airplanes, the final 
installment of a fiscal year 2000 to 2004 multiyear 
procurement. Deliveries remain ahead of schedule. Three Super 
Hornet squadrons are already deployed in support of Operation 
Iraqi Freedom.
    $228 million has been allocated to procure two E-2C 
Hawkeyes, the first of a new 4-year multiyear procurement. This 
effort will keep the line viable as we march towards the E-2C 
Advanced Hawkeye with the Radar Modernization Program.
    We are initiating the airborne electronic attack efforts on 
the F/A-18E/F, calling it the EA-18G, as an evolutionary means 
to leverage existing capabilities and replace our aging, low-
density, high-demand EA-6B aircraft. Using the Super Hornet 
aircraft allows the Department to streamline the acquisition 
process and field a product sooner to the fleet.
    Our partnership with the Air Force, Lockheed Martin, Pratt 
& Whitney, and General Electric has made affordability the 
cornerstone of the Joint Strike Fighter program. The fiscal 
year 2004 budget requests $2.2 billion for continuation of 
Systems Development and Demonstration. The program is on track 
to deliver operational short takeoff, vertical landing (STOVL) 
variants to the Marine Corps in 2008 and the Navy variant in 
2010. At Secretary England and Secretary Aldridge's urging, we 
formed a Configuration Steering Board for JSF. Secretary Sambur 
and I have a mandate to reject changes in the core program in 
order to give JSF a chance to deliver the initial system within 
the time and the dollars available.
    To further realize acquisition efficiencies, we recently 
signed with the Air Force a contract to procure KC-130Js as 
part of a multiyear procurement seeking 20 additional aircraft 
for the Marine Corps.
    I believe we have crafted a balanced and properly focused 
budget request that ensures our Nation will have an efficient 
infrastructure and an optimal force structure. The Navy and 
Marine Corps, sir, are professional and capable, the best in 
the world. With your assistance, we will continue to provide 
maximum capability for our sailors and marines and maximum 
security for America.
    I thank you for the opportunity to testify today.
    Senator Sessions. Thank you, Secretary Young.
    Secretary Sambur.
    Dr. Sambur. Yes, Mr. Chairman. Since I would like to give 
you the opportunity to ask the questions that you would like to 
ask and since I have a written statement for the record, myself 
and General Keys would like to forego our oral comments. If you 
can accept our written remarks for the record, it would be 
appreciated.
    Senator Sessions. We would be delighted to do that. I have 
reviewed your remarks. I appreciate those very much.
    [The prepared statement of Dr. Sambur follows:]

                Prepared Statement by Dr. Marvin Sambur

    Chairman Sessions, Ranking Member Lieberman and members of the 
subcommittee: Thank you for this opportunity to discuss with you the 
Air Force's 2004 budget plan and to report to you on our efforts and 
progress on acquisition reform. General Keys and I are proud to come 
before you today and discuss our plan for maintaining the United States 
Air Force as the dominant air force in the world. Your support will be 
vital as we work together to ensure that we continue to deliver 
programs that support warfighter capabilities, which are needed to 
ensure victory.
    Over the last year, we have been very successful in implementing 
new changes to the Air Force acquisition process and in providing 
increased capabilities to the warfighter. My staff and I have been 
diligently working to develop processes and enhance the culture within 
the Air Force acquisition workforce, so as to institutionalize these 
changes and ensure our air dominance.
    We will continue to leverage the technology of this Nation to 
create advantages for our military forces and meet the challenges that 
we will face in the years ahead as articulated by the Secretary of 
Defense.

                    CHANGING OUR ACQUISITION PROCESS

    The Secretary and Chief of Staff of the Air Force gave us a mandate 
to change the way we do business to deliver capability to the 
warfighter. From slipping development times, to reduced deliveries, to 
increased costs, programs have not met established baselines and goals. 
During this past year, I have been working to determine the root cause 
of these execution problems. The findings identify several factors that 
lead to poor program execution including: unstable requirements, faulty 
cost estimates, lack of test community buy-in, inadequate systems 
engineering, and unstable funding. For the Air Force, these program 
execution problems result in the average cost growth of 30 percent for 
acquisition programs and the doubling of the average procurement times.
    Given the problems noted above and the resulting increases in 
program costs and delays in program schedules, I have formulated a 
series of policies to address the underlying causes.
    First, in order to overcome our unstable requirements process, I 
have implemented an Agile Acquisition Policy that demands 
collaboration: that is active, cooperative dialogue between the 
warfighter, acquirer, and tester working as one team at the outset and 
throughout the requirements and development process. This will ensure 
that warfighter requirements are clearly articulated, the acquirers 
communicate what can be delivered and the testers understand what needs 
to be verified. Surprises are kept in check when the user provides a 
concept of operations up front and a consistent, continuous dialogue 
between all stakeholders provides a robust definition of a requirement, 
which the acquisition community can deliver and the tester can verify.
    These changes set the goal of institutionalizing collaboration 
throughout the Air Force and DOD acquisition to include our operations, 
test and sustainment communities. Collaboration must start well before 
a product is delivered in order to control costs and to provide the 
user with the required capability. When the acquisition enterprise, 
consisting of the warfighter, acquisition, test, and sustainment 
communities, starts working together a better product is produced.
    Second, I have addressed the issue of faulty cost estimates by 
instituting policy changes that will foster credibility within the 
acquisition community. Credibility means delivering what we promise, on 
time and on budget. In the past, we have designed our programs with a 
60-70 percent confidence level of meeting cost, schedule, and 
performance goals. In order to be credible both to the warfighters and 
Congress, I have implemented a 90 percent confidence level in meeting 
our requirements.
    By demanding collaboration between all the parties, we can ensure 
the right trade-offs are made throughout the acquisition process to 
meet the required goals. It is imperative that both the warfighting and 
acquisition communities work together to make tradeoffs of non-critical 
elements within programs to buy down risk throughout the acquisition 
cycle. Bottom line: credibility means delivering what we promise, on 
time and on budget.
    Third, not having test community buy-in created problems further 
along in the acquisition process. As such, we have started to work with 
the test community on processes to reduce the number of serial events 
for testing. This is different from the current process of serial and 
overlapping development and operational testing, which can take several 
years. We are developing a seamless verification process to ensure that 
both the developmental test and operation test occur in a single 
process, not fragmented as it has been in the past. If the operational 
testers are involved early in the process, then they can assess the 
operational value of developmental testing and reduce duplication of 
effort.
    Again, collaboration is a vital part of this process change. By 
involving all members of the acquisition enterprise early and 
continuously, we can all come to agreements on what are the operational 
requirements, what can be delivered and how we will verify the systems 
being built meet those needs.
    Fourth, we need to instill an adequate systems engineering 
foundation within the acquisition process. Systems engineering is one 
of the bedrocks of sound management for acquisition programs as it 
ensures that contractor-proposed solutions are consistent with sound 
engineering principals. Decisions based on a solid systems engineering 
approach will ensure that our program managers will be better prepared 
to assess their programs' health and will help to keep programs on 
budget and schedule. As such, I am implementing a process by which all 
future Milestone Decision Authorities will not sign out any future 
acquisition strategy plans that lack the necessary attention to systems 
engineering. Additionally, I am demanding system engineering 
performance be linked to the contract award fee or incentive fee 
structures. This link will help ensure the industry will also follow a 
sound systems engineering approach.
    Additionally, we are rebuilding our organic system engineering 
foundation to provide the necessary expertise throughout the Air Force 
acquisition community. Recently, the Center of Excellence for Systems 
Engineering has been opened at the Air Force Institute of Technology. 
Our goal is to create a reservoir of knowledge and source of best 
practices, which can be applied to our current and future acquisition 
programs.
    Fifth, unstable funding is a constant problem, one that can be 
better managed by a more disciplined program-priority process while 
leveraging spiral development methods. Through our complementary 
processes to review warfighting capabilities and the associated 
execution of the programs comprising the capabilities, I firmly believe 
that we will have in place the ability to better manage funding 
instability. As funding perturbations, both external and internal, 
arise within our programs, our reviews will ensure that a disciplined 
process of flexing resources to programs that contribute the most to 
warfighting capabilities exists. This in effect will minimize the 
overall perturbation to programs that provide the most ``bang for the 
buck'' and eliminating our time-honored process of applying a ``peanut-
butter spread'' to all.

        SPIRAL DEVELOPMENT IS OUR PREFERRED ACQUISITION PROCESS

    The Air Force has identified the spiral development methodology of 
acquisition as the preferred approach to acquiring systems. As the pace 
of technology has quickened, so must the pace of our acquisition 
process. Spiral development allows the Air Force to incrementally 
deliver weapon system capability quickly--providing the warfighter 
technology as it matures within acceptable program risk. As each spiral 
is more clearly defined and shorter in duration, schedules are better 
managed due to the shorter time exposure of the development process to 
internal and external change. Mutual expectations on spiral content, 
cost, and schedule are also commonly understood and agreed to up-front 
between all stakeholders, as collaborative practices are paramount to 
the spiral development process.
    Spiral development will also assist in mitigating funding 
instability by allowing the service to compartmentalize each individual 
spiral such that a funding cut in the far term won't compromise a 
capability that is complete and ready to go to the field today. In the 
past our ``big bang'' theory of releasing weapon system capability to 
the field held all aspects of the weapon system hostage to any 
perturbation in the process. With spirals we release smaller, more 
tightly focused capability sooner, and minimize the risk of a long 
drawn-out development process being affected by funding instability in 
either the mid- or far-term.
    Another beneficial spin-off of spiral development acquisition is 
the flexibility to insert the latest technology into the development 
and production lines. This is where the importance of a robust science 
and technology (S&T) capacity is crucial in truly reaping the benefits 
of a spiral release process.

                 CAPITALIZING ON SCIENCE AND TECHNOLOGY

    Providing the warfighter solutions rests in large measure with 
research and development. Through robust investment and deliberate 
focus in S&T, the Air Force invigorates our core competency of 
providing technology-to-warfighting. Combined with innovative vision, 
S&T opens the direct route towards transforming air and space 
capabilities. Therefore we continue long-term, stable investment in S&T 
to ensure we realize future capabilities, as well as those that may 
immediately affect existing systems.
    Some of these new technologies--UAV systems, laser-based 
communications, space-based radar, and others--show clear promise for 
near-term, joint warfighting applications. Others present opportunities 
we can only begin to imagine. We are exploring each of these 
technologies, and our investment will deliver the required capabilities 
to our seven Air Force concepts of operations (CONOPs).

           ACQUISITION SUCCESS THROUGH NEW BUSINESS PRACTICES

    The Air Force has also enacted new business practices from an 
integrated enterprise perspective, examining every process and process 
link. I have expressly given our people the latitude to make the right 
decisions by relaxing our past prescriptive policies. My implementation 
of a reality-based acquisition policy, which replaced the highly 
prescriptive Air Force Instruction (AFPD 63-1/AFI 63-101), provided 
guidance emphasizing innovation and risk management and will delegate 
decision authority to appropriate levels. Additionally, I have 
empowered our people through the use of high powered teaming with the 
warfighters, to deliver initial capability to warfighters more quickly, 
and add capability increments in future spirals.
    Our transformation of acquisition practices are only the beginning 
of a comprehensive and aggressive approach to reforming business 
practices. Our efforts today will have a direct effect on efficient and 
effective air and space capability acquisition both immediately, and in 
the future.

                        INITIATIVES SHOW RESULTS

    During the last year we have had several successes based on these 
principles outlined above. One such example is the Passive Attack 
Weapon. This weapon was developed as a result of a 180-day Quick 
Reaction Program at Air Combat Command, and was available to the 
warfighter at the 98-day mark. To date, we have delivered 58 weapons 
and completed all aircraft integration. Support elements have been 
delivered, and our seamless verification of the system is complete. 
Production was completed on time, with 15 percent more weapons 
delivered than originally proposed as we completed the program under 
budget.

                      WEAPON SYSTEM MODERNIZATION

F/A-22
    The F/A-22, with its revolutionary combination of stealth, 
supercruise (i.e. supersonic cruise without afterburner), 
maneuverability, and integrated avionics, will dominate the skies. The 
F/A-22 will ensure U.S. air dominance against all projected future 
threats. In addition, when outfitted with the Small Diameter Bomb, the 
F/A-22's ability to penetrate an adversary's anti-access airspace and 
destroy his most critical air defense capabilities, will enable 24-hour 
stealth operations and freedom of movement for all follow-on forces--
fully leveraging our Nation's asymmetric technological advantages. In 
2001, flight-testing continued to demonstrate the revolutionary 
capabilities. Specifically, the F/A-22 successfully completed an AIM-
120 guided missile launch, and initial radar detection range 
measurements (met specification requirements the first time out). On 14 
Aug 2001, the Defense Acquisition Board approved the F/A-22's entry 
into low-rate initial production (LRIP). Entering operational service 
in 2005, this transformational leap in technology is the linchpin to 
preserving the Nation's most important military advantage for the 
warfighter: the capability to rapidly obtain and maintain air and space 
dominance. The program continues to proceed toward full rate 
production. LRIP aircraft are well into the manufacturing process; 
contracts already awarded include Lot 1 (10), Lot 2 (13), Lot 3 (20), 
and advance buy for Lot 4 (22).
    The EMD program has been restructured to resolve the EMD shortfall 
within the overall F/A-22 budget. Funding was re-phased from 
modernization and production in fiscal year 2003 and from production in 
fiscal year 2004-fiscal year 2006. The modernization program was re-
planned in concert with the warfighter to account for these changes 
while ensuring critical capabilities are brought on board when 
required. While the EMD shortfall and higher than anticipated Lot 3 
aircraft costs did result in a revised estimate of 276 aircraft, it did 
not impact the Air Force's commitment to the ``Buy-to-Budget'' 
strategy. The Air Force is focused on successfully completing F/A-22 
development and initiating Dedicated Initial Operational Test and 
Evaluation (DIOT&E). While currently scheduled to start in October 
2003, DIOT&E remains event-based and we will not begin until we are 
assured of success. Our greatest remaining development challenge is 
avionics stability, yet we remain confident we will successfully 
resolve this issue.
    Despite the issues above, F/A-22 program has made great strides in 
the past 6-9 months. Not only has the flight test program increased the 
test point burn down rate to the point where envelope expansion is back 
on track, but also the vertical fin buffet challenge has been resolved, 
and the cause of canopy howl has been identified and a repair plan 
developed. The program recently crossed the 3,000 hour cumulative 
flight hour milestone and has seven aircraft flying at Edwards and one 
at Nellis. Testing has also included 16 live missile launches (4 
guided) and successful firing of the gun. Production processes during 
final assembly at Marietta continue to show improvement. Out of station 
work has been reduced significantly, part shortfalls are down 70 
percent, and tool validation has been completed.
F-35
    Acting in concert with the F/A-22 will be the F-35 Joint Strike 
Fighter. The F/A-22/F-35 force mix will balance affordability, 
capability and force structure--critical capabilities for the global 
strike concept of operations--to ensure sufficient quantities of 
advanced fighter aircraft to give the U.S. dominant force across the 
full spectrum of conflicts. The F-35 program will develop and field a 
highly common family of next-generation strike fighter aircraft for the 
Air Force, Navy, Marine Corps and our allies. The Air Force 
conventional takeoff and landing (CTOL) variant will be a multi-role, 
primary air-to-ground aircraft to replace the F-16 and A-10 and 
complement the F/A-22. While the F/A-22 will establish air dominance, 
the F-35--with its combination of stealth, large internal payloads and 
multi-spectral avionics--will provide persistent stealth and precision 
engagement to the future battlespace. The F-35 will carry a wide array 
of weapons, including J-series, AMRAAM and AIM-9X. It will be optimized 
for all-weather, air-to-ground employment, including direct attack on 
the most lethal surface-to-air missile systems. F-35 planned 
reliability and maintainability will enable an increase in sortie 
generation rate and mission reliability, and will reduce the logistics 
footprint as compared to legacy aircraft.
    The F-35 program is in the second year of the SDD phase. The SDD 
program is employing a block upgrade approach, based upon an open 
system architecture, to provide early delivery of a basic combat 
capability followed by integration of additional avionics and weapons 
capabilities to support the services' initial operational capability 
(IOC) requirements in the 2010-2012 timeframe. Over the past year, the 
program has achieved several SDD technical milestones, including the 
Air System Requirements Review, the Integrated Baseline Reviews, the 
Propulsion Preliminary Design Reviews and, most recently, the Air 
System Preliminary Design Review for all three F-35 variants. The 
program is currently expected to meet or exceed all key performance 
parameter thresholds.
    The F-35 program is on track to supply 1,763 CTOL aircraft to the 
Air Force and to meet the Air Force's IOC goal in fiscal year 2011. 
Maintaining this schedule will ensure the optimal balance between 
affordably replacing aging aircraft and providing the warfighter the 
required force structure.
    The F-35 is the DOD's largest cooperative development program. In 
fiscal year 2002, the F-35 program successfully concluded SDD 
cooperation agreements with seven additional international partners: 
Canada, Denmark, the Netherlands, Norway, Italy, Turkey, and Australia. 
These countries, along with the United Kingdom, are contributing over 
$4 billion to the SDD program. The Department is also negotiating with 
Israel and Singapore regarding their participation as security 
cooperation participants. International participation in the F-35 
program will help ensure maintenance of economies of scale, which will 
keep the F-35 affordable both in flyaway and support costs over the 
life of the program. Additionally, international participation in the 
F-35 program will promote appropriate U.S.-foreign technology sharing 
and bring the U.S. and our allies closer to the goal of full joint/
combined warfare capability.
Unmanned Combat Air Vehicle (UCAV)
    The UCAV vision is to develop an affordable weapon system that 
expands tactical, and perhaps strategic, mission options and provide a 
revolutionary new element in the air power arsenal. The UCAV weapon 
system will exploit the design and operational freedoms of relocating 
the pilot outside of the vehicle while maintaining the rationale, 
judgment, and moral qualities of the human operator.
    The ongoing X-45 UCAV program is a joint Defense Advanced Research 
Projects Agency/U.S. Air Force effort being conducted in multiple 
overlapping spirals of increasing capability towards the UCAV vision. 
Spiral 0 consisting of X-45A air vehicle demonstrators, mission control 
system, and simulators are performing well at the NASA-Dryden Flight 
Research Center in CA today. Spiral 1, planned for delivery in fiscal 
year 2005, will integrate the intelligent multiple-vehicle coordinated 
operations demonstrated in Spiral 0 with a robust air vehicle design 
that offers increased range and payload. Future spirals will provide 
increasing capability to meet warfighter needs and enhance the 
effectiveness of integrated operations of manned and unmanned aircraft.
F-15 Program
    The F-15 Eagle remains the USAF's lead air superiority and only 
all-weather deep interdiction aircraft well into this century. The deep 
interdiction version, the F-15E, provides night/through the weather 
air-to-surface attack, employing all USAF precision-guided munitions, 
including J-series weapons. The F-15 is heavily involved in Operations 
Enduring Freedom, Noble Eagle, and Iraqi Freedom.
    The Air Force must maintain the F-15A-Ds' and F-15Es' abilities to 
fulfill their roles in light of the evolving threat and world 
situation. Several of the current modifications to the F-15 are an 
upgrade to the radar (the APG-63(V)1 radar upgrade) to address 
significant reliability obsolescence problems; an upgrade to the engine 
(the F100-220E engine upgrade) to address significant reliability 
problems; addition of a new mission computer (the Advanced Display Core 
Processor) to provide computing power to support future capability 
growth; an upgrade of the armament control system (the Programmable 
Armament Control Set upgrade) to support employment of J-series 
weapons; and addition of high-off-boresight targeting of sensors and 
air-to-air weapons (the Joint Helmet Mounted Cueing System) to improve 
survivability in within-visual-range air combat.
    A recent success story of the program is the fielding of Litening 
ER pods to support current operations. Following the Chief of Staff's 
direction, the Air Force completed a 90-day evaluation of the Litening 
pod in December 2002 on F-15E aircraft. Positive evaluation results led 
to direction to procure and field 24 pods. Funding reallocation and 
congressional approval were accomplished within 2 months, and pod 
deliveries began in January 2003. There are currently 16 pods in-
country supporting Operation Iraqi Freedom, and the balance will be 
delivered to the Air Force by 31 March 2003.
F-16
    The F-16 is the Air Force's principal multi-role fighter and is the 
largest Air Force and international sales procurement program with over 
4,000 produced for service, encompassing 23 countries. It is currently 
operating within the Active, Reserve, and Air National Guard Forces. 
The F-16 is a single-engine, multi-role, tactical fighter, with full 
air-to-air and air-to-ground combat capabilities. The F-16 comprises 
over 50 percent of the precision engagement fighter force and is the 
Air Force's primary Suppression of Enemy Air Defense (SEAD) platform. 
It is extensively deployed with various ongoing operations to include 
Operations Noble Eagle, Enduring Freedom, and Iraqi Freedom.
    The F-16 is currently projected to be in service beyond 2020. 
Several key modifications are underway to ensure the Fighting Falcon 
remains a key combat enabler. The Falcon Structural Augmentation 
Roadmap (Falcon STAR) is a structural modification for achieving an 
8,000-hour component service life. Installation is programmed for 
fiscal year 2004 through fiscal year 2014. The Common Configuration 
Implementation Program (CCIP) modification will improve the avionics 
commonality between the Block 40 and 50 aircraft. It combines five 
modifications into one modification; thereby reducing the number of 
times a jet is opened and maximizing configuration control. Further, it 
combines the Block 40 and 50 Operational Flight Programs (OFPs) into 
common OFPs. The CCIP modification is timed with the Air Expedition 
Force schedule with installations running through fiscal year 2010. 
Lastly, the Combat Upgrade Plan Integration Details (CUPID) 
modification will incorporate GPS, data link, night vision, and 
countermeasures into Block 25 through 32 aircraft. We expect to 
complete CUPID in fiscal year 2003.
Small Diameter Bomb (SDB)
    SDB will provide the following capabilities to the warfighter: 
Increased number of kills per pass; combat effective in adverse 
weather; minimized collateral damage; autonomous target attack; 
enhanced (>40nm) weapon standoff range; reduced logistic footprints and 
aircraft generation times. SDB will be compatible with the following 
current platforms (F-15E, F-16, F-117, A-10, B-1, B-2, B-52), and is 
planned for next generation platforms (F/A-22, F-35, UCAV, Predator B). 
Boeing and Lockheed Martin are currently competing in the 2-year 
computer-assisted design (CAD) phase with a downselect expected to 
occur in September 2003. LRIP will start in fiscal year 2005 with a 
planned RAA on the F-15E in fiscal year 2006. The SDB Threshold 
Platform is the F-15E, although F/A-22 is a major focus item in support 
of the global strike CONOPS. SDB will be a pilot program for seamless 
verification, which is intended to maximize development, operational, 
and contractor test resources in conducting an effective test program 
in support of warfighter requirements, while minimizing test-related 
cost and schedule.
Joint Standoff Weapon (JSOW)
    The Joint Standoff Weapon is a joint Air Force-Navy program, with 
the Navy as the lead service. JSOWA, INS/GPS precision glide weapon 
that the Air Force is procuring, is designed to attack a variety of 
area targets--fixed, relocatable, and mobile targets--during day, night 
and adverse weather conditions. JSOW enhances aircraft survivability as 
compared to current interdiction weapon systems by providing the 
capability for launch aircraft to stand off outside the range of enemy 
point defenses. The F-16, B-52, and F-15E are now capable of delivering 
JSOWA and the B-2 will again be capable of carrying the weapons by mid-
April 2003. The weapon will also be integrated on the B-1 and F-35.
    Last year the Air Force decided to withdraw from the JSOWB program 
to service armored targets and begin development of an Extended Range 
Wind Corrected Munitions Dispenser (WCMD). The decision to add a wing 
kit and GPS to WCMD enhances the weapon's capability and leverages the 
existing inventory of tactical munitions dispensers. The new weapon 
will significantly contribute to the Air Force's warfighting 
capability. The new area attack munitions mix is based on the 
acceleration of JSOWA, the Sensor Fuzed Weapon and the WCMD-ER. Joint 
Air-to-Surface Standoff Missile (JASSM).
    The JASSM is a ``kick down the door'' type weapon to be used in the 
early stages of a war to neutralize enemy's defenses and war 
infrastructure by targeting high value, fixed and relocatable targets. 
JASSM's standoff range is greater than 200 NM. It is a conventional, 
precision, autonomous, low observable missile with a 1,000 lb 
penetrator and blast/fragment warhead. JASSM is all weather capable 
using GPS/INS guidance and an Imaging Infra-Red (IIR) terminal seeker.
    JASSM began LRIP in fiscal year 2002 with a buy of 76 missiles. 
Deliveries will begin in April 2003. The B-52 will be the first 
aircraft to reach RAA (required assets available) in September 2003. B-
2, B-1, and F-16 will follow in fiscal year 2004. The JASSM test 
program was recently stopped after two free flight anomalies. Those 
issues have been addressed and the USAF is confident they are fixed. 
The final JASSM DT test is scheduled for late March; OT will be resumed 
if that test is successful. The test program will be complete in July 
allowing JASSM to have a full-rate production milestone decision in 
November 2003.
    JASSM-Extended Range (ER) is a spiral development program that will 
increase the range capability to greater than 500 NM. JASSM-ER will 
start development in late fiscal year 2003 with congressional plus-up 
funds. Development will end in fiscal year 2007 when the program will 
enter production with the first deliveries in fiscal year 2008.
MC2A
    The MC2A will provide rapid machine-to-machine integration of 
information from manned, unmanned and space-based sensors. The MC2A is 
the next generation wide area surveillance platform designed to provide 
a near real-time, horizontally integrated view of the air and surface 
battlespace through the use of advanced sensors, network centric 
systems and high-speed, wide-band communications systems. The platform 
will be a key enabler to engage time sensitive targets with precision 
accuracy.
    Spiral 1 capability is funded to include next generation Ground 
Moving Target Indicator (GMTI) for counterland mission capability, 
focused Air Moving Target Indicator (AMTI) supporting Cruise Missile 
Defense (CMD), an open system architecture for the Battle Management, 
Command and Control (BMC2) mission suite subsystem and growth potential 
for UAV control, space-based radar interface and intelligence, 
surveillance, and reconnaissance (ISR) management functions.
    Future spirals are envisioned to incorporate transformational 
horizontal integration and C2 Constellation battle management 
functions, an advanced AMTI sensor, UAV control, space-based radar 
integration and laser communications. Available technology will 
determine if combining GMTI and a 360-degree AMTI sensor on a single 
aircraft is possible, or whether the 360-degree AMTI sensor will be 
hosted on a second MC2A configuration.

                               CONCLUSION

    The Air Force remains focused on providing the necessary 
capabilities to the warfighter in order to win America's wars. These 
capabilities can only be achieved through effective and efficient 
management during the development, production, and fielding of systems. 
By incorporating a strong collaborative process, re-establishing our 
credibility, implementing spiral development, and infusing systems 
engineering in our acquisition process, we can overcome the tough 
challenges ahead.
    Through our new business practices, we are providing our workforce 
with the tools to make decisions and changes, but this is not enough. 
The Air Force must provide strong support to program managers and the 
necessary latitude to manage systems development, production, and 
sustainment with limited interference. Only then can we meet the agile 
acquisition needs of our warfighters.
    Given the limited budget and increasing needs, this is a challenge 
that must be met head on. We are committed to pursuing those actions 
necessary to make transformation work.
    I appreciate the support provided by Congress and look forward to 
working with this subcommittee to best satisfy our warfighter needs in 
the future.
    Thank you for the opportunity to provide this statement for the 
record.

    Senator Sessions. Admiral Nathman?

 STATEMENT OF VICE ADM. JOHN B. NATHMAN, DEPUTY CHIEF OF NAVAL 
        OPERATIONS FOR WARFARE REQUIREMENTS AND PROGRAMS

    Admiral Nathman. Senator Sessions, distinguished members.
    I will take a few minutes to talk about some maybe obvious 
things. The current conflicts with Iraq and Afghanistan, I 
think, are pointing out some clear attributes that the naval 
service needs to be focused on. Those would be: What can we do 
to improve our range and our access to the battlefield? What 
type of multi-mission capability are we going to bring in our 
aircraft, weapons systems, and weapons to cover the target sets 
that are required to be covered from, as you saw today, close 
air support for British coalition maneuver, Marine maneuver, 
Army maneuver? Then what can we do to make sure that we are on 
the right path to provide persistent intelligence, 
surveillance, and reconnaissance of that battle space so it can 
be shaped properly? Then as you would expect, can we do it in 
the most affordable and efficient manner that we can?
    I think you will see in the program of record at least a 
validation that that is the right path for us to be on. The 
Super Hornet, the E/F, is currently in combat today on the 
U.S.S. Lincoln. Two squadrons are also closing--two squadrons 
of Super Hornets, the E and the F, are embarked on the U.S.S. 
Nimitz, which chopped into the U.S. Central Command (CENTCOM) 
area of responsibility (AOR) today and soon will be into the 
Persian Gulf.
    That aircraft brings with it the affordability of a 
multiyear procurement. It brings with it significant combat 
reach. It is better shaped for access. It has the ability to 
grow the right stuff in it, advanced electronically scanned 
radar, which gives it simultaneous air-to-ground and air-to-air 
capability.
    The other thing the aircraft is going to bring with it is 
that it puts a mission tanker back on our flight decks. We have 
been missing that for some time. Since we stood down the A-6 
and the KA-6, our tanking now is done primarily with the 
support of the United States Air Force. What we are doing in 
Iraq, particularly in northern Iraq, would be impossible 
without the tanker bridge that we have with the Air Force. So 
it is important for the Navy to put a mission tanker back on 
its flight deck. Super Hornet brings us that mission tanking 
capability.
    The other thing I think you are seeing is the 
affordability. The Joint Strike Fighter was designed with 
affordability in mind. Not only is it a system of airplanes for 
the Air Force, the Marine Corps, and the Navy, in terms of 
common avionics and common weapon systems, but there soon will 
be common training, I assume, and a common training place for 
the Joint Strike Fighter in the future.
    We have recently integrated the tactical aircraft squadrons 
with the Marine Corps. We did that for several reasons. One was 
affordability, the ability to generate additional funds for the 
future. You will see that in our reduced multiyear procurement 
of F-18E/Fs along with Joint Strike Fighters, giving us the 
capability to invest in other aircraft, specifically the F-18G, 
the Growler, the electronic attack version, which is important 
to the Navy and the naval service in terms of having the right 
electronic attack shaping the battle space for the concept of 
operations that we fly in our embarked air wings.
    So I appreciate your time and look forward to your 
questions, sir.
    Senator Sessions. Thank you.
    Lieutenant General Hough.

STATEMENT OF LT. GEN. MICHAEL A. HOUGH, USMC, DEPUTY COMMANDANT 
                          FOR AVIATION

    General Hough. Thank you, sir. Good afternoon, Chairman 
Sessions, distinguished members of the subcommittee. It is a 
privilege and honor to speak to you today about tactical 
aviation in the Marine Corps.
    On behalf of all marines and their families, I want to 
thank you for your continued support to Marine aviation and the 
Corps as a whole. The commitment to increase the warfighting 
crisis response capability of our Nation's Armed Forces and 
improving the quality of life of our men and women in uniform 
is central to the strength of the Marine Corps and has 
contributed immeasurably to our accomplishments on the global 
war on terrorism.
    Marine Corps aviation provides the Marine Air-Ground Task 
Force (MAGTF) and the joint force commander with the aviation 
combat element capable of conducting air operations as part of 
a naval expeditionary force throughout the six functions of 
Marine aviation. The unique expeditionary and adaptable nature 
of Marine aviation is an integral part of the Marine Air-Ground 
Task Force and allows us to operate efficiently and effectively 
across the full spectrum of basing operations and makes us an 
adaptable, highly responsible and lethal force, and we are 
proving it every day in Operation Iraqi Freedom.
    Today, nearly 85 percent of Marine aviation is deployed or 
committed worldwide. 59 percent of Marine TACAIR and 58 percent 
of our rotary wing aircraft are committed to the Central 
Command for operations in Iraq or Afghanistan with 84 Hornets, 
88 Harriers, 10 Prowlers, and 259 helicopters. Three FA-18 
squadrons are deployed with carrier air wings. One additional 
FA-18 squadron is in the work-up cycle preparing to deploy very 
shortly.
    Since the commencement of the operation in Iraq, which has 
not been too long, Marine aviation from the sea base and from 
land has flown over 2,800 fixed wing sorties and over 900 
rotary wing sorties. It has dropped almost every type of air-
to-ground munition in the naval aviation inventory.
    Our 6 Harriers in Bagram Airbase, Afghanistan, which have 
been there since October, are equipped with a litening 
targeting pod, which has been performing absolutely 
magnificently. It has flown over 600 sorties and over 1,800 
hours, supporting special ops forces for Operation Enduring 
Freedom. It has also demonstrated extra flexibility with short 
takeoff/vertical landing on that busted-up runway.
    Our 76 Harriers in Iraq are also performing magnificently. 
Deployed in the sea base and on land, they are moving forward 
from base to base, closer to Baghdad, closer to the sound of 
guns, and will provide increased time on station, faster 
response times, in support of our joint and coalition ground 
forces. Also equipped with a litening pod, the Harriers became 
the platform of choice for urban, close air support in Iraq.
    Marine aviation is healthy. I could not be prouder of the 
job our aviation marines are doing. Currently, though, we are 
facing a period of great change over the course of the next 10 
to 15 years, as you well know. Everything we have in Marine 
aviation, absolutely everything we have, is going to be turned 
over or changed. One thing is certain: Marine aviation is 
transforming and transitioning, but the thing that will not 
change is the professionalism of our expeditionary culture.
    This change includes TACAIR integration, aircraft 
transformation and transition, Marine air command and control, 
modernization, and implementation of the simulator master plan. 
We are making every effort to increase our efficiencies and 
effectiveness as we go through this transformation and do it as 
a naval team partner.
    You have read about TACAIR integration and heard a lot 
about it. It retains our culture. It is not a new concept. We 
have been doing it for a long time, but on a smaller scale. It 
is a more capable and a more affordable force. It ensures 
TACAIR support to the MAGTF while allowing global sourcing to 
all TACAIR assets, increased combat capability forward in 
concert with the sea basing concept, and reinforced 
expeditionary.
    Naval TACAIR with a smaller, more efficient force will 
continue to provide combatant commanders and joint force 
commanders with a flexible, scalable, full spectrum response 
capability from the sea.
    We are working together all the time in such a way that the 
whole is much greater than the sum of the parts. It is about 
synergy and getting more bang for the buck.
    Aircraft transformation transition: We have been working 
for almost 30 years to do this. We are finally there. We went 
from 30 to 23 to now 7 platforms. We continue to modernize our 
existing aircraft to ensure readiness and warfighting 
relevance. Our key to success will be the careful balancing of 
people and equipment that allows us to maintain combat 
readiness throughout the transformation. The overarching intent 
is to maintain relevant forces while reducing the logistics 
burden on the commander.
    Marine air command and control system modernization, that 
is the key to it all. It links it all up, ties it together 
operationally. Aviation command and control continues to be 
decisively engaged in support of coalition, joint, and MAGTF 
operations. The Corps has embraced a bold vision for the 
convergence of capabilities, organization, doctrinal training, 
and personnel. The integration of this 21st century capability 
will exponentially increase our capability to fight jointly and 
with our coalition partners.
    The Marine Corps simulation master plan is 21st century. It 
is the way everyone else does it. It is the way we are going to 
do it. It is more efficient, more effective. It saves big 
money. It is not about money; it is all about money.
    The Marine Corps and Marine aviation as a partner in the 
naval team has clearly lived up to the reputation of ``first to 
the fight and first to fight.'' We remain ready for combat when 
and where the need arises. Marine aviation has been and will 
continue to be ready to deploy a scalable, highly trained, task 
organized expeditionary aviation combat element, capable of 
conducting missions across the continuum of conflict in support 
of the Marine air-ground team. It supports also the joint force 
or combatant commander.
    In a world of diminishing host nation support, basing 
options and sovereignty, the ability to provide the Nation with 
self-contained MAGTFs capable of executing a wide range of 
missions at a moment's notice from a variety of locations will 
remain the Marine Corps hallmark.
    For all that and more, I thank each and every one of you 
for your continued support for Marine aviation. It has been an 
honor to address you today. Sir, I look forward to your 
questions.
    Senator Sessions. Thank you. Very well said, and we 
appreciate your comments.
    [The joint prepared statement of Mr. Young, Admiral 
Nathman, and General Hough follows:]

Prepared Joint Statement by Hon. John J. Young, Jr., Vice Adm. John B. 
           Nathman, USN, and Lt. Gen. Michael A. Hough, USMC

    Mr. Chairman, distinguished members of the subcommittee, thank you 
for this opportunity to appear before you to discuss the Department of 
the Navy's fiscal year 2004 budget request for tactical aviation. VADM 
Nathman, LtGen Hough, and I are proud to come before you today to 
outline our most recent efforts to enable the Department of the Navy to 
field the most capable and lethal tactical air force in the world.
    I recently visited our sailors and marines in the Persian Gulf 
area, including Kuwait and Bahrain, and we can rest assured that our 
sailors and marines guard our freedom with a dedication born from a 
voluntary commitment to defend the ideals of our founding fathers. It 
is my pleasure to outline the contribution that we in the Navy and 
Marine Corps acquisition community are making to enable the Department 
of the Navy to field the most capable, mobile and lethal force since 
its inception over 225 years ago.
    The global war on terrorism has fundamentally changed the national 
debate on defense. To meet this challenge, difficult decisions were 
required to find the optimal mix within the portfolio of naval 
responsibilities, and within that, tactical aviation requirements of 
the Department. We have been good stewards for the taxpayer by 
demonstrating creative thinking such as utilizing the inherent growth 
capabilities of the F/A-18E/F to meet the airborne electronic attack 
requirement; making sound fiscal decisions including integrating Navy 
and Marine Corps tactical aviation assets to achieve significant 
reductions in procurement and operating support costs; reviewing the 
need for some of our legacy systems; and leveraging these actions to 
increase the number of aircraft being requested in the fiscal year 2004 
budget. By addressing key issues such as the cultivation of promising 
aircraft technologies, cost effective acquisition of mature systems, 
and improved maintenance of existing systems, we have been able to 
increase the number of aircraft from 89 in last year's budget request 
to 100 in the fiscal year 2004 budget request.
    In striving to provide the warfighter with the latest capabilities, 
we have adopted the tenets of Naval Vision 21 and Naval Transformation 
Roadmap 21. In doing this, we have engaged in a full assessment of 
naval S&T funding to ensure we have addressed all technology needs to 
support these transformation mandates. To this end, technology 
demonstrations are planned using Future Years Defense Program funds 
that aim to meet the needs of our forces--stretching from the ocean 
floor to the edge of space, and from facilities in the United States to 
the tip of the spear throughout the world.
    Our actions to get the best value reach beyond the Department of 
the Navy. For example, the Department has worked in partnership with 
the Air Force on the JSF program to deliver an affordable and 
supportable strike fighter. Recently, we have also developed a joint 
strategy with the Air Force to develop an UCAV. UCAV will be a critical 
part of our future tactical aviation force structure.

                   ENHANCING WARFIGHTING CAPABILITIES

    The Navy and Marine Corps team is the greatest maritime force in 
the world, but it is imperative that we transform our tactical aviation 
warfighting capabilities to meet the emerging challenges of the 21st 
century. We are changing and initiating programs to improve the 
warfighting capability of current and future forces. Furthermore, we 
are seeking joint opportunities and options wherever possible in taking 
these steps.
    Our plan capitalizes on ideas that facilitate our recapitalization 
goals. An excellent example is the JSF, a stealthy, multi-role fighter 
aircraft designed to be an enabler for Naval Power 21. JSF replaces the 
Navy's F-18A/C variants and the Marine Corps' AV-8B Harrier and F/A-
18A/C/D aircraft while complementing the Navy's F/A-18E/F Super Hornet. 
JSF offers dramatic improvements in affordability and supportability. 
The JSF program has partnered with Lockheed Martin, Pratt and Whitney 
and General Electric to make affordability the cornerstone of the 
program by reducing development, production and total ownership costs. 
Furthermore, we have imposed a discipline on ourselves that limits 
change during the critical phases of our major aviation procurement 
programs. This disciplined approach has been implemented in the JSF 
program through a Configuration Steering Board. By controlling the 
scope and timing of change in a planned manner, we know what changes 
will cost, and how we will pursue them in the most economical manner. 
Through these transformational business initiatives, the Department 
will emerge with an optimal force structure, a healthy industrial base 
and an efficient and appropriately sized infrastructure.
    A critical enabler of transformational intelligence, surveillance 
and reconnaissance, the E-2C Advanced Hawkeye Program will provide a 
robust overland capability against current and future cruise missile-
type targets.
    The KC-130J Hercules will also be a critical enabler of the 
Department and the joint warfighter. The KC-130J's increased range, 
payload, and survivability will provide an enhanced aerial refueling 
capability and subsequently greater strategic agility, operational 
reach and tactical flexibility.
    As the global war on terrorism has demonstrated, unmanned 
technology will play an ever-increasing role on the 21st century 
battlefield. The Department is committed to fielding an array of UAV 
programs, including tactical UAVs, maritime surveillance UAVs and an 
UCAV initiative, developed in partnership with the Air Force. The Navy 
and the Air Force have been able to define a common set of science and 
technology requirements while also recognizing the unique needs of each 
service. This work will support a competitive acquisition strategy for 
UCAV. UCAV is a critical tool for providing persistent surveillance and 
combat capability for sea based Navy platforms.

                    CHANGING OUR BUSINESS PRACTICES

    The Department of the Navy remains committed to simplifying the 
acquisition system, streamlining the bureaucratic decision making 
process, and promoting innovation. We are streamlining our regulations 
and instructions to remove unnecessary impediments and provide the 
maximum flexibility to our acquisition workforce consistent with law 
and higher regulation. We are also continuing to take advantage of 
numerous acquisition initiatives to shorten cycle times, leverage 
commercial products and capabilities, and improve the quality of 
equipment being provided to our warfighters.
    In an environment where competition is limited, the structure of 
contracts is critical to providing tools for the program manager to use 
in delivering aircraft and weapons on schedule and within budget. The 
Department is applying new contract strategies in an effort to focus 
greater attention on cost and schedule. We are implementing broken or 
stepped profit share lines to ensure that the Navy and industry are 
very focused on the cost target and that industry is rewarded for 
beating the target and penalized for exceeding the cost target. 
Further, we are shifting greater portions of fee to be awarded on an 
incentive basis upon accomplishment of critical path tasks. Finally, we 
are weighting fee towards the critical events at the end of a program 
that result in the desired goal--delivery of aircraft and weapons.
    Evolutionary acquisition techniques show promise in programs such 
as the F/A-18E/F Program. Recognizing the requirement to replace our 
aging low density/high demand EA-6B aircraft with a platform that best 
accommodates the airborne electronic attack mission, the Navy 
identified the Super Hornet as the most viable candidate with which to 
leverage existing capabilities inherent in naval aviation in order to 
streamline the acquisition process and field a product sooner to the 
fleet. We leverage industry involvement in our acquisition programs to 
reduce our research and development costs and gain economies in 
production. The Department is also actively improving its internal 
business practices, including integrating commercial best practices 
where feasible. By improving these practices, we expect to be able to 
shift more dollars into combat capability and quality of service.
    We believe that better information makes for better decision 
making, both on the battlefield and at the budget table. We have four 
pilot programs in place utilizing enterprise resource planning (ERP) 
which aim to improve the quality of information available to our 
decision makers. These pilot projects will eliminate dozens of 
incompatible computer databases and the business processes that once 
supported those databases. ERP should produce financial and managerial 
information that is more complete, accurate and timely. ERP will allow 
greater efficiency in our ship maintenance processes that should in 
turn deliver more ship availability for training or deployment. Our 
recent focus has been on converging the pilot programs to achieve even 
greater synergy of management information across a broader spectrum of 
the Department, and working with the DOD Comptroller to ensure these 
efforts are advancing the uniform business management architecture 
under development.
    In addition to better information, we need flexible and innovative 
tools to help manage the Department. Some of these tools, such as 
strategic sourcing, are being used already. Furthermore, competition 
helps achieve the best quality support to the sailor and marine at the 
lowest possible cost by introducing the discipline of the marketplace. 
Another approach we are taking to improve logistics support to the 
warfighter and reduce total life cycle system costs is through 
Performance Based Logistics (PBL). This year, all ACAT I & II fielded 
programs and all new programs submitted PBL implementation plans with 
milestones. PBL has been successfully implemented on numerous weapon 
system components (improving capability and lowering costs) and the 
intention is to expand these successes to major weapon systems and 
subsystems. We are also continuing to pursue depot maintenance 
partnerships between the private and public sector. These partnerships 
provide increased capability to our depots while simultaneously 
reducing cost and improving warfighter capability.
    The Department of Navy has experienced success with the Lead 
Systems Integrator (LSI) concept. An example of the LSI concept is the 
F/A-18 and Boeing. As the LSI, Boeing brings with it visibility, 
knowledge and responsibility at the weapon systems level, which is much 
broader than that of its subcontractors. Even though there may be 
additional ``upfront cost'' in the form of pass-through costs 
associated with this approach, the benefits of efficiencies and 
effectiveness over the full life of the weapon system, makes the LSI 
approach a very attractive tool.
    We are working hard to ensure that our sailors and marines get 
needed technology in their hands today, not tomorrow. In areas ranging 
from Forward Looking Infrared (FLIR) upgrades for Marine Corps tanks, 
to ISR tools, to active anti-air warfare missiles, we are seeking 
greater jointness and taking advantage of prior DOD investments in 
order to reduce risk, lower cost, accelerate delivery, and provide 
greater interoperability.

                FOCUSING ON OUR PEOPLE AND ORGANIZATION

    To enable development of new capabilities and facilitate the 
adoption of new business practices, a number of organizational changes 
have been made. I reorganized my business process owners by combining 
the Director of Acquisition and Business Management with the 
Acquisition Reform Office into a single Deputy for Acquisition 
Management. This new office focuses on business policy and 
implementation and infuses it with the innovative thinking and ideas of 
the office dedicated to reforming the way we do business. One of the 
primary goals of this reorganization is to shorten the time it takes 
new ideas to find their way into our acquisition business practices. 
The Deputy for Acquisition Management is directly supporting the DOD 
effort to streamline the Office of the Secretary of Defense policy and 
processes for major weapon systems embodied in the new DOD 5000 series 
directives.
    In order to improve logistics support to the warfighter, I 
established a Deputy for Logistics. The logistics office will 
coordinate efforts to insert logistics considerations early in the 
acquisition process where over 60 percent of the total life cycle costs 
are determined. Equally important, logistical support of our current 
systems is a costly and complex part of today's acquisition management 
task. Finally, the Deputy for Logistics will play an important role in 
guiding the implementation of ERP across the Department.
    In today's environment, many technologies and systems cut across 
program, platform and systems command boundaries. To leverage the 
expertise within our systems commands and ensure consideration and 
coordination of concepts that cross program boundaries, we created a 
virtual systems command. Each of the commanders will now work together 
to avoid duplication of capability and ensure that we achieve 
integration and interoperability benefits wherever possible within the 
Navy and Marine Corps.
    Equally important, we are reshaping the acquisition workforce to 
concentrate on mission critical functions. These human resource plans 
call for an analysis of key characteristics of the acquisition 
workforce, an assessment and projection of changes in the workforce 
into 2008, and the identification of human resource process shortfalls 
that inhibit the ability to effectively manage this workforce. With the 
advent of civilian personnel ``demonstration'' programs with pay 
banding and the increase in outsourcing of commercial functions, we are 
seeing an emerging workforce that will be compensated based on their 
level of responsibility and contribution. Through enhancements to our 
career development program, which include continuous learning 
activities that augment minimum education, training, and experience 
requirements, we are developing our acquisition professionals to be 
better managers and leaders.

                        NEW OPERATIONAL CONCEPTS

    Beyond incorporating new capabilities that technology advances 
allow, we examined methods for achieving greater utility out of our 
existing assets. The result of this effort is the Department's 
initiative to integrate Navy and Marine Corps tactical aviation 
capabilities. This integration represents one of the most sweeping 
changes in years. A comprehensive study of overhead requirements was 
performed as an integral part of a Tactical Aircraft or TACAIR 
Integration initiative that led to significant reductions in overhead. 
Substantive efficiencies will be realized through increased reliability 
and maintainability, commitment to properly fund readiness, spares, 
depot maintenance and modernization, improved simulation training, and 
a lower historical attrition than were programmed in the fiscal year 
2003 program of record. Navy and Marine Corps TACAIR Integration will 
maximize forward deployed combat power and optimize the core capability 
of naval aviation forces. Its positive impact will be felt across the 
Department's entire tactical aviation enterprise, from leaner, more 
capable fighting formations to streamlined procurement requirements 
(tactical and training) and manpower savings.
    This initiative will integrate one Marine Corps strike fighter 
squadron into each Navy carrier air wing and three Navy strike fighter 
squadrons into the Marine Corps Unit Deployment Program (UDP) rotation. 
These actions will allow three active Navy squadrons to be 
disestablished and two Reserve squadrons (one Navy and one Marine 
Corps) to be disestablished. Our plan will reduce procurement 
objectives for F/A-18E/F from 548 to 460 aircraft and the JSF from 
1,089 to 680 aircraft. In total, this innovative program promises to 
save $975 million over the fiscal year 2004--fiscal year 2009 program, 
and provide approximately $19 billion in cost avoidance from fiscal 
year 2007-fiscal year 2012. Through increased modernization and 
readiness an integrated Navy--Marine Corps aviation force will provide 
increased flexibility of employment and surge capability to combatant 
commanders that the Department cannot approach today.

                 TACTICAL AVIATION ACQUISITION PROGRAMS

    The Department's fiscal year 2004 budget will utilize multiyear 
procurement (MYP) arrangements for the F/A-18E/F (both airframe and 
engine), and the E-2C to maximize the return on our tactical aviation 
investment. Our proposed plan will procure 44 tactical, fixed wing 
aircraft (42 F/A-18E/F, and two E-2C), continue the development of the 
F-35 and E-2C Advanced Hawkeye and initiate an airborne electronic 
attack (AEA) aircraft follow-on effort with the EA-18G.
F/A-18A/C/D
    The fiscal year 2004 budget request contains $27 million for the 
upgrade of our F/A-18As. The Marine Corps has initiated the upgrade of 
46 F/A-18As (with a program objective of 76) to Lot XVII F/A-18C 
aircraft capability as well as digital communications and tactical data 
link. The Marine Corps anticipates programmed upgrades to enhance the 
current capabilities of the F/A-18C/D with digital communications, 
tactical data link, and tactical reconnaissance systems. This upgrade 
ensures that our F/A-18s remain viable and relevant in support of 
TACAIR Integration and Expeditionary Maneuver Warfare until replaced by 
the STOVL JSF. The Marine Corps expects the F/A-18A to remain in the 
active inventory until 2015 and is exploring the feasibility of placing 
litening targeting pods on our F/A-18D aircraft. This new capability 
can provide real time video to the ground commander via the Pioneer UAV 
Transmitter and Man-Portable Receiving Station.
F/A-18E/F
    The fiscal year 2004 President's budget requests $3.03 billion for 
42 F/A-18E/F aircraft for the fifth year of a 5-year MYP contract 
(fiscal year 2000-fiscal year 2004). The Super Hornet has used a spiral 
development approach to incorporate new technologies, such as the Joint 
Helmet Mounted Cueing System, Advance Tactical Forward Looking Infrared 
System, Shared Reconnaissance Pod System, and Multifunctional 
Information Distribution System data link. The Super Hornet provides a 
40-percent increase in combat radius; a 50-percent increase in 
endurance and 25-percent increase in weapons payload over our older 
Hornets. Three Super Hornet squadrons are already deployed in support 
of current operations. The F/A-18E/F is a significant step forward in 
improving the survivability and strike capability of the carrier air 
wing.
F-35 Joint Strike Fighter (JSF)
    The fiscal year 2004 budget request contains $2.2 billion for 
continuation of SDD on the JSF. The JSF will enhance our Navy precision 
with unprecedented stealth and range. The JSF program commenced SDD in 
October 2001 and is on track to deliver operational STOVL variants to 
the Marine Corps in 2008 and the Navy variant in 2010. The STOVL JSF 
combines the multi-role versatility of the F/A-18 and the basing 
flexibility of the AV-8B, resulting in a stealthy, lethal, state-of-
the-art aircraft. The commonality designed into the JSF program, along 
with advantageous procurement quantities will reduce acquisition and 
operating costs of Navy and Marine Corps tactical aircraft and allow 
enhanced interoperability with our allies and sister services. To 
maintain affordability, the Department will manage requirement growth 
using a senior oversight group as well as other methods.
AV-8B
    The AV-8B that we fly today is not the same aircraft that we flew 
10 years ago. Over the last decade, the Harrier has gone from a day VFR 
air-ground attack aircraft to a night-adverse weather precision strike 
platform. The AV-8B remanufacture program has updated the Harrier into 
a more capable and more reliable aircraft. The wing and many original 
items are retained, but a new fuselage, a night-attack avionics suite 
(NAVFLIR, digital moving map, color displays, NVG lighting), APG-65 
multi-mode radar, and the more powerful and reliable Pegasus (408) 
engine have been added. In addition to the AV-8B being one of the 
newest airframes in the fleet (average fleet age is approximately 8 
years old), the remanufacture program provides an additional 6,000 
hours of airframe life for 80 percent of the cost of a new aircraft. 
The remanufacture of 74 aircraft is programmed through fiscal year 2003 
with the last delivery scheduled for September 2003. Our AV-8B Harriers 
at Bagram Airbase, Afghanistan, have flown over 500 sorties and over 
1,500 flight hours supporting Special Operations Forces for Operation 
Enduring Freedom (OEF) and have demonstrated the expeditionary 
flexibility of STOVL aircraft while becoming the most forward deployed 
tactical aircraft in theater. From their austere base located over 
5,000 feet above sea level, the Harriers provide close air support, 
armed escort of aircraft and vehicle convoys, and air cover during 
helicopter insertions and extractions. Approximately 90 percent of our 
Marine Harrier gun squadrons are currently deployed and either in 
action or on watch around the world. The Harriers are equipped with the 
litening targeting pod, a targeting system with real-time video 
capability that gives the pilots the ability to laser designate targets 
for precision munitions and mark spots on the ground with infrared 
energy. The precision capability to spot targets and self-designate for 
precision weapons has put the Harriers in Afghanistan in high demand--
joint and coalition forces regularly request the litening targeting pod 
capability in order to accurately locate and identify enemy positions. 
The enhanced AV-8B will continue to be a relevant platform until TACAIR 
Integration and the transformational JSF are fully implemented.
KC-130J
    The KC-130J Hercules will provide the MAGTF and Joint Task Force 
Commander with a technologically advanced weapons platform featuring a 
state-of-the-art flight station. Enhancements in survivability and 
night vision capabilities will provide MAGTF Commanders with a superior 
force multiplier to project combat power. Operationally, the KC-130J 
will support an increase of 5,000 feet in refueling altitude while 
increasing fixed wing refueling speed by 30 knots. Rapid ground 
refueling enhancements include refueling pod improvements that enable a 
300-gallon per minute off-load to air assets and tactical vehicles. 
Aircraft speed and range will increase 21 percent and 35 percent 
respectively, significantly extending the MAGTF Commander's 
capabilities. The KC-130J will replace all active duty KC-130F/Rs. The 
Marine Corps, along with the Air Force, has recently signed a MYP 
contract. The Marine Corps has taken delivery of nine KC-130Js and will 
have procured a total of 38 KC-130Js at the end of the FYDP.
E-2C
    The fiscal year 2004 President's budget requests $228.5 million to 
procure one E-2C and one TE-2C as the first year of a 4-year MYP. This 
effort will keep the production line viable while the E-2 Advanced 
Hawkeye (AHE), formerly known as the Radar Modernization Program, 
continues spiral development toward an Initial Operational Capability 
in fiscal year 2011. The Advanced Hawkeye program will modernize the E-
2 weapons system by replacing the current radar and other system 
components to maintain open ocean capability while adding 
transformational surveillance and theater air and missile defense 
capabilities. The AHE program is scheduled to enter the SDD phase in 
fiscal year 2003. Further, CEC is being integrated into our E-2C 
aircraft and FOT&E of this added capability is ongoing.
EA-18G
    The Navy is initiating AEA efforts on the F/A-18F air vehicle and 
has included initial funding in the fiscal year 2004 budget. The EA-18G 
will replace the aging EA-6B Prowler, and will be part of the F/A-18E/F 
MYP. As a result of congressional funding in fiscal year 2003, EA-6B 
follow-on activities have already commenced. Fiscal year 2004 efforts 
will focus on risk reduction and development activities concerning the 
integration of EA-6B Improved Capabilities (ICAP III) electronic attack 
technologies into a proven air vehicle. Initial Operational Capability 
is currently planned for fiscal year 2009. The Marine Corps expects to 
fly the EA-6B (ICAP III) until approximately 2014 to 2015 before 
transitioning to a new electronic attack aircraft yet to be determined.
Multi-mission Maritime Aircraft (MMA)
    The fiscal year 2004 President's budget requests $76 million to 
begin the SDD phase on the MMA. A down select to a final system 
integrator/provider is planned for the second quarter of fiscal year 
2004. P-3 aircraft are flying in excess of 150 hours per month in 
support of Operation Enduring Freedom and the global war on terrorism. 
This flight regimen requires a special inspection program to allow 
continued operation to as much as 150 percent of fatigue life given the 
age of the aircraft. To address this critical warfighting capability 
the Navy is procuring a MMA with a planned IOC of 2012. The program is 
currently in the Component Advanced Development Phase with two 
competitors, Boeing with their 737 commercial-derivative aircraft and 
Lockheed-Martin with their modernized P-3C concept.
Unmanned Aerial Vehicles
    The global war on terrorism has emphasized the importance of UAVs. 
The fiscal year 2004 budget reflects our increased commitment to a 
focused array of UAVs that will support and enhance both surveillance 
and strike missions with persistent, distributed, netted sensors. The 
Navy's tactical UAV programs are focused on two areas.
    Unmanned Combat Aerial Vehicle--Navy
    The fiscal year 2004 President's budget requests $116 million for 
UCAV S&T demonstration efforts, and $5 million for establishment of the 
Joint UCAV Program Office. Leveraging our demonstration efforts, the 
Department will seek to improve the sensors and payloads to produce a 
penetrating surveillance UCAV-N with multi-mission capability as well 
as work towards a JSF-like joint acquisition strategy that results in 
the selection of a common platform capable of meeting service-unique 
mission requirements.
Precision Munitions
    Joint Standoff Weapon
    The development of the Joint Standoff Weapon ``C'' has been a 
success with the first test achieving accuracy objectives. The 
dispenser variant production has been accelerated and JSOW is being 
delivered to deployed combat units. The fiscal year 2004 budget request 
for JSOW is $138.5 million for 429 weapons.
    Joint Direct Attack Munitions and Laser Guided Bombs
    The production capacity for manufacturing Joint Direct Attack 
Munitions and Laser Guided Bombs (LGBs) has been increased, largely 
through the expenditure of supplemental funds appropriated by Congress. 
The fiscal year 2004 request of $277.3 million for JDAM and $81.3 
million for LGBs will purchase 12,326 JDAM and 5,288 LGB weapons 
respectively at rates that take advantage of the expanded capacity.
    Tactical Tomahawk
    The Tactical Tomahawk missile begins full rate production in fiscal 
year 2004. Tactical Tomahawk significantly improves performance through 
an improved warhead, fuzing, and navigation improvements. This is 
accomplished at almost half the cost by using innovative manufacturing 
and production techniques. The Tactical Tomahawk completed successful 
developmental test shots from a simulated ground launcher in August 
2002 and an underwater launcher in December 2002. The program 
subsequently awarded a Low Rate Initial Production Contract in October 
2002, and exercised an option for additional missiles in January 2003, 
for a total of 192 missiles. The fiscal year 2004 budget requests 
authority for a fiscal year 2004-fiscal year 2008 MYP.
    AIM-9X
    The AIM-9X Sidewinder, a fifth generation infrared, launch and 
leave, air-to-air missile capable of countering current and emerging 
countermeasures, is currently in OPEVAL. The fiscal year 2004 budget 
requests $2.7 million RDT&E for continued testing and $104.9 million 
WPN to purchase 531 AIM-9X missiles (167 for Navy and 364 Air Force). 
Low rate initial production missiles are currently being delivered to 
the field and fleet. The program is progressing toward a MS III 4th 
quarter fiscal year 2003.

                           AVIATION READINESS

    Our proposed plan continues investment in key operational readiness 
accounts and reflects an increase in aviation depot maintenance funding 
and sustained funding for our flying hours accounts.
Flying Hour Program
    The fiscal year 2004 budget request reflects an additional $137 
million this year to sustain the investment level we established in 
support of last year's budget. This level of flying hours will maintain 
the combat readiness of our Marine Air-Ground Task Forces, enable our 
airwings to achieve required readiness 6 months prior to deployment, 
sustain readiness during deployment and increase our ability to surge 
in crisis and mitigate the risk of a smaller strike fighter force.
    Aviation Maintenance
    Last year, we reduced our aircraft depot level repair back orders 
by 17 percent; maintained a steady ``mission capable'' rate in deployed 
aircraft; and fully funded aviation initial outfitting. The fiscal year 
2004 budget request reflects an increase of over $210 million to fiscal 
year 2003's investment, and will increase the number of engine spares, 
improve the availability of non-deployed aircraft, and meet our 100 
percent deployed airframe goals.

                                SUMMARY

    The Navy acquisition team has taken many positive steps during the 
past year. From moving forward with deliveries of the F/A-18E/F to 
continued progress on the JSF and V-22 programs, the support and 
direction of Congress have been essential to our progress. Through the 
use of innovative acquisition initiatives, our Nation is maintaining a 
healthy naval aviation industrial base and an efficient and an 
appropriately sized infrastructure to support an optimal force 
structure. I am most grateful for the assistance of this subcommittee 
for the entire Department of the Navy's efforts.
    In the end, our tactical aviation assets are a tool of our sailors 
and marines. Today, the Navy and Marine Corps have used all of the 
aircraft in that fleet to fullest degree possible, putting combat 
capability exactly where the Nation needs as part of the joint force. 
Naval forces are also forward deployed, providing clear presence and 
protecting the United States' strategic interests. We have the finest 
naval force in the world. With your assistance, we will continue to 
improve every aspect of our business to provide the maximum capability 
for our sailors and marines and the maximum security for America.

    Senator Sessions. I would just repeat once again that I 
salute those who came before me. Many of you were involved in 
developing the systems and aircraft and platforms that we have 
today that are allowing us to dominate the battlefield in Iraq. 
We owe it to the next generation to make sure we do the same.
    I yield my time to Senator McCain to start.
    Senator McCain. Thank you very much, Mr. Chairman.
    I appreciate the opportunity to talk to the Air Force. I 
notice, Secretary Sambur, that there is no mention in your 
statement of your plans as far as tanker assets are concerned. 
Do you have any reason for that?
    Dr. Sambur. Well, we are in the process of getting three 
approval cycles.
    Senator McCain. Getting what?
    Dr. Sambur. Approval cycles. The Secretary of the Air Force 
promised this committee, the staff, that we would go through an 
exhaustive analysis first in front of the DOD, then the Office 
of Management Budget (OMB), and then bring it back for your 
approval. So before we got that approval, we did not think it 
was prudent to put that in our budgets.
    Senator McCain. By approval, do you mean authorization in 
the defense authorization bill?
    Dr. Sambur. No. By approval, we will seek approval from all 
four defense committees.
    Senator McCain. You are familiar with the Institute for 
Defense Analysis (IDA) study that was recently completed.
    Dr. Sambur. Yes, I am.
    Senator McCain. Would you care to tell us about that study?
    Dr. Sambur. Yes. That was a study commissioned by OSD to 
determine how well we did in negotiating with Boeing. We made 
the point that there were three factors that were missing by 
IDA in that evaluation. For example, they did not consider the 
Federal Aviation Agency's (FAA) more stringent safety 
requirements that were apparent in many things. They did not 
understand the requirements.
    For example, there is a refuelable requirement on the 
auxiliary tanks that was not considered in their estimate. 
There was a requirement for a combi space that was not 
considered. By combi, I mean that the space that was not being 
used for fuel could be used either for passengers, cargo, or a 
combination of both passengers and cargo. That was not 
accurately reflected.
    As a result of our concerns, we met with the Office of the 
Under Secretary of Defense for Acquisition, Technology, and 
Logistics (AT&L). They have arranged for a series of meetings 
with IDA and Boeing, so that we can explain to IDA some of 
these factors that were missed in their analysis. As we speak 
right now, we are in the process of working with IDA to give 
them a better understanding of both the requirements from the 
Air Force and some of the requirements for safety that the FAA 
has imposed upon us that were not considered in their analysis.
    Senator McCain. Well, I am entertained to hear that the 
Institute for Defense Analysis did not understand the 
parameters of the study they were asked to conduct.
    Dr. Sambur. Their study took approximately 2 weeks; whereas 
our examination with Boeing was over 7 months. So there is a 
reason that they might have not understood the full extent of 
the requirements, because of the short duration of their study.
    Senator McCain. I understand that Air Force Colonel Frantz 
DeWillis described in great detail to the press how the Boeing 
Company wants to sell bonds through a special purpose entity to 
finance construction of 100 Boeing 767 aircraft leased to the 
Air Force as refueling tankers. He said, ``There will be a 
three-way contract that says Boeing will build the planes. It 
will be sold to a special purpose entity that leases them to us 
after it gets financing to pay Boeing for the airplanes.''
    Is that still the contemplated method of leasing these 
tankers?
    Dr. Sambur. It is through the special purpose entity, yes.
    Senator McCain. Do you have anybody in the Air Force who 
has had any experience with dealing with special purpose 
entities?
    Dr. Sambur. Well, we had certain consultants who have that 
experience.
    Senator McCain. Consultants from Boeing?
    Dr. Sambur. No, consultants from the economic world. The 
standards that this special purpose entity is adhering to are 
the new financial standards that have been imposed post-Enron, 
so we know that the special purpose entity has the latest up-
to-date standards that were issued in January.
    Senator McCain. So you would not use the same procedures 
that Enron did, is that----
    Dr. Sambur. These are the latest financial standards that 
have been imposed for special purpose entities to avoid Enron's 
situations.
    Senator McCain. Well, how long has this process been going 
on now, Mr. Secretary?
    Dr. Sambur. The process of developing a proposal for the 
lease?
    Senator McCain. Yes.
    Dr. Sambur. Ever since Congress gave us the authorization 
to go look at the feasibility of a lease.
    Senator McCain. You mean ever since it was in an 
appropriations bill.
    Dr. Sambur. Well, you know----
    Senator McCain. It was a line item in an appropriations 
bill. It was never authorized through the Senate Armed Services 
Committee, to my knowledge. Well, I hope that you will keep 
Congress, this committee, and the subcommittee in particular 
briefed on this issue.
    Dr. Sambur. We committed to give you a good deal.
    Senator McCain. Pardon me?
    Dr. Sambur. We committed that the Air Force would bring 
forward for the American public a good deal. That is our 
commitment and we intend to maintain that throughout. We will 
show you, as we go through the steps I mentioned before, 
through the DOD, through OMB, and back to the various 
committees, all of the data that supports the fact that we have 
a good deal.
    Senator McCain. Well, I hope so. Your initial proposals 
that were made were probably the best deal ever achieved in the 
history of the military industrial complex. I do not know why 
we cannot just purchase them as we do other assets in the 
military. So far, you have not made the case, as far as I am 
concerned. There has been obfuscation. There has been delay. 
There is withholding of information from me and this committee.
    I want to assure you again: You have not made the case. You 
certainly have not been open in sharing with us information 
concerning this decisionmaking process. You may win. The 
military industrial complex has won before in my experience of 
many years on this committee. But I will tell you, the American 
people and the American taxpayers are going to know about it if 
you try to pull off this scam, which is exactly what it is.
    I thank you, Mr. Chairman.
    Senator Sessions. Thank you, Senator McCain.
    Did I understand that you would be conducting an analysis 
of alternatives (AOA)? Is that the formal process?
    Dr. Sambur. No, I did not say that. No.
    Senator Sessions. Will you be doing that?
    Dr. Sambur. No.
    Senator Sessions. You will not.
    Dr. Sambur. We will not.
    Senator Sessions. Why not?
    Dr. Sambur. Well, for a number of reasons. First of all, we 
have--you said we never made a compelling case as to ``Why 
lease?'' Earlier in your testimony, Mr. Chairman, you talked 
about the fact that we were retiring Es. One of the reasons 
that we are retiring those Es is because we are concerned about 
the safety, about the corrosion.
    I know there was an Air Force report study a couple years 
ago that seems to indicate that there is a life expectancy of 
these Es that is far greater than we are now telling you. But 
what we are finding is that the corrosion of the Es is very 
serious. It is much more serious than the study ever 
anticipated. Air Force Materiel Command has determined that it 
would be unsafe to go forward unless we retired those Es.
    So one of the reasons we are going forward with the lease 
is because it is the most affordable way of getting needed 
assets to our Air Force and Navy in the shortest possible time. 
It gives us a 5-year advantage over any other mechanism for 
doing that.
    Senator McCain. That is a very interesting statement. It 
has nothing to do with the question. Why do you not do an AOA, 
just as we do whenever we examine any new weapon system?
    Dr. Sambur. Well, we did an analysis of alternatives in a 
shortened fashion. We determined, for example----
    Senator McCain. You did an AOA?
    Dr. Sambur. We did not do a formal AOA, as you----
    Senator McCain. Oh, I see. You did not do a formal AOA.
    Dr. Sambur. No. But we----
    Senator McCain. Please. Please, Mr. Secretary. You either 
did an AOA or you did not. There is no such thing as an 
informal AOA. Okay? I do not know how long you have been in 
your job, but I have been here a lot longer than you have been 
doing what you are doing. I can tell you an AOA is an AOA. You 
have not done one. It is disgraceful that you have not done 
one.
    Dr. Sambur. Well, we presented our analysis of alternatives 
in an informal sense to the DOD. We looked at reengining. We 
looked at various other aircraft for refueling. We actually 
made, as a suggestion from your part, an effort to determine if 
we were getting the best possible price. We looked at the 
Airbus configuration. We looked at the buy-per-hour 
alternatives that a company in Ireland is offering.
    We have looked at all of those issues. We have presented 
those facts to the OSD that is evaluating this.
    Senator McCain. You have not done an AOA.
    I thank you, Mr. Chairman.
    Senator Sessions. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    If I may, Secretary Young, you indicated in your prepared 
testimony that you plan to replace the Navy's EA-6Bs, which are 
four-seat aircraft, with a variant, I guess, of the F/A-18E/F, 
or some I think call it the EA-18G, which is a two-seat 
aircraft. Even with all the advances in technology, do you feel 
comfortable, do you feel confident, that we can go from a four-
seater to a two-seater and still accomplish what we need to do?
    Mr. Young. Well, I believe we are working those details. I 
visited Cherry Point recently and talked to the operators of 
EA-6Bs. We are adapting the existing ICAP-III systems from the 
EA-6B to the EA-18G. I do indeed believe we can, with 
appropriate crew training and systems automation put in these 
systems, have them perform the mission and do so successfully. 
As we look through the details of this, we are using the crews 
to help define the two-man cockpit. I feel that we can 
accomplish the mission.
    Senator Pryor. That is good to know. Because I know that, 
for example, in the C-130 with the new J, we are actually 
losing seats there, which again makes sense, given technology 
and everything.
    Let me ask the Marine Corps about the EA-18G. Is that part 
of your plan, or do you have another proposal to replace the 
EA-6B?
    General Hough. Sir, we currently have 20 EA-6Bs down at 
Cherry Point. They provide a great service. However, no matter 
if you are a Navy airplane or a Marine airplane, they are all 
getting old. We know that. We also know that the Growler is 
going to come in. They are going to replace the Navy airplanes 
first. They ought to, because they have to go aboard the boats. 
They take the greatest pounding.
    We are on the tail end. With DOD, with Mr. Aldridge, the 
Navy, Air Force, and Marine Corps, we got together and we said, 
``How are we going to solve this problem?'' The way we came 
about it and we presented to Mr. Aldridge was to step back and 
say, ``I will take the EA-6Bs, and we will figure out a way to 
be on the tail end of these and keep them longer than anybody 
else and let the Navy get their Growlers.''
    The Air Force is going for a system-of-systems approach, to 
fold together all of us and take a look at how we are going to 
do business in the future, say in the 2012 to 2015 time frame, 
not knowing exactly how long the EA-6Bs are going to last. 
There are two studies that we will fund this year to look at 
this problem.
    One is: How long, how much, and what do you have to do to 
keep the EA-6B going? What is the bottom line? The second one 
is taking a look at the EF-35. It showed great promise in the 
demonstration phase, great promise in the avionics capability, 
what it can do, what it cannot do, with its stealth, its 
capabilities, interoperability and its avionics package. Take a 
look at that and, of course, depending on when it comes in, to 
take a look and see what the business case reads as to where it 
does come in and when you can put money against it and to see 
just where we stand.
    Those two studies over the next 2 years, as Mr. Aldridge 
said, will take a look at that, and by 2005, 2006 we will have 
a plan. That is what we are doing, sir.
    Senator Pryor. Okay.
    General Keys, what about the Air Force?
    General Keys. We believe that the system-of-systems is the 
right approach. It is much like we do today. We have the F-
16CJs, the EA-6Bs. We have self-protection jamming and a blend 
of capabilities. Now as we see the time line move further out, 
now we have UAVs that can provide us some close-in jamming. We 
will have the Growlers out there providing that type of 
jamming.
    We are looking at the B-52, for example, with a pod for 
standoff jamming, miniature air launch decoys. Then as you 
bring on the FA-22 and the F-35, you have the airborne 
electronic steerable array, which then allows you, actually 
within your fire control radar, to timeshare and do things to 
active radars. And we believe that is the best combination of 
systems to go against the array that we will face in the time 
line that we are talking about.
    Senator Pryor. Okay. Let me turn my attention, if I can, to 
the FA-22, which, as I understand it, is supposed to enter 
initial operational testing (IOT)--is it October of this year?
    Dr. Sambur. Dedicated IOT will be in October of this year, 
correct.
    Senator Pryor. Okay. Do we feel confident we are going to 
make that time frame?
    Dr. Sambur. Well, we feel there is an 80 percent 
probability that we will get there. Let me explain to you what 
I mean by 80 percent probability. Basically, 7 months ago, when 
we marched our way to dedicated initial operation test and 
evaluation (IOT&E), we have had several issues that were 
confronting us.
    I am not sure if you are familiar with some of the data. We 
had an issue with the tailfin buffet. We had issues with canopy 
howling. We had issues with the brakes. Systematically, we have 
been facing those and solving those problems. We also had a 
problem in flight science testing. We have basically gotten our 
curve down.
    The one remaining problem we have right now is avionics 
instability, which I am sure you are aware of. One of the 
things we were concerned about is whether or not we had an 
architecture that inherently we would never be able to get 
stability in. We have gotten some of the best minds in the 
world. We have gotten two blue ribbon panels to look at this. 
They have ascertained that the architecture is fundamentally 
sound and could be stabilized.
    So now there is a question of software debugging because 
when you are in a situation in which you have an error every 
couple of hours, obviously that is a much more significant 
problem to figure out.
    Again, what we have done there is to augment the quality of 
the staff. We have put in more test vehicles for doing this. We 
have put in not only the instruments for testing, but also the 
labs. We have focused attention on that with a systems 
engineering approach that we have also gotten outside 
committees to look at.
    So they feel reasonably sure that we will get there. 
Whether we will get there at the end of October or not may not 
be the case. But I would like to tell you, when we made our 
budget estimates, we assumed that we would not finish in 
October. We actually gave ourselves several months of 
contingency. So there is time beyond October where we will not 
have any impact on both budget and initial operational 
capability date. So there is----
    Senator Pryor. That was my next question.
    Dr. Sambur. That will not affect that. So I cannot give you 
absolute assurance that we will complete this in October, but I 
will give you absolute assurance that we put contingency in our 
budget so it will not affect that from a financial point of 
view, and we have scheduled a contingency to do this. We have 
the best team in place to solve the problem, and it is a 
solvable problem.
    Senator Pryor. Good.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you. I guess it is my time, unless 
Senator Chambliss has a time problem. You can go ahead of me.
    Senator Chambliss. No.
    Senator Sessions. Following up on the FA-22, at this time 
last year, the FA-22 was scheduled to start initial operational 
test and evaluation this month, April 2003. That was later 
changed to start in August 2003 and now in your written 
testimony you state the testing will not start until October 
2003.
    It seems a major issue there is software stability. It has 
been reported that the latest software load to be delivered is 
not meeting its objectives of 10 hours run time. You mentioned 
that, I think. The software load required to commence 
operational testing has a stability objective that calls for 20 
hours of run time.
    In a briefing by a team established by the Director of 
Defense for Research and Engineering just this past December, 
it was stated, ``Run time stability remains severely 
problematic. Time and effort needed to resolve the issue is 
unknown. Effectiveness of the current strategy to resolve the 
issue is uncertain.''
    How would you respond to those concerns, Mr. Secretary?
    Dr. Sambur. Well, Mr. Chairman, I would like to go back to 
the answer that I gave to Senator Pryor. First of all, it is 
not an unsolvable problem. It is not mission impossible. We 
have had teams come back that have told us the architecture can 
fundamentally be stabilized. So it is not a question, again, of 
mission impossible.
    As for your data points on April to now, you are absolutely 
correct. We have had schedule slips. But we have instituted new 
procedures into this program, more of a system-oriented nature 
so that we are solving these problems in a very structured 
manner. As I tried to indicate to Senator Pryor, we have solved 
many problems since April, many of those problems this 
committee or previous committees thought were unsolvable. I 
mentioned the fin buffet as being one of those. Just the other 
day we had a problem with the landing gear. I am happy to tell 
you we solved that in a very expedited manner. In a matter of 3 
days, we found out what the problem was.
    Senator Sessions. You are satisfied that the fin buffet 
is--you have actually worked that out?
    Dr. Sambur. Yes. We have actually tested that on our flight 
science aircraft. We are solving a number of these problems 
because we now have the right approach, we have the right 
manpower, and we have the right attention from industry. They 
recognize how critical this program is, to get it solved.
    So those three ingredients should bring a success, coupled 
with the fact, the overarching fact, that this is a solvable 
problem.
    Senator Sessions. Well, production is a second concern to 
me. According to the contract schedule provided to the 
committee last year, it seemed we would have taken delivery of 
aircraft through tail number 4019. Yet I believe the latest 
aircraft delivery was tail number 4012 this past January. 
According to the latest production delivery schedule delivered 
by the Air Force just last month, tail number 4019 will not be 
delivered until the end of September.
    The contract calls for aircraft through tail number 4025 
through September. It appears even by the Air Force's plan that 
through the end of fiscal year 2003, production deliveries will 
be behind by 6 months and six aircraft.
    So can you tell us what the reasons are for these 
production deliveries running so far behind?
    Dr. Sambur. Well, you are right. There are problems with 
production. What we did is we attacked it the same way that we 
are attacking some of these issues with stability. We brought 
in a focus team. Basically, we had no metrics to view things on 
in terms of parts shortages, in terms of metrics for evaluating 
how long things took.
    So we have a metric in process so we can evaluate 
ourselves. The management there has been elevated. We brought 
experts from some of the more successful programs that Lockheed 
Martin has run. They have even put one of their executive vice 
presidents in charge of the program, an individual who has a 
proven track record. The result of this is that we are starting 
to see deliveries come out ahead of the projected schedule.
    So I cannot tell you that we are going to catch up. All I 
can tell you is that I apologize for the delay. But I can tell 
you going forward we are starting to meet our commitment. As a 
matter of fact, the last jet was delivered almost a week ahead 
of schedule. We are starting to see the metrics improve 
substantially. So there is a change for the better here.
    At the end of the program we will be delayed, as you 
correctly indicated. But there is movement in a positive sense.
    Senator Sessions. Well, you gave us in your statement, I 
think, a real mouth-watering description of the value of this 
aircraft. I think it is truly a leap forward. It is a very 
important aircraft.
    Dr. Sambur. Thank you.
    Senator Sessions. I think we need to move it forward.
    Dr. Sambur. We were privileged to give you a special 
session on Friday, where you got some inside information on the 
surface-to-air missiles that are proliferating throughout the 
world, to give you a better appreciation of what we need.
    Senator Sessions. But with this software problem, you are 
not able to complete your operational test, as you would 
normally be doing with these initial production aircraft?
    Dr. Sambur. Let me explain to you what the issue is. First 
of all, it has nothing to do with safety of flight. That is a 
different set of software. This is the actual sensors. When it 
goes down, you basically, as you do on your computer at home, 
you restart or control/alt/delete, and you get the things back 
in order.
    So the impact is on how long it takes you to actually do 
the testing. It is very wasteful for every time you start to do 
a test, as soon as you go along, to do this control/alt/delete. 
So we obviously have to fix that to get through testing. Then 
there is a test that you need the stability for of 20 hours.
    So it is not a case of any safety issues with the actual 
avionics, but it is an issue in getting through this test. It 
is certainly something we have to fix to get through this 
testing in an expedited fashion and to even prove the value of 
the jet.
    Senator Sessions. Well, we are concerned about it. This 
aircraft has extraordinary capabilities. We need to ensure that 
we are first in the world in these kind of aircraft and this 
would take us there, I have no doubt.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    I will come back to the F-22 in a minute. I have a couple 
questions there.
    But I want to start out with you, Admiral, with respect the 
F/A-18 and particularly the squadrons, the Carrier Air Reserve 
Wing 20, which is headquartered at NAS Atlanta. Only two of 
those squadrons are funded in the Navy's 2004 budget. I note 
that VFA 203 from Naval Air Station Atlanta has been deployed 
several times just in the last year alone in support of 
military operations around the globe. I have two questions 
relative to that.
    First, can you talk about the Navy's tactical air 
integration effort and why the Navy and Marine Corps Reserve 
are paying the price for efficiency and modernization, since it 
appears that it is the Reserve squadrons that are being 
targeted for closure?
    Second, can you give me some feedback on the logic of 
closing a squadron that is constantly deployed or constantly 
preparing to be deployed in support of operations around the 
world?
    Admiral Nathman. Yes, sir. Most of our Reserve strike 
fighter squadrons, the ones in Atlanta, have been providing 
training support primarily to Navy and Marine Corps tactical 
squadrons, operational squadrons, active duty squadrons that 
are deployed. So they have been deployed in terms of 
detachments to support training for those particular squadrons.
    The war, particularly Operation Enduring Freedom, and then 
in preparation for the amount of carriers that we needed to 
have forward for Operation Iraqi Freedom, resulted in a--we 
matched the air wing to the carrier. We try and do that about 
18 to 24 months before the next deployment, to make sure that 
things like the maintenance support are stabilized.
    The war basically caught us in a transitioning period with 
the accelerated decommissioning of F-14s. So this is a little 
bit of a longer answer, but we tried to rush in the EF. But we 
can only buy the Super Hornets so fast to replace those 
squadrons. Because we could not do it rapidly enough and meet 
the support requirements for those aircraft, we had to 
basically bring a Reserve squadron into an active duty air wing 
to provide the full warfighting capability of that air wing.
    So we stood up, as it were, and activated that Reserve 
squadron to flesh out that air wing for deployment. That 
typically is not part of our plan. What we are doing right now 
is studying a total force requirement with the Reserves to find 
out what is the best way to do several things. What is the best 
way to make the people in those Reserve squadrons part of the 
warfighting wholeness answer that we need? Right now you are 
seeing an example of that, where that squadron is activated in 
an air wing to go to war.
    But there are other ways of doing that. There is a 
tremendous amount of contingency support that we need in terms 
of additional pilots, maintenance, and crews. So we are 
studying those efforts right now to find out: What is the best 
way to integrate the total force of those people in the 
squadron?
    We need to look at the recapitalization of our Reserve 
squadrons as a tremendous challenge to the Navy in terms of 
affordability. One of the reasons why we made the decision in 
the integration efforts was we believe that we are bringing a 
much more capable force with the aircraft that we are 
purchasing, the Super Hornet and joint strike fighter and F-
18G. With that improved capability, we can take the risk in 
coming down on the total numbers of fighters.
    So it makes sense to us, in terms of understanding where we 
are going to go with the Reserve force structure, that we look 
at--because the study will come out before the decision is made 
to actually decommission those particular squadrons. We will 
have the study completed. We will know the best way to 
integrate our people and to look at the total recapitalization 
challenge.
    So that is where we are headed right now, sir, to figure 
out and make sure we are making the right decisions about those 
Reserve strike fighter squadrons.
    Senator Chambliss. Now when is that study going to be 
coming out?
    Admiral Nathman. We are in the middle of it right now. I 
expect the study will be completed in less than a year. The 
Navy will have a position on its total force, and particularly 
those squadrons. That will lead the decision before we make the 
decommissioning decision or the disestablishment decision for 
those Reserve strike fighter squadrons.
    Senator Chambliss. What about when you start bringing 
assets back from the Middle East, assuming this conflict is 
over within the next several weeks, months, whatever? What 
effect is that going to have on these Reserve squadrons?
    Admiral Nathman. We are trying to understand that right 
now. One of the challenges of the current war is we have a 
certain amount of force structure, obviously. We have five 
carriers, with a sixth that just entered the AOR, the U.S.S. 
Nimitz. So we have six carrier flight decks, basically, in this 
war. We also deployed Carl Vinson to backfill Kitty Hawk in the 
Pacific Theater.
    So one of the things we do not know yet is in the 
reconstitution of our force, what is the force structure we 
have to leave behind? In other words, what will CENTCOM want? 
When the war ends, what will they want in terms of presence? 
The United States Navy has provided anywhere from one to two 
aircraft carriers full time since 1990 in the Persian Gulf. We 
do not know what the reconstituted force structure is going to 
be, what the requirement will be. When we understand that, we 
will understand our reconstitution challenges.
    So I do not have a complete answer for you, because we do 
not know what force structure we will have to leave in the area 
to reconstitute the force when it comes back. That will give us 
a real good answer of what our trades are. I can assure you the 
Reserve force structure will be part of that equation, to 
understand how to reconstitute our active force, sir.
    Senator Chambliss. Rather than me bugging you and Admiral 
Clark down the road, if you all will stay in touch with us and 
keep us posted on that, I would appreciate it.
    Admiral Nathman. Yes, sir.
    Senator Sessions. All right. Thank you, Senator Chambliss.
    We will do another round.
    Precision weapons are a critical component of what we are 
doing in Iraq today and what we utilized in Afghanistan. The 
ratio of guided to unguided munitions has continued to increase 
in each conflict. Production rates of laser-guided bombs and 
JDAMs are either at maximum production rates or on a ramp to 
reach maximum production rates.
    Admiral Nathman, General Hough, and General Keys, I will 
ask you this: Are all of our strike aircraft modified to employ 
these precision munitions? Are there any modifications needed 
by the aircraft in your service to achieve employment 
capability?
    Admiral Nathman. I will start. I will tell you that our 
aircraft are modified to carry all precision weapons that we 
feel like they need to carry right now. As an example, we just 
finished the integration test and the approval of the F-14 to 
carry JDAM, which is an important piece for us, because the 
airplane is carrying it right now, I believe. The Navy, to my 
knowledge, is not----
    Senator Sessions. It is carrying it now, but you need to do 
further modification?
    Admiral Nathman. No, sir. We have completed the test and 
the modification on the F-14 to drop JDAM. We did that the last 
couple of years. We were going through a process of making sure 
that all the integration tests were appropriate, and the 
approval process, we accelerated that for the war. So we have 
approved the dropping and the carriage of JDAM onto F-14s for 
the war. It was an acceleration of a decision we made, I 
believe, back in 1998 to integrate JDAM onto the F-14.
    Senator Sessions. Are all those so configured today?
    Admiral Nathman. I will have to get back to you with the 
total numbers of airplanes that are. But to my knowledge, all 
the current operational F-14s will have that capability.
    [The information referred to follows:]

    All 64 F-14B and all 47 F-14D aircraft are JDAM-capable. None of 
the 37 F-14A aircraft are JDAM-capable. (See table below.)
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Sessions. General Hough.
    General Hough. Yes, sir. Thank you. Our F-18s can drop 
them, but our AV-8s cannot. They are undergoing, and have been 
for the last few years, an open architecture software infusion, 
if you will, to be modern with 21st century airplanes, to do 
anything anybody else does.
    Right now we are testing JDAM at China Lake. With the 
completion of those tests and the funding and completion of the 
OSCAR program, which is the Open Architecture Program, we will 
be able to drop everything we have in the inventory. That will 
be by 2005.
    Senator Sessions. General Keys?
    General Keys. Ours can all drop either laser or JDAM, 
including the bombers.
    Senator Sessions. I would just say to Admiral Nathman and 
General Hough: This is a big deal. To me it is so plainly 
obvious that the JDAM is just a magnificent weapon of choice in 
so many circumstances that we need plenty of them. We do not 
need to run out of them. If we have to start a new assembly 
line to have them--and everybody said we are going to have 
plenty, and I hope we have plenty--we need to make sure our 
aircraft, whatever it costs in terms of the overall budget--we 
buy ships, we buy airplanes--it seems to me, we need to be sure 
that we are configuring our aircraft to carry them.
    General Hough, is it a question of just money that you all 
have made that decision to go until 2005? Why would it take 
that long?
    General Hough. No, sir. It is undergoing testing. And it 
has to be able to drop the works. In fact, within about 3 to 6 
months, the ability to be able to drop the 500 pound JDAM may 
be over. To drop each one of these 500, 1,000, or 2,000-pound 
bombs, it does take a little while. There were a couple hundred 
sorties that were put against this.
    It was not a matter of the money. We fund this every year. 
It is just a matter of funding OSCAR. I have been assured, and 
the testing is going fine, that when I say 2005, in about a 
year to maybe a little bit more than a year, these tests ought 
to be complete.
    Admiral Nathman. Mr. Chairman, could I do a follow-up?
    Senator Sessions. Yes.
    Admiral Nathman. One area we need help--and this is just a 
case of timing; this is not because we were overtly bad about 
things. We had a plan to decommission or disestablish the F-14 
and transition to Super Hornet. We accelerated that plan 2 
years ago to make sure that we could get out of the very high 
operations and support costs of the F-14.
    Now on top of that we had an acceleration of that 
particular plan. The F-18 multiyear supported that transition. 
But the war accelerated the deployment of our force. We have 
surged a significant amount of carriers and air wings above 
what we normally do, when we did the President's requirement 
for the Global Naval Presence Plan. So that acceleration has 
led to a very practical problem for us.
    We purposely scaled the amount of ancillary equipment that 
we bought for Super Hornet and weapons integration to meet this 
kind of paced disestablishment of the F-14 and transition to 
the F-18 Super Hornet. So one area we dearly need your help on 
is additional funds for ancillary equipment for the Super 
Hornet, additional weapons, and accelerated weapons 
integration, which we did not originally program for because of 
the pace of the war.
    So that is a very practical area that you could help us on. 
I believe that if we have a significant reconstitution effort 
where the war is going to go, those are the type of investments 
we should accelerate, because we have the opportunity to 
accelerate those investments. We would appreciate your help on 
that, sir.
    Senator Sessions. Well, I certainly will. You can count on 
that. The authorization bill will be coming forward, and we 
will be looking at that.
    Just briefly, Secretaries Young and Sambur, are we doing 
all we can do to maximize production of precision-guided 
munitions at this time, to your knowledge?
    Dr. Sambur. Well, as you said at the beginning, we have 
given additional money for facilitation of the JDAMs to 3,000 a 
month, which we will hit in July. We are presently at, I think, 
2,400 a month. We are looking at all sources to make sure that 
there are no sole source issues that could cause us issues. We 
are actively seeking to look if there are any other 
alternatives. But right now we are meeting all of the 
requirements for JDAMs.
    Mr. Young. Mr. Chairman, I think the Navy has looked for 
some resources and worked with the Air Force on JDAM to pull 
back that 3,000 a month a little earlier. So we are doing 
exactly, as the Secretary said, everything that can be done. 
Laser-guided bombs are at 1,500 a month with 2 providers. That 
is the maximum rate there. So we, in both of those areas, are 
doing the best we can. Then in the supplemental, there is 
serious consideration of facilities monies for Tactical 
Tomahawk, so we can raise the anticipated production rate of 
that missile to a higher level and do so sooner and within that 
created space. Clearly we would like to use some supplemental 
funds to buy Tactical Tomahawks sooner. That is an urgent need 
that is coming before us.
    Senator Sessions. Well, we will maybe talk about it later. 
The Tomahawks are so much more expensive, and I am sure there 
are reasons. We have used an awful lot of them, it seems. The 
JDAMs have tremendous capability for reasonable cost.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    I think I agree with you. The JDAM is a very interesting 
and positive development for our military. I think it is a very 
common-sense approach to a challenge that we have. I am glad 
that you all had the foresight to develop that. I may not 
understand anything about the technology involved in JDAM, but 
there is something I do understand and that is being 
overweight. So I want to ask about an airplane that is 
overweight here and I want to find out how serious this problem 
is.
    Secretary Young, if I can ask you: As I understand it, the 
JSF, at least one version of it or maybe all, I am not sure, is 
overweight. Six thousand pounds overweight is what I have in my 
notes here. Could you talk about that and tell me how that is 
going? Also, why is it overweight? What makes it overweight?
    Mr. Young. I will take two approaches to answering the 
question, if I could. One is, we are still in the early design 
stage of the program. We are 16 months into the new System 
Development and Demonstration. So at this point, some weights 
are still being estimated, as we design the airplane based on 
historical information and experience, parametric data, if you 
will. That analysis says that the plane is something on the 
order of about 1,000-plus pounds overweight, the engine and the 
airplane together. Then they took another view of this, which 
is a bottom-up estimate of the weight with different tools that 
produced a number like you quoted, sir, about 5,000 pounds.
    What I would say to you is: In both those cases, the JSF 
program is one of the best planned programs in the Department 
of Defense. It has a weight curve leading all the way out to 
what they want the plane to weigh at IOC. So what we are 
talking about is what the plane weighs here at the preliminary 
design review stage. We are above the target that was set.
    Even at those weights, we are still not, I think, above the 
IOC weight of the airplane. But we are clearly above where we 
should be at this early stage of the program. Through the 
application of management tools, the number one focus of the 
program is to bring the aircraft weight back down to the 
preliminary design review target. This will give us a more than 
adequate margin to develop the plane and meet the IOC weight.
    There is a risk. I would tell you it is probably the 
preeminent management concern before the program right now, 
particularly on the STOVL version. But, the program has the 
tools and has identified the issue and is working it 
aggressively.
    Relative to the bottom-up review, it was done to allocate 
areas where people need to go in and attack the weight and 
bring it down. Those allocations have been made and the team is 
working in each area to bring those weights back down.
    Senator Pryor. What is causing it to be overweight? What is 
it?
    Mr. Young. The engine is a factor. It is one of the more 
mature components. It is an engine derived from the F-22. It is 
a sophisticated engine. There is about 172 pounds of weight 
challenge, I believe, on the engine.
    The airplane, likewise, particularly the STOVL 
configuration with its ability to lift vertically, has a lift 
fan and a complicated propulsion system that has a substantial 
weight contribution.
    So I would not single out any factor now as a real long 
pole in the tent. It is just that overall the estimates are 
getting refined and will be further refined as the program 
progresses. We anticipated the plane would grow along the way 
to the IOC weight. It has grown faster than necessary and we 
have to implement a weight reduction program.
    The other places that they are looking at is the empennage 
area where the wings join the body. We may have allocated more 
margin than necessary for the structural joints and other 
areas, because we wanted to be prudent in avoiding cracking and 
fatigue, early fatigue, problems in the plane. So we are going 
in and refining whether we can lighten up those structures and 
still have adequate structural life.
    Senator Pryor. The STOVL aircraft, is it heavier than the 
others by necessity, given the variation on it?
    Mr. Young. I would like to give you the weights for the 
record. My memory is that it is slightly heavier at this point 
than the carrier variant, and both of which are, I believe, a 
little heavier than the conventional takeoff and landing 
variant for the Air Force.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Pryor. I think that is right, too.
    With regard to the--and I am changing gears here--C-130 
program, Secretary Sambur, what is the current status of that? 
I believe you mentioned in your testimony a few moments ago 
that it is the C-130Es that have the corrosion problem. Is that 
right?
    Dr. Sambur. You mean the KC-135s?
    Senator Pryor. Yes--I am sorry. I was talking about the C-
130s.
    Dr. Sambur. The C-130Js.
    Senator Pryor. Yes, C-130Js.
    Dr. Sambur. Right.
    Senator Pryor. Is it not the C-130E that has the corrosion 
problem? Do you know?
    Dr. Sambur. I am not sure. I do not know. I will take that 
for the record.
    [The information referred to follows:]

    Yes. Fifty-seven C-130Es were affected by corrosion. To 
date, 10 have been cleared through inspection, 32 aircraft have 
been identified for early retirement and the status of the 
final 13 will be determined pending further inspections. While 
some of the aircraft are being retired earlier than originally 
scheduled, the long-term impact to C-130 force structure is 
minimal.

    Senator Pryor. All right. I think that is right. I notice 
that the Air Force has slightly increased its procurement goals 
for that. I believe it went from maybe 40 to 42 planes or 
something like that. I did not know if that was in response to 
the C-130E problem or if that is just part of the general plan 
and the general needs of the Air Force.
    Dr. Sambur. It is my understanding that it is part of the 
requirements that we are satisfying.
    Senator Pryor. That is all I have. Thank you, Mr. Chairman.
    Senator Sessions. Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    We are in a multiyear procurement program for the C-130J 
for the Air Force, based on our C-17 model. I think you all 
will agree, it is one of the best decisions the Air Force has 
made.
    I do have a question about the C-130 multiyear procurement 
for the Navy and Marine Corps. I think we finally have jumped 
through the last hoop in the last couple of weeks. That is now 
signed, sealed, and on track. I want to just make sure I 
confirm that. Gentlemen, is that right?
    Dr. Sambur. My understanding is the contract is signed. It 
was signed a couple weeks ago. The planes are on contract, Air 
Force and Marine Corps.
    Senator Chambliss. Okay. General Hough, my Marine Corps 
installation is a logistics base. It is not a parochial issue 
when I say to you that I think the Marine Corps has been 
shortchanged from a TACAIR standpoint. I know you all made some 
sacrifices early on. When the Joint Strike Fighter comes on--
this committee needs to look after the Marine Corps, make sure 
that your guys get the equipment they need to do their job. I 
think you did make a sacrifice. We all need to remember that 
when we start procuring the JSF for you.
    Mr. Secretary and General, I want to ask you all again 
about the F-22. This avionics software has been a problem time 
and time again. Are we getting to the end of the road on this 
now with respect to the F-22?
    Dr. Sambur. Well, we hope. We have a plan in place, as I 
mentioned before. Two blue-ribbon panels have determined that 
this is not mission impossible, that we can solve the problem. 
Software debugging, when there are problems of this nature, 
take some time. But we are systematically going through that.
    Chairman Sessions mentioned the last software load. It is 
not really a load in the sense that this is a complete package. 
These are basically issues in which we have put fixes into the 
existing software package and tested it. The good news is that 
the start-up performance is now 100 percent. When we first 
started a couple of weeks ago, it was in the 60 percent range. 
So we have made a significant improvement on this.
    It is not just a software problem. It is a combination of 
software and hardware issues. For example, there is an 
application specific integrated circuit (ASIC) that was faulty 
that we have corrected. It is not an architecture issue. It is 
a component within that architecture.
    There is an ultrahigh-frequency tactical air navigation 
(TACAN) system that is giving us some problems that we are in 
the process of fixing. So we share your concern. But we think 
we will have it fixed. We cannot tell you the exact date, but 
it is not a lot after October 31.
    Senator Chambliss. We have a $43 billion cap on this 
program. We keep coming down and down. Currently, we are still 
looking at 339 airplanes technically. But obviously, we cannot 
buy that many with $43 billion.
    Dr. Sambur. Yes, that is right.
    Senator Chambliss. Now how are we going to approach the 
long-term expeditionary force issue with respect to the actual 
number of F-22s that we are going to be able to buy? What is 
that going to do to us?
    Dr. Sambur. Well, we are at, as you probably know, a buy-
to-budget. Right now with the existing numbers we think it is 
about 276, as opposed to the 339. But one of the issues that we 
have been talking about for a long time is stability in the 
program. We also mentioned the C-17, which is a program, I 
think, you are very much aware of. Once that program had 
stability, that the problems were behind it, the cost curve, 
the learning curve associated with production went down 
dramatically and the costs improved.
    We are hoping that once we get this stability in the 
program, we will be beyond some of these problems, and we can 
focus on the production costs and use some of the improvements 
that we are seeing from the program we have in place to get 
cost improvements. We will get that number up beyond the 275.
    Senator Chambliss. All right. The testing we are doing now 
at Edwards, is everything going well? Have we had any recent 
problems? I have not read about any. I have been scared to get 
a phone call from Lockheed. But is everything going well?
    Dr. Sambur. Everything has been amazingly successful 
outside of the software issues. We have had missile tests that 
have worked very well. The flight science tests are going 
along, according to the revised plan, which was a very steep 
slope in terms of getting those resolved. I talked about some 
of the issues with the fin buffet. We have proven that those 
things have been fixed. So the flight science is doing very 
well.
    The logistics issues are going in place. The only mountain 
that we have is now this avionics software. We had actually 
five mountains, if you looked at it 7 or 8 months ago. We have 
been able to climb four of the five.
    Senator Chambliss. I go back to the fact that on every new 
weapon system we have had as many problems as we have had with 
the F-22. It still is comparable from a problem standpoint with 
every single other weapon system that we have procured.
    Thank you, Mr. Chairman.
    Senator Sessions. On the precision munitions, the JASSM 
sounds to me to have great potential. It would be an 
alternative to a Tomahawk in that it would likewise avoid 
flying over heavily defended areas. You have a 220-mile, 200-
nautical-mile standoff. How is that doing? I think at the 
beginning of April we are supposed to have some deliveries. Do 
you expect to use anything in Iraq?
    Dr. Sambur. A few months ago we had some issues with 
testing, and we corrected those problems. On March 26 we 
actually had a successful developmental test. We are back--
beginning in April we have started the operational testing. So 
we are very encouraged about that plan for JASSM. Things seem 
to have turned the corner and we are doing much better. We are 
on track.
    Senator Sessions. The Joint Standoff Weapon, JSOW, I guess 
you would call it----
    Dr. Sambur. JSOW.
    Senator Sessions.--appears to be considerably more 
expensive. Is that correct? Did I read that in one of your 
reports?
    Dr. Sambur. I believe it is.
    Senator Sessions. What advantage does it have over the 
JASSM?
    Dr. Sambur. I will let my expert, General Keys answer that.
    General Keys. Basically, on the type of weapon that it 
carries, the sub-munitions is what tends to make the JSOW much 
more expensive than the JASSM, which is a unitary or a blast 
frag warhead that is selectable. So as you get to more 
sophisticated filling, if you will, for it, it starts to drive 
some of the costs up.
    Senator Sessions. Back on the KC-135, I notice you are 
awfully adamant about the KC-135E not being able to be 
refurbished. Right?
    Dr. Sambur. Right.
    Senator Sessions. But we are doing it now. We have been 
doing it. How come today all of a sudden none of them are 
capable of being refurbished? Do you know the cost of bringing 
one of those up to current standards?
    Dr. Sambur. Well, the question is not whether or not it is 
capable of being fixed. The problem is that we are finding 
areas of corrosion that are in areas that we had never seen 
before. There is a question, because of the design of the 
plane--the wings go up and water accumulates. It was a design 
that was not really well-suited for protection against the 
aging effects. It has dissimilar metals and all sorts of very 
poorly designed things for protection against corrosion. What 
is happening is, when the maintainers get in there and start 
looking at it, they are seeing areas of corrosion that are 
causing alarm to them, areas that they had not seen before. 
They are concerned about the wide-spreading nature of this.
    So what they would rather do is to basically start retiring 
these things before catastrophic things occur.
    Senator Sessions. We certainly do not need to take risk. 
But do you know whether in examining a KC-135E, taking it 
through for rehab, you can identify those that do have serious 
corrosion problems that may be unfixable? Can you identify 
those that do not and could be reused?
    Dr. Sambur. Well, the first 68 that Air Mobility Command 
(AMC) has pointed out for retirement are those that they feel 
have significant issues, and that is the reason why they chose 
those to retire. They are looking at the potential of retiring 
even more Es in the future.
    Senator Sessions. Well, that puts you in a fix, when you 
retire them. You have to have something for replacement, 
because we pretty much--that is a high-demand aircraft, I know.
    Dr. Sambur. What AMC has done is that they have used the 
crews for the Es and started to put them on the Rs. Rs are now 
flying more with the additional crews. AMC has decided that 
that is worth doing, to use the Rs more than to use the Es, 
because they assume that the risks associated with using the Es 
is far greater than using the Rs more than they anticipated.
    So the actual tanker utilization has only gone down a small 
degree, because they are able to use the extra crews from the 
Es, what is taken from the Es, and they are actually flying the 
Rs more, because they have more confidence in the Rs.
    Senator Sessions. Does it appear that in the upgraded Rs 
you are not--is it not true that you are not having these 
problems with corrosion? Does that indicate that we can fix it 
by upgrading them?
    Dr. Sambur. I think the issue is that the Rs are younger 
than the Es. We are not seeing those problems.
    Senator Sessions. The aircraft itself is a new aircraft.
    Dr. Sambur. The aircraft itself is younger. The Es are the 
oldest version of the tankers. The Rs are younger. We have not 
seen those problems. But I would assume that in the near future 
we will start to see those problems. That is why we are so 
anxious to have this recapitalization with leasing, because we 
think that the 5 years that you gain from leasing because of 
the affordability is something that we need to do now. We need 
to start this recapitalization now, because we are concerned of 
the unknowns, that these Rs may start to show problems that the 
Es are now experiencing.
    Senator Sessions. Well, it is something I think I will be 
examining or asking questions about, because it is a lot of 
money. It is $17 billion to recapitalize or add 100 KC-767s. It 
is a big pile of money. For a fraction of that, if you could 
continue to use existing aircraft, that would be a huge 
savings, particularly when you have spent all the things 
necessary to keep the Air Force going, and then you come in 
with $17 billion for a program. If you could avoid it, that 
would be a lot of money that could be used for other things.
    Dr. Sambur. Well, you recognize, of course, that this 
amount of money is over a long period of time. One of the 
issues that we did in terms of evaluating this lease is, first 
of all, we wanted to make sure that we really needed it, that 
time was critical to have it done. Second, we wanted to make 
sure it was affordable.
    So one of the questions that OSD asked us in the lease was 
to say: Could you afford to do this? We made some very tough 
decisions to show them that this was affordable in our plan, 
because this is becoming a very important and critical issue 
for us.
    Senator Sessions. Well, I thank you, all of you.
    Secretary Young?
    Mr. Young. Could I revisit precision munitions for just one 
second?
    Senator Sessions. Yes.
    Mr. Young. With the benefit of some time, I was able to 
pull some information. The JSOW has an average procurement unit 
cost of about $200,000 per weapon. We worked with the Air Force 
on this, because the Navy has an interest here. JASSM has the 
benefit, like Tactical Tomahawk, of a good proposal from the 
companies. It is a $400,000 class weapon. Lastly Tactical 
Tomahawk, where we likewise have a fixed price proposal from 
the companies, is about a $600,000 class weapon.
    Each weapon steps up in terms of range and capability. I 
think to one of the points you made, there have been some 
situations in Operation Iraqi Freedom where the TACAIR could 
not get to certain locations. We have shot Tomahawks that we 
might not have expected to shoot, because that weapon can go 
in, even in the sandstorms and other adverse conditions.
    The whole toolkit of weapons provides a lot of flexibility. 
But, there is a gradual step-up in the cost of each one, 
somewhat commensurate with the capability.
    Senator Sessions. So the JSOW is more expensive than the 
JASSM?
    Mr. Young. No, sir. It is less expensive. The procurement, 
the acquisition procurement unit cost, the current estimate 
is----
    Senator Sessions. JSOW is $200,000 and the JASSM is 
$400,000.
    Mr. Young. Yes, sir.
    Senator Sessions. Okay. I had it backwards. Thank you for 
correcting me there. The Tomahawk is not $1 million; it is 
$600,000.
    Mr. Young. Well, the original Tomahawks were. But the new 
Tactical Tomahawk, we have a priced agreement with Raytheon to 
get those weapons for about $600,000. That is part of why we 
went to Tactical Tomahawk, to reengineer it and bring the cost 
down.
    Senator Sessions. Very good. That is good progress.
    Anything else?
    General Keys. I apologize for that. I thought when we were 
discussing that, it was a comparison between JDAM and JSOW. So 
I misheard your question.
    Senator Sessions. All right. Thank you very much. We 
appreciate that. That is very helpful. You are laying the 
foundation for the future of our defense. We appreciate you 
very much.
    We are adjourned.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe

      JOINT DIRECT ATTACK MUNITION CRITICAL COMPONENTS PRODUCTION

    1. Senator Inhofe. Secretary Young and Secretary Sambur, I recently 
read a magazine article that stated a Chinese company had acquired 
significant control over the production of critical components for the 
JDAM. Specifically, rare earth magnets that are essential to the servos 
in the JDAM kit. According to the article, a Chinese consortium 
purchased the Indiana factory where the critical parts are produced. Is 
the United States allowing China to produce critical components for our 
JDAM kits? Are there other U.S. suppliers of these rare earth magnets?
    Secretary Young. Yes, rare earth magnets that are used in our JDAM 
servomotors are being procured from Magnequench, Incorporated, of 
Indianapolis, Indiana. In 1995, Magnequench, Incorporated was purchased 
by a consortium of Chinese companies.
    Eighty percent of the servomotors used in JDAM are produced by SL-
Montevideo Technology, Incorporated (SL-MTI) of Montevideo, Minnesota. 
SL-MTI obtains rare earth magnets for its servomotors from Magnequench, 
Incorporated.
    The remaining 20 percent of servomotors for the JDAM program are 
produced by Kollmorgon Corporation of Radford, Virginia, which obtains 
its rare earth magnets from Magnetic Corporation of Torrance, 
California.
    Numerous manufacturers exist in the United States that can produce 
rare earth magnets suitable for JDAM production. However, 75 percent of 
the raw materials used to make rare earth magnets are supplied by 
China. Although other sources and mines exist around the world, 
including the United States, China remains the most cost-effective 
source at this time.
    Secretary Sambur. Yes, a consortium of Chinese companies purchased 
Magnequench, Inc., the company that owns the Indiana factory in 
question. Magnequench is a fourth tier supplier providing rare earth 
magnets to SL-Montevideo Technology, Inc. (SL-MTI), one of two 
servomotor manufacturers supporting the JDAM program. SL-MTI produces 
80 percent of the servomotors used on the JDAM program. Kollmorgon 
(Radford, VA) produces the remaining 20 percent of the servomotors on 
the JDAM program. Kollmorgon's rare earth magnet supplier is Magnetic 
Corp (Torrance, CA).
    Rare earth magnets are widely used by the automotive and computer 
industry. Numerous manufactures exist in the U.S. that can produce rare 
earth magnets suitable for JDAM production. However, 75 percent of the 
raw material used to make rare earth magnets is supplied by China. 
Although other sources and mines exist around the world (including the 
U.S.), China remains the most cost-effective source at this time.

                     TANKER LEASE/KC-135 CORROSION

    2. Senator Inhofe. Secretary Sambur, during the hearing you stated 
the reason the Air Force was pursuing the 767 lease was the corrosion 
in the KC-135 E-models, and a safety report issued by the Air Force 
Materiel Command. Don't the KC-135 E-models and R-models have the same 
corrosion problem?
    Secretary Sambur. The corrosion problems found on the majority of 
the aircraft structure (wings, body, tail structure) are basically the 
same on both the KC-135E and KC-135R models. All 540+ remaining KC-135 
tankers were built and delivered to the U.S. Air Force within a 10-year 
span. Although the KC-135Es are slightly older, on average, than the 
KC-135Rs, the minor difference in age is insignificant relative to 
aircraft corrosion. The KC-135E tankers do have one corrosion problem 
not found on the KC-135Rs. The engine struts are suffering from 
widespread moderate to severe corrosion damage that had degraded the 
strength to the point where the struts may not be able to carry worst 
case design loads.

    3. Senator Inhofe. Secretary Sambur, you stated the Air Force 
Materiel Command report indicated the KC-135 E-models were ``unsafe'' 
due to the corrosion. Can you elaborate on that comment and provide a 
copy of that report?
    Secretary Sambur. The word ``unsafe'' might have been too strong. 
Our concern stems from the need to stay ahead of the growing corrosion 
issue. Aside from the increasing effects this has had on the Air Force 
budget, the corrosion problems impact operational capability.
    The KC-135 engine struts are suffering from widespread moderate to 
severe corrosion damage that has degraded the strength to the point 
where the struts may not be able to carry worst-case design loads. 
Operational restrictions have been placed on KC-135Es with unrepaired 
struts to ensure safety of flight. Additionally, the C/KC-135 SPO and 
Boeing identified an interim repair that should maintain the structural 
integrity of the struts for up to 3 to 5 years. KC-135E aircraft have 
been receiving the interim repair during periodic depot maintenance 
since May 2001, with the remainder expected to be repaired by September 
2004. Within 3 to 5 years after the interim repair, a much more 
expensive strut replacement/overhaul will be required.
    Because of these corrosion issues and the associated costs, the Air 
Force intends to begin retiring those aircraft that pose the greatest 
concerns.
    [The Air Force Materiel Command report follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
               Questions Submitted by Senator Pat Roberts

                 JOINT PRIMARY AIRCREW TRAINING SYSTEM

    4. Senator Roberts. Secretary Sambur, how has the Navy's decision 
to postpone participation in the Joint Primary Aircrew Training System 
(JPATS) program affected Air Force costs for the program? What other 
impacts, if any, has the Navy decision had on the Air Force's JPATS 
program?
    Secretary Sambur. The Navy deferred acquisition of 72 total JPATS 
aircraft through the FYDP including all aircraft from fiscal year 2002 
through fiscal year 2006. At the time of the deferral, the Air Force 
used the program's joint cost model and calculated the impact to be 
$44.9 million across the FYDP, with an average cost increase of $0.2 
million per Air Force aircraft.
    However, since that calculation was made, the Air Force accelerated 
its procurement by 18 aircraft within the FYDP and negotiated a new 
follow-on contract for fiscal year 2002 through fiscal year 2006 with 
revised rates. These actions have partially mitigated the impact of the 
Navy's procurement deferral.
    The biggest operational impact of the deferral is to delay full 
implementation of Joint Specialized Undergraduate Pilot Training 
(JSPUT). Currently, some USAF pilots are trained by the U.S. Navy 
through a shared training agreement. These USAF pilots are trained in 
the Navy's older T-34 without modern digital avionics, instead of the 
more modern T-6 like their USAF trained counterparts.

    5. Senator Roberts. Secretary Young, the Navy continues to postpone 
its participation in the JPATS procurement program, and does not plan 
to reenter the program until 2007. Wouldn't Navy participation in the 
program reduce overall program costs and benefit the Navy?
    Secretary Young. In preparation for the fiscal year 2002 budget 
cycle, the Navy conducted a prioritized review of Navy programs, 
including JPATS procurement profiles. The Navy's decision to defer 
procurement of JPATS was based on competing budget priorities and the 
significant service life remaining on the T-34C.

    6. Senator Roberts. Secretary Young, doesn't the increased safety 
in initial pilot training resulting from use of JPATS aircraft justify 
the Navy's participation in the program before 2007?
    Secretary Young. The T-34C has an excellent safety record. The 
mishap rate for the past 5 years is below the training command average, 
and less than half the overall average for naval aviation. Although the 
JPATS air vehicle incorporates several important safety features, the 
T-34C is a safe and capable platform expected to train future naval 
aviators through the end of its service life.
                                 ______
                                 
             Questions Submitted by Senator Elizabeth Dole

             NAVY AND MARINE CORPS TACTICAL AIR INTEGRATION

    7. Senator Dole. Secretary Young, Admiral Nathman, and General 
Hough, the integration of Navy and Marine Corps tactical air operations 
has been under discussion for several years. It is my understanding 
that as a part of such integration two Navy squadrons have already 
moved to the Marine Corps Air Station (MCAS) Beaufort in South 
Carolina. What is the principal goal and what are the benefits of 
integrating tactical air operations?
    Secretary Young and Admiral Nathman. Four Marine Corps F/A-18 
squadrons have been integrated into USN Carrier Air Wings (CVWs) since 
the early 1990s. The current TACAIR Integration plan is much broader in 
scope and will integrate a Marine Corps F/A-18 squadron into each of 
the 10 USN CVWs, as well as integrating 3 USN F/A-18 squadrons into the 
USMC Unit Deployment Program. The basing of 2 USN F/A-18 squadrons at 
MCAS Beaufort was not part of the TACAIR Integration plan. It resulted 
from the BRAC decision to close NAS Cecil Field in Florida. The BRAC 
closure of Cecil Field required the F/A-18s based there to move to NAS 
Oceana, Virginia. The aircraft loading at NAS Oceana would not 
accommodate all the squadrons needing relocation, resulting in 2 USN F/
A-18 squadrons moving to MCAS Beaufort. Air operations at MCAS Beaufort 
are similar to those at USN sites, although operational profiles may 
vary somewhat. The aircraft are maintained in a similar manner, and 
logistics for both services are supported appropriately. The principal 
goals of the TACAIR Integration plan were to reduce overhead and 
operating costs, reduce total inventory, retire legacy aircraft, reduce 
the procurement bow wave, and increase warfighting capability. This is 
an affordable solution for the future of DON TACAIR and will yield a 
smaller, more capable, more reliable force.
    General Hough. The goal of TACAIR integration is simple--Navy and 
Marine strike fighter squadrons training, deploying and fighting side-
by-side as part of carrier air wings and land-based expeditionary 
units. This merging of service assets and capabilities will greatly 
improve our cross training, coordination and warfighting capabilities 
to create a truly interchangeable strike fighter force.
    The creation of an interchangeable strike fighter force will 
optimize forward deployed naval air power and those aircraft available 
for surge operations; moreover, the TAI plan will reduce overhead costs 
through efficiencies realized in air wing training and employment as 
well as the revised requirements for new aircraft procurement.
    By further integrating strike fighter forces, the Department of the 
Navy will more efficiently and effectively serve the Nation's national 
security requirements from the sea with a realistic and affordable 
integration plan.

    8. Senator Dole. Secretary Young, Admiral Nathman, and General 
Hough, would you describe how this has worked at MCAS Beaufort and how 
you see this concept working in the future?
    Secretary Young and Admiral Nathman. The arrangement has worked 
very well, with a high degree of cooperation between the two services. 
One operational advantage is that the three F/A-18 squadrons assigned 
to CVW-1 (2 USN, 1 USMC) are all based at MCAS Beaufort, allowing air 
wing training with colocated units. The continued integration of Navy 
and Marine squadrons will reap similar benefits.
    General Hough. The placement of two Navy F/A-18 squadrons in Marine 
Corps Air Station Beaufort was a facilities and basing initiative and 
not the result of the current TACAIR integration plan. However, it is 
safe to say that many benefits have resulted from colocating the strike 
fighters of Carrier Air Wing 1 with Marine Aircraft Group-31.
    Cross training between units becomes much more effective when they 
operate off the same base and follow similar training plans. Separate 
service techniques, tactics and procedures are more easily integrated. 
As a result, training is more effective and efficient. The Navy 
squadrons based at MCAS Beaufort have integrated into the Marine Corps' 
Marine Aviation Logistics Squadron (MALS) and the Intermediate 
Maintenance Activities (IMA). To date, this integration has worked well 
for all participants. The Marine Corps plans to continue this level of 
integration until the introduction of the JSF when another opportunity 
to integrate will occur.
                                 ______
                                 
           QUESTIONS SUBMITTED BY SENATOR JOSEPH I. LIEBERMAN
                    F-22 SOFTWARE TESTING PROCEDURES

    9. Senator Lieberman. Secretary Sambur, software instability has 
been causing delays in the developmental testing, which has translated 
into delays in the planned start of operational testing. I understand 
that the Air Force is using a flying test bed (FTB) aircraft to test 
software before installing that software in the F/A-22 flight test 
aircraft. Are you still conducting rigorous testing of the software in 
the FTB aircraft before installing the software on the flight test 
aircraft?
    Secretary Sambur. Yes, we are still using the FTB. In addition, we 
have fundamentally changed our software approach based on 
recommendations from the OSD Avionics Advisory Team. The FTB is 
configured for correcting instabilities in the Communications 
Navigations Identification (CNI) system, the most challenging component 
of the avionics. We have also dedicated aircraft #4006 as an additional 
FTB. Aircraft #4006 is being used to determine, correct, and verify 
root causes of the software instability events. We are confident that 
the continuation of a rigorous software engineering approach, new data 
capturing methods, and the use of aircraft #4006 in combination with 
the FTB will allow us to resolve the software instabilities.

             CONTINUED EROSION IN THE F-22 PRODUCTION COSTS

    10. Senator Lieberman. Secretary Sambur, I understand that you are 
not buying as many F/A-22 aircraft in fiscal year 2003 as were 
authorized and appropriated by Congress. In part this reflects shifting 
resources to cover additional research and development effort, but it 
also reflects production cost increases. Have we seen the last of the 
production cost increases, assuming that we do not find other problems 
during operational testing?
    Secretary Sambur. Yes. With program stability, we are confident 
there will be additional cost increases. Production costs continue to 
decrease. For example, Lot 3 aircraft costs are 11 percent less than 
Lot 2, and 46 percent less than the initial production lot. The current 
estimate is based on realistic assumptions, actual negotiated lots on 
contract, and conservative return multiple for future cost reduction 
initiatives.

    11. Senator Lieberman. Secretary Sambur, one of the methods you 
mentioned in your prepared remarks is ``stability of requirements'' as 
a mechanism for precluding future cost increases. How is the goal of 
``stability of requirements'' consistent with adding air-to-ground 
capability to the original F-22 program?
    Secretary Sambur. In the case of the F/A-22, the baseline 
requirements have been stable. The F/A-22 program has had an inherent 
air-to-ground capability (i.e., JDAM) in the EMD program since 1993.

             JOINT STRIKE FIGHTER ALTERNATE ENGINE PROGRAM

    12. Senator Lieberman. Secretary Young, I understand that the JSF 
program has made a sizeable reduction in the effort planned for fiscal 
year 2004 on the alternate engine. I understand this reduction 
represents a disproportionate share of an inflation adjustment assessed 
against the overall program. What is your assessment of the effect of 
this reduction?
    Secretary Young. The JSF Program Office is analyzing ways to limit 
the impacts of the GE F136 funding reductions in fiscal year 2004 and 
out (the inflation reduction was not applied to GE F136 fiscal year 
2003 effort), but the production engine competition likely will be 
delayed. The Department will reevaluate GE F136 funding and schedule as 
part of the fiscal year 2005 budget development process.

    13. Senator Lieberman. Secretary Young, are there any steps you can 
take to mitigate any potential delay in introducing the alternate 
engine to the program?
    Secretary Young. The JSF Program Office is analyzing ways to limit 
the impacts of the GE F136 funding reductions in fiscal year 2004 and 
out (the inflation reduction was not applied to GE F136 fiscal year 
2003 effort). The Department will reevaluate GE F136 funding and 
schedule as part of the fiscal year 2005 budget development process.

              POST-OPERATION ANACONDA PROCESS IMPROVEMENTS

    14. Senator Lieberman. General Keys, the subcommittee heard 
testimony from General Keane, the Army Vice Chief of Staff, several 
weeks ago. During those discussions, we asked General Keane about the 
Army and Air Force efforts to improve the ability to manage close air 
support operations, based on the concerns that came from Operation 
Anaconda. I was encouraged by his comments on the progress that the 
senior Air Force and Army leadership have made in dealing with these 
concerns. Would you like to comment on the Air Force's perspective on 
these discussions?
    General Keys. Air-ground operations are the key to success for the 
joint force. As a result, we have met several times at the 4-star level 
subsequent to our operations in Operation Enduring Freedom. Our joint 
doctrine and close air support procedures developed over 50+ years and 
tweaked during Korea, Vietnam, and Operation Desert Storm are sound. As 
a result of the lessons learned in Anaconda, we have had great success 
in Afghanistan with operations that were potentially just as hazardous 
as that situation, but with none of the problems experienced. We 
believe this is because we learned our lessons well and carried that 
knowledge into subsequent Operation Enduring Freedom operations. This 
knowledge in-turn became precursor to the successes we've had in 
Operation Iraqi Freedom.
    We continue to learn it is critical for the air component to know 
and understand the ground component commander's scheme of maneuver and 
for the ground commander to know and understand the air component's 
scheme of aerial maneuver and capabilities. We continue to actively 
support the Joint Close Air Support (CAS) Executive Steering 
Committee's efforts to improve joint close air support operations, 
training, equipment and interoperability. Finally, my staff is working 
closely with their Army counterparts to accelerate the revision of our 
Memorandum of Understanding on Liaison Support. This revision will 
provide improved two-way liaison support between the services and 
improve our inter-service working relationship.

    15. Senator Lieberman. General Keys, are we seeing concrete 
evidence of the fruits of those discussions in Operation Iraqi Freedom?
    General Keys. A lesson learned from Operation Enduring Freedom is 
the need to better integrate and coordinate our operation from 
strategic through tactical levels. I detailed Major General Leaf from 
my staff to head up a senior air component coordination element (ACCE) 
representation to the land component commander and more importantly, to 
provide the land component commander the critical ``Airman's 
perspective'' at the strategic and operational level of war. We also 
provided ACCE teams to other major head force entities. Accordingly, we 
made every attempt to solidify our joint integration in planning and 
conducting joint combat ops through every echelon. We wanted to ensure 
our liaisons were properly trained, manned, and equipped for their 
tasks. My staff also expended a tremendous amount of effort to ensure 
we had trained and equipped special tactics teams and tactical air 
control parties in place to meet the land component commander's 
requirements. At the tactical level this meant ensuring Air Support 
Operations Centers and Tactical Air Control Parties were in place in 
sufficient quantities to support the Army's V Corps as well as special 
operations forces and that they had the newest, most interoperable 
equipment. Every indication we have received so far says the air-ground 
integration we have seen and continue to see is remarkable, and is a 
critical factor in the resounding success of the overall operation.

                         PASSIVE ATTACK WEAPON

    16. Senator Lieberman. Secretary Sambur, your prepared statement 
highlights the shortened development you were able to achieve in a 
program you called the Passive Attack Weapon (PAW). What is the PAW?
    Secretary Sambur. PAW consists of non-explosive kinetic energy 
penetrators packaged in a tactical dispenser and guided with the Wind 
Corrected Munitions Dispenser (WCMD) tail guidance kit. The weapon is 
integrated on the F-16 and B-52, with future integration planned for 
the F-15E.

    17. Senator Lieberman. Secretary Sambur, what extraordinary steps 
did the Air Force have to take in order to get this weapon to the field 
so quickly?
    Secretary Sambur. Delivering a new capability in less than 6 months 
did not allow ``business as usual'' thinking, strategies, or execution. 
The PAW team constructed a program that demonstrated success in 
employing ``Best Practice'' initiatives. Using extensive cross-
functional teaming as advocated in the Department's Section 912(c) 
Report of the Commercial Business Environment Study Group, a multi-
command team was created to plan and execute the program. Team members 
were colocated within the program office and guided by a single goal of 
delivering a unique new combat capability by December 31, 2002. No 
military specifications were mandatory on PAW contracts and 
performance-based requirements were used--requirements were stated in 
less than one-half page in each contract.
    Technical data was exchanged using a web-based electronic transfer 
database, making information available and enabling rapid 
decisionmaking. Another initiative of great benefit was establishing 
and executing a seamless verification program. All information was 
shared with the extended team. In particular, the Operational Test 
Agency was given complete access to the program office's decisionmaking 
process.
    Ultimately, the effectiveness of the seamless verification approach 
is shown in AFOTEC's Operational Utility Evaluation making use of data 
from each of four weapons delivered during the flight test program, and 
traditional developmental and operational test activities were 
invisible.
    Finally, the Program Director was completely empowered to make all 
decisions on the program. As a result, decision timelines were 
extremely short, and the official with program accountability was 
vested with complete authority to ensure its success.

    18. Senator Lieberman. Secretary Sambur, which of these steps might 
be applicable to a broader set of acquisition programs?
    Secretary Sambur. All of these steps can be applicable to a broader 
set of acquisition programs. Implementation of a focused, cross-
functional team all reporting to a Program Manager empowered to make 
decisions can significantly reduce time from program initiation to 
fielding. Also, acceptance of seamless verification techniques promotes 
efficient and effective use of test resources, while reducing overall 
time to conduct required development and operational test activities. 
Lastly, understanding the capabilities required by the warfighter, and 
measuring against the readiness of available technologies, will allow 
better decisionmaking and risk assessment by the Program Manager and 
the acquisition-warfighter team.

                        ``FRIENDLY FIRE'' ISSUES

    19. Senator Lieberman. Admiral Nathman, General Hough, and General 
Keys, I know that flying extremely close to the ground while trying to 
identify friend from foe at high speeds is a daunting task. However, on 
March 28 an American A-10 apparently attacked a small convoy of British 
Chieftain tanks and Scimitar armored vehicles from the Household 
Cavalry. Preliminary reports indicate that the A-10 aircraft pressed 
the attack despite the fact that: (1) the attack took place in a 
British-controlled area; (2) the British armor had used colored smoke 
to identify themselves to the aircraft; and (3) the tanks and armored 
vehicles had friendly markings applied to their exterior. In the end 
one British tanker was killed and four were injured in the attack.
    Given the importance of coalitions to our national security, 
working with coalition partners, especially the British, will 
increasingly become the rule rather than the exception. How can we 
address the question of whether or not our procedures or training need 
to be updated to prevent such unfortunate accidents from recurring in 
the future?
    Admiral Nathman. The Navy recognizes the criticality of discerning 
friend from foe prior to engagement of any force. The Naval Strike and 
Air Warfare Center (NSAWC) in Fallon, Nevada, is responsible for 
training and evaluating each carrier air wing during the Inter 
Deployment Training Cycle (IDTC). Joint close air support, as governed 
by the JCAS Manual 3-09.3, and Rules of Engagement (ROE) are integral 
parts of friendly fire deconfliction training. Aviators, ground support 
and battlegroup leadership are briefed on carrier, air wing performance 
in friendly fire and ROE training missions. The JCAS Executive Steering 
Committee and NSAWC frequently review exercises to ensure curriculum 
satisfies current fleet training requirements and properly simulates 
the challenges faced in actual theatre operations. The Navy has 
incorporated lessons learned from the unique air-to-ground missions 
recently conducted in Afghanistan and will closely examine friendly 
fire incidents that occur during Operation Iraqi Freedom.
    General Hough. The Department of Defense devotes a tremendous 
amount of energy to prevent ``Friendly Fire'' mishaps from occurring. 
Joint Publication 3-09.3 outlines the ``Tactics, Techniques, and 
Procedures (TTP) for Joint Close Air Support.'' The Joint Staff just 
completed a review and revision of this publication and the 
recommendations and procedural changes made appear to be working well 
in Operation Iraqi Freedom according to initial feedback from the 
Marine Corps Assessment Team. The General Accounting Office has 
completed a study on training issues and is preparing to release their 
report. The Marine Corps awaits the results of this study and 
anticipates incorporating GAO recommendations.
    General Keys. We have tactics, techniques, and procedures designed 
to minimize the likelihood of such mishaps. An investigation will 
examine procedures and training as well as other pertinent factors. 
These will include the location of the convoy, the control measures in 
effect, the identification measures established for air-to-ground 
operations in the area, lighting conditions, weather, and similar 
potential relevant facts.
    While this incident is under investigation, any premature comment 
as to the cause of this tragedy could jeopardize the integrity of that 
investigation and consequently reduce the effectiveness of the remedies 
that investigation may recommend. It would therefore be particularly 
inappropriate to comment on ``preliminary reports'' whether they 
originate from official of press sources. We will look forward to 
informing you of the results of the investigation when that process is 
complete.
                                 ______
                                 
                QUESTION SUBMITTED BY SENATOR EVAN BAYH
                          JOINT STRIKE FIGHTER

    20. Senator Bayh. Secretary Young, the original fiscal year 2004 
budget request included $2.172 billion for the Navy's portion of the 
pre-System Development and Demonstration phase of the JSF program. Of 
this amount, $156 million was designated for continued development of 
the F136 engine as an interchangeable propulsion system with first 
flight in fiscal year 2008.
    I was recently informed of a post-budget adjustment, which would 
reduce F136 funding by $56 million in fiscal year 2004, a total 
reduction of $442 million through the current FYDP. Last year, Congress 
added funding to the JSF program specifically to ensure that the F136 
would be ready for initial production as early as possible. This recent 
budget adjustment jeopardizes congressional intent and I will continue 
to work with the committee and the Department to return the F136 to its 
original schedule.
    I would like to know why such a large portion of a routine consumer 
price index adjustment was disproportionately distributed to a single 
element of the JSF program (F136), and what steps will be taken to 
ensure that any adjustment is more equitably allocated? In addition, I 
would like to know if this cut by the Program Office was intended to 
set back F136 production? I support returning the F136 to its original 
schedule and seek your concurrence that the Program Office shares this 
sentiment.
    Secretary Young. The Office of Management and Budget issued revised 
inflation indices in January 2003. This required the JSF Program Office 
to reevaluate funding allocations within the program in fiscal year 
2003 and out. To hold schedule to first flight, production start, and 
fielding, and meet the services' Initial Operational Capability dates, 
funding was first applied to the Lockheed Martin Air System and the 
Pratt-Whitney propulsion contracts. The remainder of the funding was 
then allocated to the General Electric F136 engine contract and the 
Government support portions of the program. The JSF Program Office is 
analyzing ways to limit the impacts of the GE F136 funding reductions 
in fiscal year 2004 and out (the inflation reduction was not applied to 
GE F136 fiscal year 2003 effort),  but the production engine 
competition likely will be delayed. The Department will reevaluate GE 
F136 funding and schedule as part of the fiscal year 2005 budget 
development process.

    [Whereupon, at 4:15 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
